<html>
<title> - COLORADO RIVER BASIN</title>
<body><pre>[Senate Hearing 113-183]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-183

 
                          COLORADO RIVER BASIN 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

 RECEIVE TESTIMONY ON THE BUREAU OF RECLAMATION'S COLORADO RIVER BASIN 
                     WATER SUPPLY AND DEMAND STUDY

                               __________

                             JULY 16, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-774 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                     BRIAN SCHATZ, Hawaii, Chairman

TIM JOHNSON, South Dakota            MIKE LEE, Utah, Ranking
MARIA CANTWELL, Washington           JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JAMES E. RISCH, Idaho
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Connor, Michael L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     5
Ferris, Kathleen, Executive Director, Arizona Municipal Water 
  Users Association..............................................    38
Hawes, Taylor E. C., Colorado River Program Director, The Nature 
  Conservancy....................................................    32
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     4
Lee, Hon. Mike, U.S. Senator From Utah...........................     1
Ostler, Don A., Executive Director, Upper Colorado River 
  Commission.....................................................    15
Schatz, Hon. Brian, U.S. Senator From Hawaii.....................     1
Trujillo, Tanya, Executive Director, Colorado River Board of 
  California.....................................................    10
Udall, Hon. Mark, U.S. Senator From Colorado.....................     2
Vigil, T. Darryl, Chairman, Colorado River Basin Tribes 
  Partnership....................................................    19
Waskom, Reagan, Director, Colorado Water Institute, Colorado 
  State University...............................................    45

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................    75


                          COLORADO RIVER BASIN

                              ----------                              


                         TUESDAY, JULY 16, 2013

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Brian Schatz 
presiding.

   OPENING STATEMENT OF HON. BRIAN SCHATZ, U.S. SENATOR FROM 
                             HAWAII

    Senator Schatz. Good afternoon.
    Today we are here to discuss the Bureau of Reclamation's 
Colorado River Basin Water Supply and Demand Study. The Bureau 
and the 7 basin States including Arizona, California, Colorado 
and New Mexico, Nevada, Utah and Wyoming worked collaboratively 
with tribes, agricultural users, municipal and industrial water 
users, power users and environmental and recreational 
organizations to define current and future imbalances along the 
Colorado River.
    This was quite an undertaking. In fact, I'm told it's the 
most comprehensive basin wide analysis ever taken up by the 
Department of the Interior.
    The study was finalized in December 2012. We are here today 
to discuss the study's findings and the next steps.
    Unfortunately I have a scheduling conflict and cannot stay 
to Chair the hearing, but I've spoken with my friend and 
someone who knows this issue far better than I do, Senator Mark 
Udall. Given the significance of this topic in his home State 
of Colorado, he has agreed to chair the hearing today. I look 
forward to following up with him and the others on the 
committee on the next steps and anything that I can do in my 
role as subcommittee chair.
    At this time I'd like to recognize our Ranking Member, 
Senator Lee, for his comments. Then Senator Udall can make his 
opening statement followed by any other members.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman and Senator Udall.
    It's a pleasure to be here today with both of you. I thank 
you for leading this effort and this hearing on the Colorado 
River Basin Water Supply and Demand Study. It was released just 
a few months ago, last December.
    I thank the witnesses for being here today and all of you 
for joining us as well. I look forward to hearing the 
testimony.
    I especially want to welcome Don Ostler from the Salt Lake 
City area, from Bountiful, where my sister lives, to the Water 
and Power Subcommittee. So, welcome.
    Water supply has been and always will be a contentious and 
challenging issue in the American West. The Colorado River is 
at the heart of it. The river supplies water for millions of 
Americans and millions of acres of irrigated farmland. It's 
also the centerpiece of Grand Canyon National Park and many 
other recreational attractions.
    As these varying demands grow so too will the importance of 
managing the Colorado River in a responsible and circumspect 
manner which necessarily includes due respect for existing 
water rights.
    The most important fact to consider when examining water 
supply issues in the Colorado River Basin is that the river and 
its usage are primarily governed by the Colorado River Compact 
of 1922. As we hear the details of this report it's crucial to 
keep in mind that this compact will continue to control water 
supply decisions along the Colorado River. As evidence of this 
I might turn attention to the substantial disclaimer in the 
study that essentially states that nothing in the study is 
intended for use in any proceeding, whether Administrative or 
otherwise, that would impact the rights of States or tribes and 
the Colorado River.
    This is not to disparage the study itself, but to place 
this study in proper context. The report provides valuable 
information concerning the Colorado River, but does not serve 
as a foundation for any new regulatory or legislative 
proposals. The study seeks to inform, but not to direct.
    I thank the Bureau of Reclamation for conducting this study 
and also the witnesses for being here today. This subject 
impacts families and individuals across the West and is 
deserving of consideration by this subcommittee.
    I look forward to the testimony.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall [presiding]. Thank you, Senator Lee.
    I want to thank as well, Chairman Schatz for agreeing to 
loan me his gavel for today's important hearing. He sounded 
like I was doing him a favor, but in fact he has honored me by 
giving me an opportunity to chair what is a very important 
hearing to the State of Colorado and to the entire Southwest.
    Senator Heinrich has joined me. He and I called for this 
hearing earlier in the year because we felt it would be a 
perfect opportunity to bring our colleagues and the 
shareholders, stakeholders of all stripes, together to work 
collaboratively on a path forward. As Westerners and as avid 
outdoorsmen, the importance of water to our way of life was 
impressed upon us at a very early age. Much of our careers in 
public office have focused on solutions to our water 
challenges.
    I again want to thank Chairman Schatz. I appreciate his 
leadership on the Water and Power Subcommittee. His willingness 
to give us time to discuss a topic that's absolutely critical 
to our future.
    As Senator Lee knows water has literally shaped the West. 
It carved Colorado from red rock. It shaped landmarks from the 
Rocky Mountains to the Gulf of California.
    Water has etched green and fertile valleys into the desert 
and sustained generations of Americans in the Southwest. Water 
is literally what makes the West as we know it possible, from 
our ski resorts in places like Vail and Powderhorn to cities 
like Gunnison and Grand Junction to farmers in Utah, Arizona 
and California.
    But to understand the role that water has played in the 
West is to grasp the whole of modern Western history. The 
saying, ``Whiskey is for drinking. Water is for fighting.''
    Out West, the most important source of water we have is the 
mighty Colorado, which brings us to today's hearing on the 
Bureau of Reclamation's Colorado River Basin Supply and Demand 
Study.
    We have an impressive list of witnesses. Two of them 
hailing from my home State of Colorado. I want to welcome all 
of them to the committee. I look forward to hearing from all of 
you in just a few minutes.
    Former Colorado Congressman Wayne Aspinall used to say, 
``In the West, when you touch water, you touch everything.'' 
This is certainly the case for the Colorado River Basin.
    The Colorado River and its tributaries span parts of 7 
States and provide water to nearly 40 million people for 
municipal use and irrigate nearly 5.5 million acres of land.
    The Colorado River sustains at least 22 federally 
recognized tribes, 7 national wildlife refuges, 4 national 
recreation areas, 11 national parks and countless ecosystems 
and fish and wildlife species.
    This enormous demand, coupled with climate change and 
population growth, pose serious challenges for the Colorado 
River, our economy and our way of life. In order to meet these 
challenges it is important for us first, to acknowledge that 
current management and use of the river is unsustainable.
    Why do I say that?
    When you look at the current long term projections for 
supply and demand, demand is expected to outpace supply by 3.2 
million acre feet by 2060 or enough water to supply 3.2 million 
homes. Rising temperatures and ongoing drought are only 
exacerbating the pressure on the Colorado. Insufficient 
rainfall and snow pack have led to dwindling reservoir levels, 
leaving water managers with really difficult decisions about 
how to meet the water needs of cities, farmers and endangered 
species.
    The United States Bureau of Reclamation forecasted below 
average river flows for 2013, as had been the case for ten of 
the last 13 years.
    In my friend Senator Heinrich's home State of New Mexico, 
several communities over the last several weeks have literally 
run out of water due to the drought. At some point soon, there 
will not be enough water to meet the demands of the almost 40 
million people who depend on the Colorado River Basin for 
drinking water, agriculture, energy, hydropower, recreation and 
ecosystem and wildlife values.
    But as a Westerner--I think Senator Lee and Senator 
Heinrich would join me in saying this--I'm an eternal optimist, 
and we still have time to reverse this trend.
    Thanks in large part to the Bureau of Rec study, we've been 
presented with promising strategies that will help to overcome 
our current challenges as well as our more serious challenges 
in the future. These strategies, which include reducing demand 
through innovation, conservation and better management of the 
supply, will help us prepare for the future and reduce the 
River Basin's vulnerabilities.
    In the near-term, we need to--and I think we must--focus on 
conservation activities and water reuse and recycling. In 
short, we need to make every drop count.
    This study has been referred to as a call to action by many 
and rightfully so. It is time to act.
    There will, of course, be tradeoffs as we continue to 
engage all stakeholders on the best way forward. But this study 
and the procedure it puts forward will get the process rolling 
to make decisions. It's my hope that today's hearing will 
support that process and focus us on the necessary next steps.
    So I thank you for your attention. I thank the panel for 
being here. I want to turn to my colleague, Senator Heinrich, 
for any opening remarks he would like to make.

STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Senator Udall, Chairman.
    I want to welcome all the New Mexicans. Senator Udall said 
two of the 4 were from Colorado. I count 3 of the 4 from New 
Mexico. So it's a little bit like being a Marine. Once a New 
Mexican, always a New Mexican as far as I'm concerned.
    But I certainly want to welcome Mr. Darryl Vigil to the 
committee, a New Mexico native from Dulce and a member of the 
Jicarilla Apache Nation and the former Water Manager for the 
Jicarilla Apache Nation, a very important job and the current 
Chairman of the Colorado River Basin Tribes Partnership.
    Welcome, of course, Mike Connor and Tanya Trujillo and say 
hello to Mr. Ostler. I'm looking forward to your input today as 
well.
    I was home over the weekend. It was just so incredibly 
striking. I spent 3 days on the road in South Central New 
Mexico from Socorro down to places like Alamogordo, Ruidoso, 
met with folks from Cloudcroft and Magdalena.
    Magdalena, their sole source well started sucking air about 
3 weeks ago. That's never happened before.
    We had towns like Cloudcroft that are having water hauled 
to them as well.
    We have towns like Ruidoso and Alamogordo that are 
struggling with the impact of recent wildfires on those water 
supplies.
    These issues, while there are not directly related to what 
is going on in the Colorado Basin, are no different than what 
we see in the Colorado Basin. We're seeing more and more 
demand, less and less supply. So we're going to have to show 
some leadership to be able to rise to these challenges.
    I want to thank everyone who is here to testify today, to 
being part of that solution. Because in my view, it is the 
thing, the greatest challenge for those of us in Western 
States, is how to learn to live and hopefully thrive in the new 
normal.
    So, thank you very much for the opportunity to say a few 
words, Senator.
    Senator Udall. Senator Heinrich, thank you.
    Let's get right to the panel.
    Let me make a brief introduction of each of you and then 
we'll turn to the Honorable Mike Connor to kick things off.
    So we have been joined by the Honorable Mike Connor. He's 
Commissioner of the Bureau of Reclamation.
    Next to him is Tanya Trujillo, Executive Director of the 
Colorado River Board of California.
    Next to Ms. Trujillo, Don Ostler, Executive Director of the 
Upper Colorado River Commission and as Senator Lee mentioned, a 
proud resident of the State of Utah.
    Next to Mr. Ostler is Darryl Vigil, Chairman of the Ten 
Tribes Partnership.
    All of you, welcome.
    Mr. Connor, we'll kick it off with you.

    STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Mr. Chairman, Ranking Member Lee, 
Senator Heinrich.
    I'm Mike Connor, Commissioner of the Bureau of Reclamation. 
A New Mexican, I'm proud to say. Thank you for the opportunity 
to be here today to discuss the Colorado River Basin Study and 
its implications.
    There's no question that the Colorado River Basin is one of 
the most critical sources of water in the West. As you noted, 
Chairman Udall, the river and its tributaries provide 
hydropower, supply 40 million people with municipal water, 
irrigate nearly 5.5 million acres of land and provide the 
lifeblood for Indian tribes, national wildlife refuges, 
national parks as well as providing Ag and municipal water 
supplies to our neighbors in Mexico.
    Today the Colorado is facing a record drought. The period 
from 2000 to 2013 is shaping up to be the lowest 14-year period 
in the 100-plus years of historical measurements. The 
complexities of ensuring a sustainable water supply on the over 
allocated Colorado River has been recognized and documented by 
all 7 basin States for decades.
    It was against this backdrop that the study was conducted 
with input from a broad range of stakeholders. The purpose of 
the study was to define the current and future imbalances in 
water supply and demand over the next 50 years. The study did 
not result in a decision as to how future imbalances should be 
addressed. Rather it provides a common technical foundation 
that frames the range of potential imbalances and solutions 
that may be employed to address the situation.
    The study is an unprecedented joint effort and the most 
comprehensive basin wide analysis ever undertaken by the 
Department. It began in January 2010 and was completed in 
December 2012 at a cost of approximately $7 million, roughly 
shared by Reclamation and agencies representing the 7 basin 
States. The study is a model not only for other Reclamation 
basin studies, but for collaborative watershed planning across 
the country.
    The study used a scenario planning approach to identify a 
broad range of future conditions. It considers 4 different 
water supply scenarios and it is the first basin wide study to 
incorporate the influence of climate change on future water 
supply.
    A range of future demands were quantified in 6 different 
demand scenarios that included varied assumptions about 
economic conditions, population growth and water needs. When 
the median of water supply projections is compared against the 
median of the water demand projections, the basin wide 
imbalance in future supply/demand is about 3.2 million acre 
feet annually by 2060. The average reduction in hydropower 
output under this projection is approximately 12 percent but 
can vary widely under any of the future scenarios.
    Over 150 ideas or options were received and organized into 
4 groups.
    Those that increase basin water supply.
    Those that reduce water demand.
    Those that focus on modifying operations.
    Those that focus on governance and mechanisms to implement 
the options.
    While some may be too costly or technically infeasible, 
many of the ideas warrant further analysis.
    Ultimately this study is a call to action for all who rely 
on the Colorado River. In response to and consistent with 
aggressive actions that have been taken in the past 10 to 15 
years, a broad group of stakeholders, led by Reclamation and 
the 7 basin States are moving forward to take the appropriate 
next steps. These will ensure that continued aggressive actions 
are taken to address the gap in supply and demand.
    These actions will be taken on a strong foundation of 
recent successes that include the historic 2007 agreement on 
coordinated operations and shortage sharing as well as the 
recently completed Minute 319 agreement with Mexico under the 
1944 Treaty. These actions, along with others, have resulted in 
the conservation of over one million acre feet of water that's 
currently available in Lake Mead. That's ten feet of storage on 
Lake Mead, the installation of more efficient turbines on 
existing hydropower units and improved environmental conditions 
and endangered species populations in both the Upper and Lower 
basins.
    As next steps 3 multi-stakeholder workgroups have been 
formed to investigate municipal and industrial water 
conservation and water reuse, agricultural conservation and 
water transfers and the third group will look at environmental 
and recreational flows. Additionally the States and Reclamation 
will lead other efforts to address the situation. For example, 
Reclamation is working with the Ten Tribes Partnership in the 
Basin to complete a study related to tribal water needs.
    Against this backdrop of collaboration and commitments it 
is unfortunate to note that the FY2014 Energy and Water 
Appropriations bill passed by the House of Representatives last 
week eliminates the vast majority of WaterSMART funding that 
supported the study and which is key to taking actions 
necessary to address its findings. Overall the House bill would 
cut WaterSMART by 53 percent including the elimination of all 
funding for WaterSMART grants. This action undermines the 
Federal Government's ability to partner with basin States and 
local communities on critical investments that are needed to 
address water resource issues and improve the resilience of the 
Basin against climate related impacts that threaten both 
economic and environmental interests.
    The Administration urges Congress to restore funding for 
WaterSMART to the requested level. It is simply imperative that 
we maintain our ability to respond. As we enter our second 
decade of drought conditions the communities that rely on the 
river are being forced to make tough choices.
    Tree ring reconstructions of stream flow indicate that the 
current 14-year period is one of the lowest in not just the 
last 100 years, but the last 1,200 years. It is likely that 
climate change will exacerbate ongoing concerns that have major 
consequences on the Colorado River and those who rely on this 
oversubscribed resource.
    Resolving these challenges is going to take diligent 
planning and collaboration as well as resources from the 7 
basin States, the Federal Government, tribes, water managers, 
environmental groups and others to find solutions. Fortunately 
the level of cooperation among key stakeholders has never been 
higher. As a result there is reason for optimism, even in the 
midst of the daunting challenges that exist in this basin.
    Thank you for the opportunity to discuss this important 
study. I'll answer questions at the appropriate time.
    [The prepared statement of Mr. Connor follows:]

   Prepared Statement of Michael L. Connor, Commissioner, Bureau of 
                Reclamation, Department of the Interior
    Chairman Udall and members of the Subcommittee, I am Michael 
Connor, Commissioner of the Bureau of Reclamation (Reclamation) at the 
Department of the Interior (Department). Thank you for the opportunity 
to testify before the Subcommittee today regarding the Colorado River 
Basin Water Supply and Demand Study (Study). The Colorado River Basin 
(Basin) is one of the most critical sources of water in the West. The 
River and its tributaries provide water to nearly 40 million people for 
municipal use, for irrigation of nearly 5.5 million acres of land, and 
also it represents the lifeblood for at least 22 federally recognized 
Indian tribes (tribes), seven National Wildlife Refuges, four National 
Recreation Areas, and 11 National Parks. Hydropower facilities along 
the Colorado River provide more than 4,200 megawatts of generating 
capacity, helping to meet the power needs of the West and offsetting 
the use of fossil fuels. The Colorado River is also a vital component 
in fulfilling Mexico's agricultural and municipal water needs in Baja 
California and Sonora.
    Today the Colorado River is facing a record drought. The period 
from 2000 to 2013 is shaping up to be the lowest 14-year period in the 
over 100-year historical record for the Colorado River. Tree-ring 
reconstructions of streamflow indicate that the current 14-year period, 
which began in 2000, is one of the lowest in the Basin in over 1,200 
years. The challenges and complexities of ensuring a sustainable water 
supply and meeting future demand in the over-allocated and highly 
variable Colorado River has been recognized and documented by 
Reclamation and the Basin States of Arizona, California, Colorado, New 
Mexico, Nevada, Utah, and Wyoming for decades. Looking ahead, concerns 
regarding the reliability of the Colorado River system to meet water 
deliveries, power generation, environmental and recreational needs are 
even greater, given the likelihood of increasing demand for water and 
projections of reduced supply due to climate change.
    It was against this backdrop that the Study was conducted by 
Reclamation's Upper Colorado and Lower Colorado Regions and the Basin 
States with participation and input from a broad range of stakeholders 
including tribes, agricultural users, purveyors of municipal and 
industrial water, power users, and conservation, environmental and 
recreation organizations. The purpose of the Study was to define 
current and future imbalances in water supply and demand in the Basin 
and the adjacent areas of the Basin States that receive Colorado River 
water over the next 50 years (through 2060). The Study also included a 
wide array of adaptation and mitigation strategies proposed by 
stakeholders and the public to resolve those imbalances. The Study did 
not result in a decision as to how future imbalances should or will be 
addressed. Rather, it provides a common technical foundation that 
frames the range of potential imbalances that may be faced in the 
future and the range of solutions identified by stakeholders and the 
public that may be considered to resolve those imbalances. Reclamation 
has not taken a position on the merits of any of these actions or 
whether it may ultimately support pursuing any individual actions.
    The Study is one of 22 Basin Studies being undertaken by 
Reclamation and non-federal cost share partners across the West as part 
of the WaterSMART (Sustain and Manage America's Resources for Tomorrow) 
initiative. Through WaterSMART, Interior agencies work with state and 
local water managers to plan for climate change, drought and other 
threats to water supplies and consider their potentially interrelated 
and combined effects, and take action to secure water resources for 
communities, economies, and the ecosystems they support.
    The Study is an unprecedented joint effort by Reclamation and the 
Basin States and is the most comprehensive basin-wide analysis ever 
undertaken within the Department. It began in January 2010 and was 
completed in December 2012 at a cost of approximately $7.0 million, 
which was roughly equally shared by Reclamation and agencies 
representing the seven Basin States. This figure does not include the 
``in-kind'' services by all of the other collaborators. The Study is a 
model, not only for other Reclamation basin studies, but for watershed 
planning across the country.
    The FY 2014 Energy and Water appropriations bill passed by the 
House of Representatives last week drastically underfunds critical 
investments that develop American energy sources to build a clean and 
secure energy future; develop and commercialize the emerging 
technologies that create high-quality jobs and enhance the Nation's 
economic competitiveness; and improve resilience against current and 
ongoing climate impacts that threaten our economy, public health, and 
natural resources. The bill eliminates the vast majority of WaterSMART 
funding that supported the Colorado River Basin Study and would 
significantly hinder actions under the WaterSMART program that could 
help address water supply shortages in the Colorado River Basin and 
elsewhere. Overall, the House bill would cut WaterSMART by 53%, 
including the elimination of all funding for WaterSMART grants, despite 
already having helped facilitate the conservation of 616,000 acre feet 
of water from 2010 through 2012. This action undermines the Federal 
government's ability to partner with local communities on improving 
resilience against climate-related impacts that threaten a range of 
economic and environmental interests. The Administration urges the 
Congress to increase funding for the Bureau of Reclamation to the 
requested level and to allocate funding to priority conservation, 
science, and technology programs.
      the study builds on a history of collaboration in the basin
    Water managers and water users in the Colorado River Basin have 
long recognized the need to adapt to and mitigate the impacts of 
shortfalls between water supply and demand. As early as the 1950s, the 
estimated annual water use in the Colorado River basin exceeded the 
annual yield in some years. Prior to that, early water planning efforts 
resulted in the construction of significant infrastructure such as 
Hoover and Glen Canyon Dams. This infrastructure--about four years of 
average natural flow of the river--has helped to avoid past water 
shortages and to provide substantial power generation benefits to the 
region. Recently, substantial progress has been made on refining 
Colorado River water management, including the 2007 interim guidelines 
for shortage, surplus, and coordinated operations, and the 2012 
agreement with Mexico known as Minute 319 to the 1944 Treaty with 
Mexico. These efforts have resolved potential conflicts in the short 
and mid-term, are providing operational certainty in that same time 
frame, and are facilitating conservation actions along with increased 
water storage that is already helping to alleviate the impacts of the 
ongoing drought. The benefits of these agreements will continue to 
accrue for the foreseeable future.
    The key to these historic accomplishments was collaboration and 
partnerships. It is in that same spirit that the Study was conducted. 
Through monumental outreach efforts, interested parties were engaged 
and their participation and input was critical to the Study.
study approach and projected range of water supply and demand imbalance
    The Study adopted state of the art techniques and approaches to 
incorporate science, address uncertainty, and assess risk. In 
particular, a scenario planning approach was used to identify a broad 
range of future conditions leading to the most robust data generation 
and analysis of any planning effort in the Basin. The Study considers 
four different water supply scenarios and is the first Basin-wide study 
that considers the potential influence of climate change on future 
water supply. A range of future water demands were quantified in six 
different demand scenarios that included varied assumptions about 
future economic conditions, population growth, and water needs for 
agricultural, municipal and industrial, energy, mineral, and fish, 
wildlife, and recreation purposes.
    The Study confirms that the Basin faces a range of potential future 
imbalances between supply and demand. Each of those imbalances results 
in decline in the performance of water deliveries, hydropower, water 
quality, ecological, and recreational resources. When the median of 
water supply projections is compared against the median of the water 
demand projections, the basin-wide imbalance in future supply and 
demand is about 3.2 million acre-feet annually by 2060. The average 
reduction in hydropower output under this projection is approximately 
12%. However, the imbalance can be much greater, or less, under any one 
of the multiple future supply and demand scenarios that could occur.
    The Study relied upon participants, stakeholders, and the public to 
provide a broad range of potential options to help resolve the water 
supply and demand imbalance. The Study then organized over 150 ideas or 
``options'' into four groups: 1) those that increase Basin water 
supply, 2) those that reduce Basin water demand, 3) those that focus on 
modifying operations, and 4) those that focus primarily on Basin 
governance and mechanisms to implement options. , The Study explored a 
wide range of options with the goal of incorporating all viable 
opportunities, even those that that may ultimately be uneconomic or 
technically infeasible. Reclamation has not taken a position on the 
merits of any of these actions or whether it may ultimately support 
pursuing any individual actions.
    An effective adaptation strategy would likely include large 
agricultural, municipal, and industrial conservation and water 
transfers, and water reuse options. Longer-term solutions are still 
unclear, and may or may not involve the use of large-scale 
augmentation, such as ocean desalination.
    The Study's portfolio exploration indicates that implementation of 
a broad range of options can reduce the Basin's vulnerability and 
improve the system's resiliency to dry hydrologic conditions while 
meeting increasing demands in the Basin and adjacent areas receiving 
Colorado River water.
                     moving forward after the study
    This Study is not a regional or river basin plan or proposal, or a 
plan for any Federal water resource project. Rather, Reclamation 
intends that the Study will promote and facilitate cooperation and 
communication throughout the Basin regarding the reliability of the 
system to continue to meet Basin needs. However, In recognition of the 
enormous challenge facing the Basin states, the Federal Government can 
provide a leadership role in appropriate processes to facilitate 
dialogue about addressing water supply and demand imbalances in the 
Colorado River Basin. As a part of this federal facilitation process, 
Department of the Interior Assistant Secretary for Water and Science 
Anne Castle and I participated with representatives from the Basin 
States, the Ten Tribes Partnership, and conservation organizations in a 
``Moving Forward'' public event in late May. This continuing effort 
will require innovative thinking, integration of many viewpoints and a 
commitment to work in a positive and collaborative spirit.
    Phase 1 of this process builds on the critical investigations 
identified in the Study and consists of the formation of three multi-
stakeholder workgroups representing Federal, State, Tribal, 
agricultural, municipal, hydropower, environmental, and recreational 
interests. These workgroups will investigate: 1) Municipal and 
Industrial (M&I) Conservation and Water Reuse, 2) Agricultural 
Conservation and Water Transfers, and 3) Environmental and Recreational 
Flows. As projects, policies, and programs are developed, consideration 
will be given to those that provide a wide-range of benefits to water 
users and healthy rivers for all users. In addition, Reclamation and 
the Ten Tribes Partnership are jointly pursuing a study related to 
tribal water use and long-term needs.
    It is anticipated that Phase 1 will be completed by 2014, after 
which Phase 1 efforts will be reviewed, additional phases will be 
identified, and the process will be reassessed and modified as needed 
to facilitate anticipated further phases of work. Of course, this new 
initiative is responsive to the findings of the Study and will be 
carried out in parallel with ongoing efforts such as continued 
operations under the 2007 guidelines; implementation of Minute 319; 
installation of more efficient turbines on existing hydropower units; 
and actions to further implement endangered species recovery programs 
in the upper and lower basins. Collectively, these initiatives are 
critical for short and mid-term operations, even as we seek to improve 
long-term preparedness in the Basin.
                               conclusion
    The Department of the Interior and Reclamation view the Colorado 
River Basin Study as a critical step to establish a common technical 
foundation from which important discussions can begin to help ensure 
the sustainability of the Colorado River system. As we enter our second 
decade of drought conditions, the communities that rely on the river to 
sustain them are being forced to make tough choices. Tree-ring 
reconstructions of streamflow indicate that the current 14-year period, 
which began in 2000, is one of the lowest in the Basin in over 1,200 
years. It is likely that climate change and its emerging challenges 
will have major consequences on the Colorado River. There is no silver 
bullet to solve these challenges. Fortunately, the level of cooperation 
among key stakeholders has never been higher and as a result, there is 
reason for optimism, even in the midst of the daunting challenges that 
exist in this Basin. The Department will continue to be a partner in 
assisting the Colorado River Basin prepare for, and successfully 
address, the significant issues identified in the Study.
    This concludes my written statement. Thank you for the opportunity 
to discuss these important topics. I am prepared to answer questions at 
the appropriate time.

    Senator Udall. Thank you, Commissioner.
    Ms. Trujillo.

STATEMENT OF TANYA TRUJILLO, EXECUTIVE DIRECTOR, COLORADO RIVER 
                      BOARD OF CALIFORNIA

    Ms. Trujillo. Thank you very much and good afternoon. It's 
an honor to be here today. I am Tanya Trujillo, the Executive 
Director of the Colorado River Board of California. My comments 
will focus on the Lower Basin States of California, Arizona and 
Nevada, but I very much appreciate being here with my 
colleagues from the Federal Government, the Upper Basin States 
and the basin's tribes as well.
    I flew along the Colorado River on my way out here and 
followed the river from Lake Mead, outside Las Vegas, through 
the Grand Canyon and into the Western mountains of Colorado. I 
started that day in Los Angeles where the Colorado River is 
part of our drinking water supply. In California we appreciate 
the importance of the Colorado River to our communities and our 
economies. We understand the diversity of interests that rely 
on it.
    This hearing centers on the Basin study that Reclamation 
and the States conducted. The study has been a helpful tool 
that will assist us as we continue to wisely plan for the 
future. Prudent water management means that we need to be as 
careful as possible with how water is used and to be creative 
as possible with respect to development of additional supplies.
    Although the Colorado River system is a variable system we 
have been experiencing a sustained drought for the past 14 
years. We know that we need to be able to manage our systems 
for times of drought.
    The Lower Basin States have worked together over the past 
20 years to develop strategies to manage the limited Colorado 
River supplies. We initially developed a system for allocating 
surplus water because at that time we had been experiencing a 
few decades of very good hydrology. But we also moved forward 
to develop a system for addressing potential shortages and 
developed agreements that provide for water banking and storage 
so that we have water to save for future uses.
    Within California for the past 10 years, our water users 
have had agreements in place that allow for the transfer of 
water between agricultural uses and municipal uses. Those 
agreements preserve the essential agricultural productivity in 
our State, but also provide for security for our cities. 
Additional tools such as lining canals and improving irrigation 
efficiency are also being put into place.
    Throughout the Lower Basin our cities continue to develop 
water savings programs to help reduce our overall per capita 
water uses. On a basin wide level the basin States and our 
water users work closely with the Bureau of Reclamation to 
develop guidelines for the coordinated operation of Lake Powell 
and Lake Mead. We also worked with Reclamation and the 
International Boundary Water Commission on a recent agreement 
with Mexico to allow for flexibility in water deliveries in 
that system. These types of agreements help us efficiently 
manage our water supplies.
    Although we don't know exactly what the future will hold we 
can use the 90 years of experience that we have and our recent 
collaborations to help us address our future challenges. No 
single strategy will be enough. But through additional 
conservation, flexible management and the development of 
additional supplies, we will strive to protect the many 
important uses on the river.
    Although we can always revert back to our respective 
corners and work to strengthen our historical positions, our 
current efforts are focused on working together to develop 
coordinated solutions. These coordinated efforts are not easy 
and if the hydrology continues to worsen the tensions will 
increase. But through the rapport and trust that we have 
developed through the 2007 guidelines and our more recent 
efforts working together, for example with Mexico, we hope to 
continue our forward progress.
    We know that we need to coordinate with our Federal 
partners on all of these efforts and with our tribes and with 
the environmental interests in our States. Working together we 
can address the challenges that may lie ahead. We look forward 
to a productive dialog. We think the Basin studies next steps 
process will be a helpful effort.
    Thank you for the opportunity to be here today. I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Trujillo follows:]

  Prepared Statement of Tanya Trujillo, Executive Director, Colorado 
                       River Board of California
    Thank you for this opportunity to testify before the Subcommittee 
regarding the Colorado River Basin Water Supply and Demand Study. I am 
Tanya Trujillo, Executive Director of the Colorado River Board of 
California. I appreciate the interest of the Subcommittee regarding 
this important topic.
 background regarding the colorado river basin water supply and demand 
                                 study
    The Colorado River Basin Water Supply and Demand Study (Basin 
Study) is the latest collaboration between the Department of the 
Interior's Bureau of Reclamation and the seven Colorado River Basin 
States of Arizona, California, Colorado, New Mexico, Nevada, Utah and 
Wyoming. Although this testimony will focus on the perspective of the 
Lower Division States of Arizona, California and Nevada, the Basin 
Study is a good example of coordination among all of the basin States, 
interested water agencies, and others to collectively address the water 
supply challenges that the basin may face in the future.
    The Colorado River Board of California was established in 1937 to 
protect the interests and rights of the State of California, its 
agencies, and citizens, in the water and power resources of the 
Colorado River System. The Colorado River Board of California's member 
agencies are Palo Verde Irrigation District, Imperial Irrigation 
District, Coachella Valley Water District, the Metropolitan Water 
District of Southern California, the Department of Water and Power of 
the City of Los Angeles, and the San Diego County Water Authority. The 
Colorado River Board also includes two members of the public and the 
Directors of the California Water Resources and Fish and Wildlife 
Departments. California has a normal, annual allocation from the 
Colorado River of 4.4 million acre-feet of water. Water from the 
Colorado River is used to irrigate over 700,000 acres of some of the 
most productive farmland in the country, particularly during the 
winter. The Colorado River is also a very important component of the 
water supply for the municipalities in Southern California, which 
provide water service to around 20 million people.
    The Colorado River provides similar benefits within Nevada, 
providing approximately 90% of the municipal water supply for member 
agencies of the Southern Nevada Water Authority (SNWA) which include 
the Cities of Las Vegas, North Las Vegas, and Henderson, as well as 
Clark County. SNWA has two intakes in Lake Mead at elevations 1,050 and 
1,000 feet above sea level; therefore, the future levels of Lake Mead 
are critical to a continued supply of water for southern Nevada.
    The Colorado River is also a vital resource for the State of 
Arizona. About 39% of Arizona's total water demand is met with Colorado 
River water. Colorado River water is used to meet municipal, 
agricultural, industrial and tribal water demands. It is stored 
underground to provide protection against future droughts and shortages 
and to conjunctively manage groundwater levels in central Arizona.
    The communities that rely on Colorado River water in the Lower 
Division States are committed to ensuring that they utilize effective 
water management strategies and continue their ongoing planning efforts 
to protect and preserve Colorado River resources for many years.
    The Colorado River Basin States and the Department of the Interior 
have worked collaboratively for many years to overcome challenges 
relating to water allocation and to balance the many interests that 
exist within the Colorado River Basin. The Basin Study is another 
example of this successful partnership. The Basin States contributed 
one-half of the funding to conduct the study and provided extensive 
background information and technical input during the study. Over a 
three-year period, the Basin States, individual water agencies, other 
interested parties and the Bureau of Reclamation worked hand-in-hand to 
produce the most comprehensive analysis of the Colorado River Basin's 
prospective water supply and demands to date. This collaborative effort 
compiled input from interested parties throughout the Basin including 
environmental organizations, Native American tribes and communities, 
hydroelectric power and recreational interests, and other federal 
agencies. The collaboration continues and the ongoing efforts will 
assist the Colorado River Basin managers in effectively addressing the 
challenges that lie ahead.
                      the story of the basin study
    The Basin Study is the most recent projection of the potential 
imbalances between water supply and demands in the Colorado River Basin 
and adjacent areas of the Basin States that receive Colorado River 
water. The Basin Study incorporates projections based on an evaluation 
of the potential effects of climate change on runoff within the Basin 
that may result in even more uncertainty regarding the potential future 
conditions the Basin may face. By analyzing four different supply 
scenarios and six different demand scenarios, the Basin Study projects 
that without continued proactive water management efforts in place, an 
overall average imbalance between available water supply and potential 
demands of about 3.2 million acre-feet by 2060, although the range of 
potential imbalances varied between 0 and almost 8 million acre-feet.
    The Basin Study's analysis was not a new concept for the Basin 
States or the Bureau of Reclamation. Prior studies and analyses also 
concluded that without development of effective water management 
strategies to address growing demands for water, an imbalance between 
available water supply and projected demands could exist. For decades, 
communities that rely on Colorado River water have made significant 
investments to conserve water, reuse water, develop supplemental water 
resources and construct infrastructure designed to efficiently utilize 
water. The Basin Study reinforces the continued need to implement 
programs and policies to address the water management challenges 
associated with the many competing needs for the river's waters.
    Consistent with the ongoing practices and strategies for wise 
management of the Colorado River's resources, the Basin Study 
identified a broad range of options and strategies to address projected 
imbalances between supply and demands. The suggestions were gathered 
from hundreds of perspectives, including the general public. The Basin 
Study categorized the proposed options and strategies according to 
whether they were aimed at reducing demands, increasing supplies, or 
modifying existing operations. All of the recommended options and 
strategies will require additional review and analysis before any of 
them can be implemented. None of the recommended options, on their own, 
would be sufficient to address the projected imbalances, but by 
grouping options and ideas together and analyzing the effects of 
combined efforts, a future scenario that maintains the balance between 
potential future supplies and demands is possible.
    The technical team that conducted the Basin Study should be 
complimented for their competent and professional approach to 
completing the Basin Study's Technical Reports. The technical work will 
continue to be essential as the Basin's water managers, agencies, 
businesses and individuals that rely on the Colorado River, progress 
forward. The Basin Study is an excellent example of a successful 
collaborative effort between the Federal Government and the Basin 
States that builds upon prior successful cooperation and hopefully will 
lead to successful continued coordination for decades to come. In this 
regard, the Colorado River Basin can be a model for other complex river 
systems.
continued efforts to address the projected imbalance between supply and 
                                demands
    For more than 20 years, the Colorado River Basin States have been 
working with the Department of the Interior on ways to better manage 
the water supplies within the Colorado River Basin. The completion of 
the Basin Study in December 2012 was another step in the right 
direction. Since December, the Basin States and Interior have been 
collaborating with other interested participants to map out the next 
stages of cooperation. The Basin Study identifies several areas of 
potential future actions and the Basin States and the Bureau of 
Reclamation are working to implement each of the Basin Study's 
recommendations. To evaluate some of these future actions, three 
workgroups have been formed. The Municipal and Industrial Conservation 
and Reuse workgroup will evaluate existing programs to refine the 
estimate of potential water saved through conservation and reuse 
programs. The Agricultural Conservation and Transfers Workgroup will 
refine the estimated potential savings from agricultural conservation 
and transfers. The Healthy Flows workgroup will evaluate potential 
model improvements for simulating river flows and evaluate certain 
river reaches.
    In conjunction with the release of the Basin Study, the Basin 
States released a statement confirming their ongoing commitments to 
future actions. Acknowledging the highly variable nature of the 
Colorado River system and recognizing that no single solution will be 
sufficient to meet the future potential water demand and supply 
imbalances, the Basin States identified a series of local, regional and 
basin-wide projects that are underway or can be implemented to help 
meet future demands for water within the Basin. The Basin States 
confirmed the need to adhere to the ``Law of the River'', which has 
served the Basin well for over 90 years and has evolved to meet ever 
present challenges.
    The Basin States recognize that successful ongoing water 
conservation and reuse efforts have been adopted by many municipal 
agencies in each State to reduce growing needs for water. In many 
areas, the per capita use of water is lower now than in the past 
despite higher populations. Municipalities within the Basin will 
continue to implement water conservation and reuse opportunities, and 
are working closely with the other members of the Basin Study's 
Municipal and Industrial Conservation and Reuse Workgroup to refine the 
Basin Study's assumptions.
    Similarly, the Basin Study's Agricultural Conservation and 
Transfers Workgroup will document the existing conservation and 
transfers of Colorado River water throughout the Basin. Within 
California, significant amounts of water will continue to be 
transferred from agricultural to municipal uses pursuant to existing 
agreements between specific water users. These types of voluntary 
agreements are designed to provide mutual benefits to the participating 
agencies and are important tools available to help manage finite 
supplies of water.
    Many of the water providers within the Lower Division States 
already have been very proactive in meeting existing water supply needs 
through wise management of the Colorado River's resources, and also 
have developed additional sources of water, recognizing that developing 
a balanced portfolio of water supply is a sound water management 
practice. California's municipal water providers serve close to 20 
million of the more than 30 million people who receive at least part of 
their water supply from the Colorado River. California's municipal 
conservation efforts include conservation, water recycling and reuse 
and development of local groundwater resources to supplement water 
supplies. The Metropolitan Water District of Southern California's 2013 
Annual Progress Report to the California State Legislature documents 
the agency's achievements in conservation, recycling and groundwater 
recharge. In Nevada, between 2002 and 2012, the Southern Nevada Water 
Authority's consumption of Colorado River water decreased by 
approximately 29 billion gallons, despite the addition of 400,000 
residents. SNWA has implemented a broad range of education and 
incentive programs to encourage ongoing water conservation. Arizona has 
also developed programs to encourage efficient agricultural, industrial 
and residential water uses and has an extensive groundwater management 
system in place to try to balance the surface and groundwater uses in 
Active Management Areas that include the largest population centers of 
the state.
    Water delivery contractors within the Lower Division States, such 
as the Southern Nevada Water Authority, the Metropolitan Water District 
of Southern California, and the Central Arizona Water Conservation 
District are allowed to bank portions of their conserved water supplies 
and have jointly funded projects to help increase the water resources 
within the Basin. These States have developed proactive water 
management agreements regarding how to allocate surplus water when it 
is available under certain conditions and how to address shortage 
conditions if the water supply levels deteriorate. On a basin-wide 
level, all seven Basin States have agreed to coordinated operating 
guidelines that the Bureau of Reclamation uses to manage releases of 
water from Lake Powell to the Lower Basin. These types of agreements 
have set the stage for the continued cooperation that exists today.
    The Basin States have also been working to develop basin-wide 
programs to support weather modification and vegetation management 
options, and have committed to evaluate additional water supply 
augmentation options such as large-scale desalination and importation 
projects that will require extensive planning and research prior to 
being considered for implementation. The Basin Study's ``next steps'' 
outline describes the ongoing commitments of the Basin States to lead 
efforts to explore additional water banking, water supply augmentation 
and watershed management options to address short-term and long-term 
needs for water.
    The Basin States will also continue their efforts to assist in 
implementation of the International Boundary and Water Commission's 
Minute No. 319 to the 1944 Treaty for the Utilization of Waters of the 
Colorado and Tijuana Rivers and of the Rio Grande between the United 
States and Mexico. Executed in November 2012, Minute No. 319 extends 
some of the water management flexibilities developed within the United 
States, such as water banking, to the context of the United States' 
Colorado River water delivery obligations to Mexico. Collaboration with 
federal, state, and local representatives in Mexico resulted in the 
development of this mutually beneficial agreement. Continuing to build 
off the success of Minute No. 319 would result in additional basin-wide 
benefits.
    The collective management efforts among the Basin States, water 
agencies and the Federal Government have kept the water levels higher 
in Lake Mead than they otherwise would have been, despite having 
endured over 10 years of drought. In light of the looming possibility 
of continued drought and the Basin Study's recent projections of 
potential supply and demand imbalances, it is more important than ever 
that we continue to roll up our sleeves and work together to find 
creative, implementable solutions.
                          the role of congress
    The SECURE Water Act, Subtitle F of P.L. 111-11, provided general 
authority for the Basin Study and provides continued authority for the 
federal agencies to work with State and local entities to plan for the 
future and develop water sustainability strategies. Ongoing 
Congressional support for funding for the Bureau of Reclamation's Water 
SMART and Title XVI Water Reclamation and Reuse programs would help 
continue the beneficial cooperation that currently exists within the 
Basin. The Water SMART programs are cost-shared by the non-federal 
participants and provide assistance to local water management entities 
that are attempting to conserve water and maximize water use 
efficiency. Investments in existing water supply infrastructure to 
ensure that the operation of existing facilities can be as efficient 
and secure as possible and continued funding for water efficiency and 
conservation programs that are matched by or enhance the ongoing 
efforts at the state and local levels are helpful tools that should 
continue.
                               conclusion
    The Colorado River Basin States recognize that we are part of a 
complex community that relies on a vitally important shared natural 
resource and involves diverse areas of responsibility. The impacts of 
continued drought are being felt by all of the varied users of water 
within the Basin States. The Basin States plan to continue our 
successful collaborations, including the recent successes with Mexico, 
to develop tools and strategies to enable us to address ongoing 
challenges and meet the evolving demands on the Colorado River. The 
Basin Study's technical foundation will help support that process.
    Thank you for the opportunity to provide testimony on this 
important topic.

    Senator Udall. Thank you, Ms. Trujillo.
    Mr. Ostler.

STATEMENT OF DON A. OSTLER, EXECUTIVE DIRECTOR, UPPER COLORADO 
                        RIVER COMMISSION

    Mr. Ostler. Good afternoon, Mr. Chairman and subcommittee 
members. Thank you for the opportunity to present testimony on 
this important topic.
    My name is Don Ostler. I'm the Executive Director of the 
Upper Colorado River Commission. My Commission was created by 
ratification of the 1948 Upper Colorado River Basin Compact. 
It's comprised of members appointed by the Governors of the 4 
Upper Basin States of Wyoming, Utah, Colorado and New Mexico 
and one member appointed by the President to represent the 
interest of the United States.
    As we talk about the study it's important to recognize that 
this is not the first study of its kind in the Colorado River 
Basin. The States and Reclamation and others have been doing 
studies of supply and demand for many years. For example, the 
Upper Basin has completed numerous studies to determine the 
safe annual yield of the Upper Colorado River to determine our 
safe development levels.
    It has already been mentioned that 2007 interim guidelines 
is an action taken to help us manage shortage and coordinated 
operations.
    It's also been mentioned that Minute 319 for the Mexican 
Water Treaty is a monumental action to help Mexico share in 
shortage, give them tools to address shortages and mitigate 
shortages, but better yet, to potentially augment the supply 
for all the users of the Colorado River Basin.
    These types of actions including the study that we're 
talking about today are possible only by recognizing the close 
relationship that exists between the Department of the 
Interior, the Bureau of Reclamation and the States. The States, 
after all, are the managers of the water within their 
boundaries. They're the direct link to water users on the 
ground.
    Reclamation and the Department of the Interior is the water 
manager for the Lower Basin and they operate the reservoirs 
that we depend upon.
    The Upper Colorado River Commission is the water manager 
for the water master for the Upper Basin.
    Now a word about the Study.
    The Basin study is an important step to refine and help us 
improve our strategies and options to address the supply and 
demand imbalance. The results of this study are no surprise the 
basin States. We have seen supply and demand imbalance 
projections before. This is a refinement at a level that is 
unprecedented, however, in terms of the level of this study.
    Another thing to remember with regards to this study is 
there are great uncertainty with regards to projections of the 
future. A good thing about this study is that it took a 
scenario approach to assume many different scenarios for 
demands in the future and many different scenarios for supply 
in the future. So that we have good data, regardless of which 
of those scenarios turn out to be true and we can plan for all 
of those scenarios which is the appropriate thing to do, in my 
opinion.
    Another thing that we learned from the study is that no 
single strategy will solve our vulnerability by itself. We need 
to implement a portfolio of actions in order to address and 
reduce the vulnerability of this entire basin to shortage. 
Those actions could include conservation, changing management 
approaches, as well as augmentation.
    Finally, even if we do that, we still will have to have 
good shortage management plans because vulnerability in this 
basin will not be entirely eliminated with the strategies that 
we're looking at. But we can manage. We can make things 
bearable as we go through extreme droughts.
    I would like to just simply mention a couple of things that 
are different from the strategy between the Upper Basin and the 
Lower Basin.
    The Upper Basin States, which I represent, have additional 
water to develop from the Colorado River according to the 
compact and according to the safe annual yield of the river.
    Second is climate assumptions. Probably are the most 
significant impactor of our vulnerabilities in the Upper Basin, 
even more significant than the various ranges of development or 
demand growth.
    Finally the Upper Basin experiences shortages now every 
year. Those shortages are in the tributaries usually where we 
do not have storage. They exist now and they will continue in 
the future unless we find some way to provide storage for those 
tributaries. That's no possible in all of them.
    So shortage is a fact of life.
    The Lower Basin, on the other hand, is at full development 
of all the water really that's available from the compact. They 
face imminent system shortage. They face much greater problems 
of serving additional growth.
    So I think the importance of this is that, I think, all of 
the States are lined up to initiate the next steps. No one 
wants to see this study sit on the shelf. I think actions have 
been taken under the leadership of the Bureau of Reclamation, 
the Department of the Interior and the States to further move 
toward implementation strategies.
    I'm optimistic with the foundation that we have, with our 
past working relationships, with proper attention to the role 
of each of the entities that are represented at this table, 
that we can greatly improve our future and manage through the 
droughts that we are expected to see.
    Thank you.
    [The prepared statement of Mr. Ostler follows:]

Prepared Statement of Don A. Ostler, Executive Director, Upper Colorado 
                            River Commission
                              introduction
    Good afternoon Chairman Schatz and members of the Subcommittee. 
Thank you for the opportunity to provide testimony on the important 
topic of the December 2012 Colorado River Basin Water Supply and Demand 
Study. My name is Don Ostler and I am here today as the Executive 
Director representing the Upper Colorado River Commission (the 
Commission). The Commission is an interstate water administrative 
agency created by State and federal ratification of the 1948 Upper 
Colorado River Basin Compact (Compact). The Commission is comprised of 
one person appointed by the Governor of each of the Upper Division 
States of Wyoming, Utah, Colorado and New Mexico. In addition, the 
President appoints one Commissioner to represent the United States. The 
responsibilities of this Commission include performance of all 
functions required of it by the Compact. Among the duties assigned 
include engaging in cooperative studies; making findings of the annual 
quantity of water used in the Upper Basin; making findings of the water 
deliveries to Lee Ferry (the Lower Basin); making findings of the 
necessity for and extent of curtailment of use required by the Compact; 
making findings of the quantity of reservoir losses and the share 
chargeable under the Compact to each state and finally; making findings 
of fact in the event of the occurrence of extraordinary drought or 
serious accident to the system in the Upper Basin which may affect the 
United States' obligations under the Mexican Water Treaty of 1944. As 
you can see, this Commission has been and will continue to be 
critically involved along with the Upper Division States in the 
administration of Colorado River water. The Upper Basin includes the 
Colorado River and all tributary waters that drain into the River above 
Lee Ferry Arizona, a point about 16 miles downstream from Glen Canyon 
Dam. The Lower Basin includes the Colorado River and all tributary 
water draining into the River downstream of Lee Ferry Arizona prior to 
its passage into Mexico and includes water users in Arizona, Nevada, 
California and small parts of New Mexico and Utah.
        role of the states and the commission in the basin study
    The Colorado River Basin States and the Commission have long been 
involved in planning for development of the Colorado River water supply 
including forecasting supply and demand issues and developing 
strategies to address potential problems. For example, the Commission 
and Upper Basin States in partnership with Reclamation have conducted 
several hydrologic studies to determine the safe annual yield of the 
Colorado River in the Upper Basin. These studies have been used to 
guide development and use of Colorado River water in the Upper Basin. 
The seven Colorado River Basin States in cooperation with Reclamation 
have a history of working together to identify problems in advance and 
to cooperatively craft strategies to mitigate or avoid anticipated 
problems without disturbing the ``Law of the River''. Recent examples 
of this include the development of Interim Shortage Guidelines and 
Coordination of Reservoir Operations in 2007 to mitigate or avoid the 
effects of drought. In addition, the States recently played a major 
role along with the Department of the Interior (DOI) in initiating and 
conducting discussions with the government of Mexico to establish 
Minute 319 to the Mexican Water Treaty of 1944. This Minute allows 
Mexico to participate in shortage management and mitigation along with 
the United States and provides tools for conservation and possible 
future augmentation of the supply to the benefit of both nations. 
Throughout these processes, the States and the Commission have enjoyed 
a close working relationship with the DOI, working primarily with the 
Bureau of Reclamation to cooperatively identify and address problems 
within the Colorado River System. Maintaining this relationship is the 
key as we address future problems of supply and demand inasmuch as the 
states have the primary responsibility for managing water within their 
boundaries and are the principal link with actual water users. DOI is 
the water master for the Lower Basin of the Colorado River and the 
operator of many of the large storage reservoirs that we depend upon, 
and the Commission is the water master for the Upper Basin.
                   the 2012 basin study (basin study)
    The seven Colorado River Basin states and the Commission, being 
fully aware of future supply and demand imbalances, sought funding 
jointly with the Upper and Lower Colorado River Regions of the Bureau 
of Reclamation for the Basin Study through the DOI WaterSMART Program. 
The Basin States contributed 50% of the expense of this study and along 
with the Commission, fully participated with Reclamation in management 
and direction of the study. This study provided a vehicle to update and 
refine information from previous studies done by the various states and 
others with more specifics as we move closer to implementation of 
strategies to address supply and demand imbalances. As such, the 
overall imbalance identified in the study was not a large surprise to 
us or to the Lower Basin States. There is considerable uncertainty in 
projecting future conditions in the Basin. Therefore the study 
identified numerous scenarios for anticipated future supply and demand 
conditions and then provided identification and evaluation of options 
and strategies to address supply and demand imbalances. The median of 
supply and demand imbalances projected through the year 2060 was 3.2 
million acre-feet for the entire Colorado River Basin. A large number 
of options and strategies were evaluated to decrease system 
vulnerability. These included many different means to reduce demand, 
increase the supply and modify operations. It is clear from the study 
that no single option is adequate to significantly reduce 
vulnerability. It will require a portfolio of effective options and 
strategies to be implemented to accomplish this. Even then, system 
vulnerability will not be fully eliminated so shortage management plans 
during the worst drought conditions will still be required. It is 
important to note that both the Upper Basin and the Lower Basin face 
challenges, but the problems are different for each basin. The Upper 
Basin has yet to develop its full 1922 Compact apportionment and will 
continue to develop its supply. Such development will continue to be 
tempered by better knowledge of future supply, more efficient 
management of water use and our ability to tolerate drought through 
development of management options. The study shows that the probability 
of a Compact driven curtailment of use, (or Compact call), is low for 
the Upper Basin over the 50 year study period even with additional 
projected growth in water use. The most significant factor affecting 
this probability is the assumptions used to estimate future supply 
including global climate models. It is also important to understand 
that significant local hydrological driven shortages, primarily on 
smaller tributaries without sufficient storage, exist now in the Upper 
Basin every year and will continue. The Lower Basin, which has not had 
to endure shortages to date, has already developed its full 1922 
Compact apportionment and faces much more imminent potential of system 
mandated shortages as well as greater challenges about how to meet the 
needs of future municipal and industrial growth. Although the problems 
faced by the two basins are different, many problems are common. 
Because of coordinated reservoir operations, problems or shortages in 
one basin can have an impact on the other basin. The seven Basin States 
recognize the significant commonality of our vulnerabilities to supply 
and demand imbalance and are committed to mutual coordinated efforts to 
address problems.
                               next steps
    The Basin States, the Commission and the Department of the Interior 
all recognize that we must move immediately to address the 
vulnerabilities identified in the Basin Study. In doing so it is 
imperative that the close working relationship between DOI and the 
Basin States is maintained and that all parties move forward in a 
coordinated fashion respectful of the various roles and 
responsibilities of the entities involved. The Colorado River Basin 
remains in a very severe 14 year drought, the continuation of which 
could drive Lake Powell to levels that threaten the ability to generate 
electrical power and Lake Mead to levels that require implementation of 
shortages within a few years. It is for these reasons that the states 
and DOI are initiating a ``Next Steps'' process now to address 
vulnerabilities. Plans have already been put in place to formulate 
workgroups of state, DOI and stakeholder representatives to further 
refine options and strategies that may be implemented in both the near 
and long term. The seven Basin States and the Commission will continue 
their efforts to address near and long term water supply shortages. We 
will continue to need the full support of DOI as we address these 
difficult issues in partnership. The modeling, technical expertise and 
policy guidance of Reclamation as well as continued Congressional 
support of financial resources such as the WaterSMART Program are 
essential in moving forward with next steps. I am confident that in a 
collaborative approach relying upon the sound relationships that we 
have built in the past, we have the ability to address these problems 
before us. Thank you for your time Mr. Chairman and Subcommittee 
members.

    Senator Udall. Thank you, Mr. Ostler.
    Mr. Vigil.

 STATEMENT OF T. DARRYL VIGIL, CHAIRMAN, COLORADO RIVER BASIN 
                       TRIBES PARTNERSHIP

    Mr. Vigil. Good afternoon, Chairman Udall, Ranking Member 
Lee and my Senator, Senator Heinrich. I'm Darryl Vigil. I'm a 
member of the Jicarilla Apache Nation and Chairman of the 
Colorado River Basin Tribes Partnership. Thank you for the 
opportunity to testify before the subcommittee today regarding 
the Bureau of Reclamation's Colorado River Basin Water Supply 
and Demand Study.
    The partnership was formed in 1992 for the purpose of 
member tribes joining together to develop and protect tribal 
water resources and to address technical, legal, economic and 
practical issues related to the operation of the Colorado River 
that would affect the interests of the Ten Tribes of federally 
recognized reserved water rights in the Colorado River and its 
Upper Basin tributaries. The Ten Tribes are located in both the 
Upper and Lower Basins of the Colorado River.
    The tribes located in the Upper Basin are the Ute Indian 
Tribe of the Uintah and Ouray reservation, the Ute Mountain Ute 
Tribe, the Southern Ute Indian Tribe, the Jicarilla Apache 
Nation.
    The tribes located in the Lower Basin are the Chemehuevi 
Indian Tribe, the Cocopah Indian Tribe, the Colorado River 
Indian Tribes, Fort Mojave Indian Tribe, the Cocopah, I mean 
the Quechan Indian Tribe.
    One tribe, the Navajo Nation, is located in both the Upper 
and Lower Basins.
    The partnership is a member of the Colorado River Water 
Users Association and the immediate past Chairman of the 
partnership, George Arthur, serves as the current President of 
the Colorado River Water Users Association in his capacity as 
representative of the Partnership.
    The study identified 29 federally recognized tribes in the 
Colorado River Basin with claims to the use of water from the 
Basin. To date there has been recognized, either through 
Federal and State court decrees or Congressionally approved 
tribal water settlements that tribes in the Basins have a right 
to divert in excess of 2.9 million acre feet per year from the 
Colorado River and its Upper Basin tributaries of which the Ten 
Tribes have a right to divert an excess of 2.3 million acre 
feet.
    Because not all the tribes in the Basin or all the Ten 
Tribes have had their water rights determined this amount will 
increase in the future as final resolution of tribes' water 
rights are achieved. Given that the observed historical on term 
mean natural flow of the Colorado River is approximately 15 
million acre feet per year, it is clear that the Tribes' rights 
constitute a significant quantity of the historic long term 
mean natural flow and need to be fully addressed by the basin 
States and the United States in the ongoing Basin study.
    The Ten Tribes in the Basin use water for multiple purposes 
including irrigation, recreation, domestic, commercial, 
wildlife, in stream flows, habitat restoration, municipal, 
industrial, mining, power generation, cultural and religious 
activities to list a few. The Ten Tribes are working hard to 
put the water to which they are entitled to use for the benefit 
of their tribal members. But water development on reservations 
has proven to be difficult and slow frustrated in large part by 
the Federal Government's general unwillingness to fund water 
infrastructure for the benefit of the tribes.
    The Ten Tribes are very concerned while they struggle to 
put their water to use, other with far more political clout are 
relying on unused tribal water supplies and will seek to 
curtail future tribal water use to protect their own uses. 
Stated another way, the Ten Tribes are concerned about the 
impact on other water users when the Ten Tribes' water rights 
are put to full use for the benefit of tribal members and how 
that will affect the ability of the Ten Tribes to put their 
water to use.
    At the outset of the study the Ten Tribes were not 
represented on the steering committee established for the 
study. Membership was limited to the representatives of the 
Bureau and the basin States. Nor did the Ten Tribes feel that 
they had much of a role in it because they were neglected in 
participation on sub--that they were relegated to the 
participation on sub-teams that were used to develop technical 
data for the study.
    Because it appears that the study was to be a decision 
document which could significantly adversely impact tribal 
water rights and the tribal usage of water in the future 
exclusion from the steering committee became a matter of great 
concern of the Partnership. This shortcoming and other concerns 
were raised with the Bureau of Reclamation reminding the Bureau 
of the United States trust responsibility to them in the 
protection of the water and of the tribe's sovereign status and 
control of their water.
    The Partnership suggests that the following steps be taken 
to address their concerns about the study.
    One, acknowledge and protect early priority of tribal water 
rights.
    Two, recognize and protect and use allocation of tribe's 
quantified water rights.
    Three, recognize and protect unquantified tribal water 
rights.
    Four, recognize the special status of tribal reserve water 
rights that is embodied in Federal statutes and State case law.
    Five, provide a seat on the steering committee for the 
Partnership.
    Six, require the Colorado River simulation system model 
quantify the extent to the reliance of water users on the 
decreed and undecreed rights of the tribes not being fully 
exercised.
    In response to the concerns by the Partnership, the Bureau, 
much to its credit, undertook outreach to all the tribes to 
explain the purpose of the study, acknowledged the tribes water 
rights and reaffirmed the United States trust responsibility to 
the tribes.
    The Bureau assured the Partnership the study was not 
intended to serve as a decision document, but was a first step 
in identifying what the potential imbalances of the Basin water 
supply and demand may be in the future and in identifying 
possible solutions to resolve these--those imbalances that 
deserve additional study and analysis.
    Because of the limited scope of the study the matters 
raised by the Partnership would not be addressed in the first 
step study. But those matters would be appropriate for further 
study. With that understood--with that understanding and as a 
result of the Bureau's outreach efforts, a number of tribes 
actively cooperated with the Bureau in providing data for the 
study.
    The outreach provided--proved to be successful. The results 
are reflected in Appendix C9 of the study which contains a 
tribal water demand scenario quantification. Although as noted, 
a number of the tribes actively participated in the data 
collection needed for the study, the Partnership was still wary 
that the information in the study regarding tribal water might 
be used to their detriment and recommended that a disclaimer 
about the study be incorporated into it.
    The import of which is nothing in that study is intended to 
nor shall the study be construed so as to interpret, diminish 
or modify the rights of any federally recognized tribe pursuant 
to Federal and State court decrees, treaties, agreements, 
executive orders and Federal trust responsibility. Further, the 
disclaimer acknowledges that the Bureau and the basin States 
would continue to recognize the entitlement and right of each 
State in any federally recognized tribe under existing law to 
use and develop the water of the Colorado River system. Through 
the cooperative efforts of the Bureau personnel the Basin State 
representatives and tribal representatives, a disclaimer was 
developed and agreed upon. It is found at Executive Summary -22 
in the Executive Summary of the study.
    Inclusion of the disclaimer was an important aspect of the 
study for the Ten Tribes and laid the foundation for future 
work with the Bureau and the basin States in the next steps 
phase of the study. Because the Ten Tribes have significant 
quantities of recognized water rights which will increase as 
the remaining rights are fully quantified, any study of water 
in the Basin must----
    Senator Udall. Mr. Vigil, your statement is very important. 
The entire statement will be included in the record. I do want 
to get to questions. I'm worried that, frankly, if you complete 
your statement we'll be quite a bit into the time that we all 
have.
    So can I ask you to summarize?
    Mr. Vigil. Sure.
    Senator Udall. Then we can turn to questions.
    Mr. Vigil. Absolutely.
    Senator Udall. I would say this with all due respect and I 
think I can speak for all the members of the committee. We 
support the Native American community's requests in historic 
access to this water. We will work with you to ensure that your 
concerns are met.
    Mr. Vigil. Sure. If I could read my conclusion statement, 
that would be great. Thank you.
    In conclusion, Mr. Chairman, I would be remiss to not 
acknowledging the yeoman's work performed by Carly Jerla and 
Pam Adams of the Bureau of Reclamation in reaching out to the 
tribes and tirelessly advocating on the tribes' behalf and 
ensuring the tribes' concerns were addressed. This effort 
resulted in the tribes actively participating in the study. 
Their efforts were fully supported by Commissioner Connor, 
Assistant Secretary Castle and Regional Directors of the Lower 
and Upper Basins, Terry Fulp and Larry Walkoviak.
    I also wanted to note the cooperation and thank the Basin 
State representatives in working with the Partnership in 
developing the disclaimer contained in the study.
    Last I wanted to thank Cathy Condon and Chuck Lawler from 
the Partnership for their work in coordinating tribal and 
Bureau work which resulted in an improved study and better 
understanding of tribal water issues for all concerned.
    Thank you.
    [The prepared statement of Mr. Vigil follows:]

 Prepared Statement of T. Darryl Vigil, Chairman, Colorado River Basin 
                           Tribes Partnership
    Chairman Schatz and members of the Subcommittee, I am Darryl Vigil, 
a member of the Jicarilla Apache Nation and Chairman of the Colorado 
River Basin Tribes Partnership (``Partnership''). Thank you for the 
opportunity to testify before the Subcommittee today regarding the 
Bureau of Reclamation's Colorado River Basin Water Supply and Demand 
Study (``Study'').
       background of the colorado river basin tribes partnership
    The Partnership was formed in 1992 for the purpose of member Tribes 
joining together to develop and protect tribal water resources and to 
address technical, legal, economic and practical issues related to the 
operation of the Colorado River that would affect the interests of the 
ten Tribes with federally reserved water rights in the Colorado River 
and its Upper Basin tributaries (``Ten Tribes''). The Ten Tribes are 
located in both the Upper and Lower Basins of the Colorado River. The 
Tribes located in the Upper Basin are: Ute Indian Tribe of the Uintah 
and Ouray Reservation, the Ute Mountain Ute Tribe, the Southern Ute 
Indian Tribe and the Jicarilla Apache Nation; the Tribes located in the 
Lower Basin are: Chemehuevi Indian Tribe, Cocopah Indian Tribe, 
Colorado River Indian Tribes, Fort Mojave Indian Tribe and the Quechan 
Indian Tribe. One Tribe, the Navajo Nation, is located in both the 
Upper and Lower Basins. The Partnership is a member of the Colorado 
River Water Users Association and the immediate past Chairman of the 
Partnership, George Arthur, serves as the current President of the 
Colorado River Water Users Association in his capacity as 
representative of the Partnership.
  brief description of the tribes in the seven basin states and their 
                        water rights and claims
    The Study identified 29 federally recognized tribes (``tribes'') in 
the Colorado River Basin (``Basin'') with claims to the use of water 
from the Basin. To date, there has been recognized, either through 
federal and state court decrees or congressionally approved tribal 
water settlements, that tribes in the Basin have the right to divert in 
excess of 2.9 million acre-feet-per year (``MAF'') from the Colorado 
River and its Upper Basin tributaries, of which the Ten Tribes have the 
right to divert in excess of 2.3 MAF. Because not all tribes in the 
Basin or all of the Ten Tribes have had their water rights determined, 
this amount will increase in the future as final resolution of the 
tribes rights are achieved. Given that the observed historical long 
term mean natural flow of the Colorado River is approximately 15 
million acre feet per year, it is clear that the tribes' rights 
constitute a significant quantity of the historic long term mean 
natural flow and need to be fully addressed by the Basin States and the 
United States in the ongoing Basin Study.
    The Ten Tribes in the Basin use water for multiple purposes 
including irrigation, recreation, domestic, commercial, wildlife, 
instream flows, habitat restoration, municipal, industrial, mining, 
power generation, cultural and religious activities to list a few. The 
Ten Tribes are working hard to put the water to which they are entitled 
to use for the benefit of their tribal members but water development on 
the reservations has proven to be difficult and slow, frustrated in 
large part by the federal government's general unwillingness to fund 
water infrastructure for the benefit of tribes. The Ten Tribes are very 
concerned that while they struggle to put their water to use, others 
with far more political clout are relying on unused tribal water 
supplies and will seek to curtail future tribal water use to protect 
their own uses. Stated another way, the Ten Tribes are concerned about 
the impact on other water users when the Ten Tribes' water rights are 
put to full use for the benefit of tribal members and how that will 
affect the ability of the Ten Tribes to put their water to use.
    comments on the study as it relates to tribal water in the basin
    At the outset of the Study, the Ten Tribes were not represented on 
the steering committee established for the Study; membership was 
limited to representatives of the Bureau and the Basin States. Nor did 
the Ten Tribes feel that they had much of a role in it because they 
were relegated to participation on sub-teams that were used to develop 
technical data for the Study. Because it appeared that the Study was to 
be a decision document which could significantly and adversely impact 
tribal water rights and tribal usage of water in the future, exclusion 
from the steering committee became a matter of great concern to the 
Partnership; this shortcoming and other concerns were raised with the 
Bureau of Reclamation reminding the Bureau of the United States' trust 
responsibility to them in the protection of their water and of the 
tribes' sovereign status in control of their water. The Partnership 
suggested that the following steps be taken to address their concerns 
about the Study:

          1. Acknowledge and protect the early priority of tribal water 
        rights.
          2. Recognize and protect the unused allocation of the tribes' 
        quantified water rights.
          3. Recognize and protect the unquantified tribal water 
        rights.
          4. Recognize the special status of tribal reserved water 
        rights that is embodied in federal statutes and federal and 
        state case law.
          5. Provide a seat on the steering committee for the 
        Partnership.
          6. Require that the Colorado River Simulation System model 
        quantify the extent of the reliance of water users on decreed 
        and undecreed rights of tribes not being fully exercised.

    In response to the concerns raised by the Partnership, the Bureau, 
much to its credit, undertook outreach to all of the tribes to explain 
the purpose of the Study, acknowledge the tribes' water rights and 
reaffirm the United States' trust responsibility to the tribes. The 
Bureau assured the Partnership that the Study was not intended to serve 
as a decision document but was a ``first step'' in identifying what the 
potential imbalances of Basin water supply and demand may be in the 
future and in identifying possible solutions to resolve those 
imbalances that deserve additional study and analysis. Because of the 
limited scope of the Study, the matters raised by the Partnership would 
not be addressed in the ``first step'' Study but those matters would be 
appropriate for further study. With that understanding and as a result 
of the Bureau's outreach efforts, a number of tribes actively 
cooperated with the Bureau in providing data for the Study.
    The outreach proved to be successful and the results are reflected 
in Appendix C9 of the Study which contains Tribal Water Demand Scenario 
Quantification.
    Although as noted, a number of tribes actively participated in the 
data collection needed for the Study, the Partnership was still wary 
that the information in the Study regarding tribal water might be used 
to their detriment, and recommended that a Disclaimer about the Study 
be incorporated into it. The import of which is that nothing in the 
Study is intended to nor shall the Study be construed so as to 
interpret, diminish or modify the rights of any federally recognized 
tribe, pursuant to federal and state court decrees, treaties, 
agreements executive orders, and federal trust responsibility. Further 
the Disclaimer acknowledges that the Bureau and the Basin States would 
continue to recognize the entitlement and right of each State and any 
federally recognized tribe under existing law to use and develop the 
water of the Colorado River system. Through the cooperative efforts of 
the Bureau personnel, the Basin States representatives and tribal 
representatives, a Disclaimer was developed and agreed upon; it is 
found at ES-22 in the Executive Summary of the Study.
    Inclusion of the Disclaimer was an important aspect of the Study 
for the Ten Tribes and laid the foundation for future work with the 
Bureau and Basin States in the ``next steps'' phase of the Study.
reasons for a tribal water study as part of the ``next steps'' phase of 
                the study that the bureau is undertaking
    Because the Ten Tribes have significant quantities of recognized 
water rights which will increase as their remaining rights are finally 
quantified, any study of water in the Basin must reasonably include the 
Ten Tribes. Further because of their sovereign status and control over 
use of their water and the United States' trust responsibility 
regarding protecting the tribes' water resources, tribal involvement 
will be critical to any solution regarding future supply imbalance in 
the Basin.
    Water allocation and management of tribal water have significant 
legal and policy considerations and while these issues are identified 
in the Study, they were not addressed. To correct this shortcoming, at 
a meeting on the 28th of May in San Diego on the ``next steps'' phase 
of the Study, attended by Commissioner Mike Connor and Assistant 
Secretary for Power and Water, Ann Castle, for the Department of the 
Interior, the Bureau announced it will be undertaking a Tribal Water 
Study as the ``next steps'' phase to address issues surrounding tribal 
water in the Basin States. This phase of the Study is intended to 
address tribal water issues in sufficient detail to provide the Bureau, 
the Basin States and Ten Tribes with the certainty necessary for future 
River management and planning.
    In response to this announcement, the Partnership has created a 
legal/technical team to work with a counterpart team created by the 
Bureau to undertake this phase. The ``next steps'' phase will hopefully 
include a study capable of evaluating full tribal development, control, 
and protection of tribal water resources in the Basin.
 confirmation of the partnership's commitment to work collaboratively 
    with the bureau of reclamation and basin states to address the 
          projected supply and demand imbalances in the basin
    The Ten Tribes in the Basin have historically been good neighbors 
and consider water to be basic to life and are committed to working 
collaboratively with the Basin States, their Mexican relatives and the 
United States to initiate actions to implement plans to resolve current 
and future water imbalances in the Basin.
                               conclusion
    In conclusion, Mr. Chairman, I would be remiss in not acknowledging 
the yeoman's work performed by Carly Jerla and Pam Adams of the Bureau 
of Reclamation in reaching out to the tribes and tirelessly advocating 
on the tribes' behalf and ensuring that the tribes' concerns were 
addressed. This effort resulted in the tribes actively participating in 
the Study. Their efforts were fully supported by Commissioner Connor, 
Assistant Secretary Castle and the Regional Directors of the Lower and 
Upper Basins, Terry Fulp and Larry Walkoviak. I also want to note the 
cooperation and to thank the Basin States' representatives in working 
with the Partnership in developing the Disclaimer contained in the 
Study. Lastly, I want to thank Cathy Condon and Chuck Lawler from the 
Partnership for their work in coordinating tribal and Bureau work which 
resulted in an improved Study and better understanding of tribal water 
issues for all concerned.
    I would be happy to respond to any questions the Committee may 
have, thank you.

    Senator Udall. Thank you, Mr. Vigil.
    In the interest of letting everybody know what we're going 
to do, we do have a second panel. I do have to leave for a 
brief period of time at 3:25 to attend another hearing to 
introduce a nominee to head the Office of Personnel Management 
from Colorado.
    I'm going to ask 5 minutes of questions. I'll turn to 
Senator Lee and then to Senator Heinrich. I believe Senator 
Heinrich will continue to Chair the committee while I'm gone 
for a few minutes.
    With that, I want to turn to Mr. Connor.
    Respecting the roles that the States have to manage their 
water resources and their current fiscal constraints, what 
role, if any, do you expect the Federal Government to play in 
solving the imbalances projected for the Basin?
    Mr. Connor. I think the Federal Government is a valued and 
necessary partner with the 7 basin States and the other 
stakeholders in the Basin. I say that we're valued when we work 
collaboratively with those different stakeholders and certainly 
the States respecting their interest in the management and 
allocation of water resources.
    The Secretary is the water master in the Lower Colorado 
River Basin. So we have a certain specific responsibilities in 
that Basin that we don't have elsewhere in operating those 
facilities and making sure that there's compliance with the law 
of the River, the compact, the Treaty with Mexico. 
Notwithstanding that or in addition to that, we can't carry out 
those obligations without working very closely and hand in hand 
with the States.
    I think it was Mark Risener in Cadillac Desert who 
characterized the Colorado River Basin as the most litigated 
stream system in the world. Probably for a long time it was 
that. Over the last 10 to 15 years I think through that 
partnership collaboration with the States and including the 
other stakeholders in the discussion, I think we've hit upon a 
series of agreements and progress that we can all feel good 
about, but can't keep up with the challenges that we face.
    So we're going to have to, kind of, double down on our 
efforts as we move forward.
    Senator Udall. I think it's necessary and mandatory reading 
for anybody who cares about the Basin to page through Cadillac 
Desert. I know we don't all agree with everything that's in 
there. But it certainly was a seminal work.
    Mr. Ostler, let me turn to you.
    Could you expand on your testimony in describing the 
different supply and demand limitations between the Upper and 
Lower Basin States and the possibility of water banking in the 
Upper Basin could help address these systemic imbalances?
    Mr. Ostler. Yes, Senator Udall.
    The Upper Basin States are interested and are now in the 
process of looking at water banking options that might help 
solve our imbalances. Water banking may include the concept of 
conservation during times when you have water so that it's 
banked and available to help offset storage--or shortage.
    It also may include the development of a structure which 
would allow transfer of high priority water rights to low 
priority municipalities who need water during droughts so that 
that can be facilitated easily and without a great deal of 
questions, so that we can get through droughts and manage 
through the droughts.
    So I think the water banking concept would include both of 
those types of ideas.
    Senator Udall. I look forward to you elaborating further in 
any additional written testimony you may provide to the 
Commission. This, I think, provides real opportunity for us.
    Commissioner Connor, let me come back to you.
    The study results suggest and Mr. Ostler, you spoke to this 
and others did as well, that climate change could have a major 
effect in the amount of water available in the Basin over the 
next 50 years.
    How accurate and dependable are these projections?
    Should we expect and plan for even greater decreases in 
water supply in coming decades?
    Then a third question for you. How can States, tribes and 
local entities prepare for and adapt to such conditions?
    You have to answer all of those in a minute and a half.
    [Laughter.]
    Mr. Connor. I appreciate the challenge. It's like managing 
the Colorado River.
    Senator Udall. That's a good way to put it.
    Mr. Connor. Overall I think with respect to climate change 
projections, we already know and there is, without a doubt, 
strong evidence about the increasing temperatures that have 
already occurred in the Basin and that are projected to occur 
over the next 10, 15, 20 and 50 years, the planning period. 
Those changes in temperature, in and of itself, are causing a 
change in how water resources flow within the Basin as far as 
the timing, certainly in the form of that with reduced snow 
packs and more rainfall events.
    So we have incorporated those data points into the planning 
effort. We know we've got to respond and manage differently.
    Where I think the modeling is more wide open as far as 
interpretation is with respect to future changes in 
precipitation patterns. There's a wide divergence of views. 
We've selected and tried to downscale the general circulation 
model on climate and arrive at a projection that the mean 
average flows at least are going to be about a 9 percent 
reduction over the 50-year planning period from where we've 
been historically.
    I would just say right now based on the last 14 years of 
drought, this period we're 18 percent below our average annual 
inflows over that period than we have been over the last 100 
years. So we're already below that based on the existing 
drought.
    Then I think, Senator Udall, I may have forgotten your last 
question as part of that.
    Senator Udall. How can States, tribes and local entities 
prepare and adapt for changes?
    Why don't you take that for the record?
    Mr. Connor. Absolutely.
    Senator Udall. I will stop because I want to recognize 
Senator Lee and then also Senator Barrasso who has joined us. I 
want to make sure everybody has a chance to direct some 
questions.
    I'll turn to Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Why don't we start with you, Commissioner Connor?
    The study notes at page 20 of the Executive Summary that 
not all stakeholders were in agreement with the results, with 
the findings.
    Could you elaborate on this for a minute? I'd like to know 
what people were not in agreement regarding.
    Mr. Connor. Thank you, Senator Lee, and yes, I'll be happy 
to elaborate.
    Where there was disagreement that was noted in the 
Executive Summary is really on our assessment of the options, 
the proposals that were put forward about how we can attempt to 
resolve these imbalances.
    So there were 150 proposals, options. We did a threshold 
analysis as to technical feasibility, cost, yield, timing, 
permit ability, so there was some subjectivity in looking at a 
threshold analysis of those options. That's where there was a 
disagreement amongst some folks assessing that they thought 
something was more permit-able than maybe the authors did in 
the study.
    So that's where we're at.
    Senator Lee. Were there some recommendations that were more 
controversial than others among the stakeholders?
    Mr. Connor. Certainly some of the large scale augmentation 
programs are viewed as more controversial and more questionable 
as far as feasibility. I think different people have different 
views as to the feasibility of those efforts.
    Senator Lee. OK.
    Are those issues identified anywhere in the report, in the 
study itself, that the nature of the disagreement, where there 
is the most disagreement and so forth?
    Mr. Connor. I'm not sure how deeply we've delved down. So 
if I could answer that for the record.
    Senator Lee. OK.
    Mr. Connor. I'll get you more information about that if 
it's internal or external to the report we can do that.
    Senator Lee. OK. That's fine.
    Mr. Ostler, let's turn to you for a minute.
    Concerns have been expressed for several years with regard 
to energy sector water usage in some areas along the Upper 
Basin, in the Upper Basin in recent years. How would you 
characterize the significance of this type of water use there?
    How extensive is the energy sector water usage compared to 
other uses?
    Mr. Ostler. It's a critical question that a lot of folks 
are spending a lot of time thinking about. The States, each 
State, as they develop their demands, future demands, included 
their anticipated energy development and its water use. So 
those estimates according to the States were incorporated into 
the study that we're talking about.
    But it depends on the type of energy development that you 
assume occurs and the amount of water that that particular 
development happens to utilize. That's all an unknown. So I 
think the States included the best information that they had 
and included plans in their future demands for energy 
development that they could anticipate.
    Senator Lee. Is it your view that there are unique 
features, unique aspects, of energy sector water usage that are 
of particular concern or is it more just that people are 
concerned about the quantity of it or that it's there?
    Mr. Ostler. No.
    There are certain types of energy development that maybe 
use more water than other types. This is new technology. It's 
changing all the time. The energy companies, I think, are 
looking for ways to reduce water usage.
    We're seeing many that are coming up with proposals that 
are relatively new that may involve much less water use than 
what the early estimates were. So yes, it's a matter of 
controversy. It varies with exactly what is planned on the 
ground.
    Senator Lee. Both at the Basin level and at the State level 
how effective are our current legal arrangements at addressing 
this type of usage and the special concerns that arise from it?
    Mr. Ostler. To my knowledge our current legal arrangements 
are adequate to address energy water usage. They, energy 
companies, need to obtain water rights through the existing 
State legal process for getting a water rights permit. So 
that's the way that it's done now. That's the way we expect it 
to be done in the future.
    Senator Lee. OK.
    Mr. Ostler. They will have to acquire those by paying for 
them if they don't have themselves.
    Senator Lee. Finally are there any particular near term 
priorities for Federal action that you would recommend to this 
subcommittee?
    Near term priorities relating to water usage?
    Anything arising out of this study that you would recommend 
to this subcommittee that we look at?
    Mr. Ostler. I think the States will continue to look to 
Reclamation for research and technical guidance on various 
mechanisms that we can use to improve conservation and 
operations.
    I think the availability of funding to be able to do 
studies such as this was extremely helpful and important 
through the WaterSMART program.
    Those are immediate things, I think, that we're utilizing 
and looking at.
    Senator Lee. OK. Thank you, Mr. Ostler.
    I see my time is expired.
    Chairman, thank you.
    Senator Heinrich [presiding]. Thank you, Senator Lee.
    Commissioner Connor, in the study water transfers and water 
banking were found to be one of the most cost effective and 
quickest ways to address the imbalance between supply and 
demand in the Basin. In fact, water transfers, exchanges and 
banking are predicted to cost somewhere between $250 and $750 
per acre foot per year and could be implemented in as little as 
5 years.
    Could you talk a little bit in some more detail about why 
water conservation forbearance banking exchanges are relatively 
much more cost effective compared to some of the other options 
that were explored in the study?
    Mr. Connor. I think overall, you know, it's water transfers 
and banking arrangements can be put into place without large 
infrastructure or new infrastructure developments. So, once 
again, I think, you know, through the institutional 
arrangements that can be created from--even where there's low 
cost investments for the agricultural sector say to make 
investments, conserve water, so that they can be a player in 
the water transfer and banking situations. Those are just more 
easily permitted, easily arranged and I think provide 
flexibility amongst water users to get water to those who need 
it and to allow for adjustments by those who have senior 
rights.
    So it's just the ease, timing, permit and the low dollar 
with respect to initial investments, I think, that make it much 
more cost effective.
    Senator Heinrich. Thank you.
    Mr. Vigil, I wanted to ask you, Chairman Vigil, as Water 
Administrator for the Jicarilla Apache Nation you participated 
in the San Juan River Basin Recovery Implementation program. 
It's been held up as a model on how to recover endangered 
species.
    Can you talk a little bit about that experience and that 
recovery program? What lessons we might learn in some of these 
other basins where we're trying to balance the needs of 
productive water use while conserving our fish and wildlife?
    Mr. Vigil. Sure, Senator Heinrich.
    Jicarilla Apache Nation has been a participant of that 
particular recovery program project for numerous years. One of 
the things that, you know, I have been back to DC for the last 
3 years to lobby for the continued funding of that particular 
project. The success of that project, especially, because I 
think there was over 2,000 water projects that are related to 
the recovery program without, I think, any litigation at all 
which is pretty amazing that, you know, tribes, municipalities, 
State governments and the Federal Government can work together.
    I think it's been the model that it can work. Hopefully, 
you know, you know, we can use that as a model, you know, for 
this next steps of the Basin study. We really appreciate Mike 
Connor and Assistant Secretary Castle's commitment to a 
separate tribal water study.
    Because of the experience that we've had through programs 
like the recovery program, you know, we hope to take that 
knowledge and that experience that we have, you know, for that 
collaborative process as well.
    Senator Heinrich. Thank you, Chairman Vigil. Thanks for 
your work on that because it really is something we're hoping 
to learn from.
    Commissioner Connor, I wanted a follow up question.
    Water issues are often discussed as a conflict between 
diverting water for economic development or leaving water in 
stream for non-economic or environmental purposes. But in fact, 
high flows are critical for many rural economies that rely on 
recreation jobs in economic development.
    In New Mexico alone, Colorado River related recreation is 
responsible for over 17,000 jobs and more than $1.2 billion in 
direct spending. When you consider river management decisions, 
how do you find that balance between the needs of businesses 
that rely on divergence and those businesses that rely on 
robust in stream flows?
    Mr. Connor. All of those water uses and values are 
absolutely critical. The water that is diverted to sustain the 
economies that have grown up around that from the Ag sector and 
also for M and I purposes as well as the ecological flows that 
are important for the environmental considerations, but also 
the recreational based economies.
    So I think we are looking to, quite frankly, stretch the 
limited water supplies that are out there in an attempt to best 
balance those needs, as you said. It's one of those where we 
want to work with the affected communities. We want to make 
water uses as efficient as possible. We want to create buffers 
so that when there are times of plenty, we've got reserve water 
supplies that can be used whether it is to facilitate the 
environmental and ecological flows or whether it's to provide 
water during times of drought to those needed to sustain their 
agricultural livelihoods.
    So it's more flexibility in the system. It's more 
efficiency that we've got to employ to try and sustain all 
those different uses.
    Senator Heinrich. Thank you, chairman or thank you, 
Commissioner Connor.
    I want to thank all of our panel for being here today 
because this is the beginning of something not the end. I 
appreciate your participation.
    I want to turn the gavel over to Senator Lee. He is going 
to chair while Senator Barrasso pursues some of his questions.
    Senator Barrasso. Thank you, Mr. Chairman.
    Commissioner Connor, on June 6 our Senate Energy Committee 
had an oversight hearing reviewing the activities of the 
programs of the Department of the Interior. Secretary Jewell, 
in written testimony, addressed the Colorado River Basin Water 
Supply and Demand study.
    She said that she is, ``committed to continuing to work 
with our stakeholders to assess the implications of water 
shortages to develop flexible operational plans that account 
for expected periods of drought and support projects that 
conserve water and improve the efficiency of water delivery 
infrastructure.''
    I find this commitment very helpful. I think it fails to 
recognize that creating additional water storages, to me and to 
many others who live in the West, an obvious part of the 
solution to addressing the imbalance between supply and demand 
which the study projects will, you know, be greater than 3.2 
million acre feet by the year 2060. So I don't believe that you 
or any of the other witnesses on the panel believe that 
conservation and implementing projects to improve delivery 
efficiency are going to be able to be sufficient to close this 
gap.
    So what is your understanding of the Department of the 
Interior's position about increasing reservoir storage capacity 
in the Colorado River Basin?
    Mr. Connor. It is one of the tools that in a whole 
portfolio of actions, I think, needs to be looked at and 
employed as part of the mix if we're going to address this 
imbalance.
    So I would note that we have brought online additional 
storage projects in the Animas River Basin. Completed Lake 
Nighthorse in Ridges Basin Dam in the 2010 time period.
    We completed a regulating reservoir on the Lower Colorado 
River.
    I think a lot of the actions taken on the Colorado River to 
the 2007 coordinated operations and shortage agreement created 
a mechanism to create intentionally created surplus which is 
water, additional water stored in Lake Mead which will delay 
and forestall in the way the potential shortages in the Lower 
Colorado River Basin.
    The Minute 319 agreement with Mexico is part of that mix 
too.
    All told, we've got a million acre feet of additional water 
in an existing reservoir on Lake Mead right now because of 
those actions. So we want to enhance storage in our existing 
facilities. We recognize the need for additional facilities 
both above ground and below ground to try and address what I 
spoke of with Senator Heinrich which is there is going to be 
more extremes in our weather events. That's one of the things 
we've got to take advantage of those really high flow years.
    Senator Barrasso. If I could then ask you as well as Ms. 
Trujillo, it's commonly understood that the lower division 
States are using their entire basic apportionments as provided 
by Article Three, Section A of the Colorado River Compact. So 
given the fact, what are the most viable sources of supply to 
meet the future water demand imbalances in Arizona, California 
and Nevada that have already been identified in this December 
2012 study?
    What do you see as that?
    Mr. Connor. I certainly think there's more room for 
conservation and mechanisms to enhance water transfers by 
willing participants in that effort. I, once again, it's not 
the whole solution, but I think there is definitely more room 
to employ that mechanism.
    I think there's water supply enhancement strategies in 
Southern California. I know they brought on their first 
desalinization facility which I think has been fully permitted 
and prepared to break ground.
    So I see a mix of those items with the regulating reservoir 
on the lower Colorado River. We're operating more efficiently 
to capture water to be able to make that available for water 
users.
    Senator Barrasso. Ms. Trujillo, would you mind commenting 
as well?
    Ms. Trujillo. I think that was a good list to start with.
    In addition to that, you know, between the States we'll 
continue to work on additional agreements for water banking or 
water sharing.
    We will work to explore new technologies. The Bureau of 
Reclamation's desalinization research facilities are a good 
example to expand use of brackish water, additional supplies.
    Then we are looking on the demand side as well to be able 
to make sure we're efficiently using everything we have and 
conserving more, if we can.
    Senator Barrasso. Thanks.
    Commissioner Connor, just kind of given the realities of 
the Federal budget, the economic situation in the Southwest and 
Intermountain West, how can some of the projects to provide 
additional water supplies best be financed and funded?
    Any insights you could share or offer to the committee?
    Mr. Connor. I think I appreciate you raising that point 
because I think it's the reality of the times that we live in 
that we can be a partner, a facilitator and we can 
strategically invest modest resources from the Federal level.
    I'll give you an example with the Yuma desalting plant. We 
initiated a trial run 2 years ago, 18 months. To really see if 
we could cost effectively operate that facility to produce 
water in the Basin.
    The trial run was a success. We invested dollars as did 3 
entities, municipal entities, Metropolitan Water District, 
Central Arizona Project and Southern Nevada Water Authority. We 
produced 30,000 acre feet of water at about $300 per acre foot.
    So we've got to partner up in those types of investments. 
We've got to figure out long term financing arrangements for 
the local entities that will, at the end of the day, need to 
finance most of the new development and infrastructure.
    Senator Barrasso. Thanks, Commissioner Connor.
    Thank you, Mr. Chairman.
    Senator Lee [presiding]. I want to thank our panelists. We 
appreciate your testimony today.
    We're going to go ahead and gavel out now prior to our 
second panel beginning its round of testimony so that we can 
await the return of my cousin from Colorado, Senator Udall. 
Thank you.
    We'll stand in recess.
    [RECESS]
    Senator Udall [presiding]. The Subcommittee on Water and 
Power will come to order. Thank you all for your patience and 
understanding as we juggle a busy afternoon here in the Senate.
    I hear the subcommittee set a new standard in my absence. 
Senator Lee helmed the committee which I think is very 
appropriate since this has nothing to do with partisanship or 
political parties. This has to do with protecting the health of 
the river on which we all depend.
    I also feel comfortable, I should confess, with Senator 
Lee. Some of you may know he's a cousin. It's been said in the 
West the Lees are related to everyone. The Udalls are related 
to everybody. Senator Lee and Senator Udall are related.
    But be that as it may, we have a great second panel here.
    Ms. Hawes, why don't I turn to you?
    You're the Colorado River Program Director of the Nature 
Conservancy from Boulder, Colorado, one of the Coloradans I 
mentioned that was here to join us.
    So the Floor is yours for 5 minutes. We look forward to 
your testimony.

    STATEMENT OF TAYLOR E. C. HAWES, COLORADO RIVER PROGRAM 
                DIRECTOR, THE NATURE CONSERVANCY

    Ms. Hawes. Thank you, Chairman Udall for the opportunity to 
testify today. I'm the Colorado River Program Director for The 
Nature Conservancy. Our work spans all 7 basin States and into 
Mexico. I'm also one of the co-chairs of the Healthy Flows 
Workgroup.
    My testimony today addresses 3 topics.
    One, the importance of the Colorado River system's 
ecological and recreational values.
    A few of the shortfalls in the study but also potential 
remedies going forward.
    The scope of work for the Healthy Flows Workgroup for the 
next 6 months.
    Since you've already heard quite a bit today about the 
results of the Basin study and what's at stake I won't spend 
more time repeating that. However, what you haven't heard much 
about is what's at stake relative to our river's health and to 
our recreational economy.
    The Colorado River boasts more than 30 fish species found 
nowhere else in the world. Yet 50 percent of our native fish in 
the Basin have either gone extinct or are considered 
vulnerable. The river, as most people know, no longer reaches 
the sea and some of its headwater tributaries run dry on a 
seasonal basis.
    At the same time the river system still provides habitat 
for the much prized Colorado River Cutthroat Trout and is a 
draw for visitors from around the world due to its unparalleled 
beauty and recreational opportunities. The Basin features a $26 
billion recreational economy. There are ten national park units 
including the Grand Canyon as the Basin's centerpiece. Rafting 
throughout the region is a major industry. Anglers come from 
around the world to fish both headwaters and our gold medal 
fisheries.
    More than 5 million adults visit the region each year as 
tourists supporting approximately 234 thousand jobs and 
generating more than $10 billion annually in wages and 
earnings. Unfortunately the study showed that under all 
portfolios or solution sets flow related values and resources 
would likely be negatively affected in the future.
    So while the Basin study's consideration of flows was 
ground breaking in many regards. The study was, in large part, 
limited by a couple of factors.
    Reclamation's water supply study, I'm sorry, water supply 
model that was used to perform the analysis, known as CRSS, was 
designed to manage reservoirs and operations along with those 
reservoirs. It was not designed to look at healthy flows or 
track healthy flows. Consequently these healthy flow needs were 
left out of the study.
    Another shortfall was that the study was primarily focused 
on finding solutions to meet consumptive water supply needs. 
While these are very important there was no mention or 
assessment of healthy flow needs and solutions associated with 
those.
    The conservation community hopes to remedy some of these 
shortfalls in the next phase.
    First, The Conservancy is already working with a broad 
cross section of water interests to explore ways to improve 
CRSS or create new management tools that will allow us to 
evaluate solutions for both our water users and our rivers. We 
are doing this with a grant through the Landscape Conservation 
Cooperative.
    Second, in my written testimony I provided several examples 
of solutions that have been developed around the Basin that 
meet the needs of people while also benefiting the river. Such 
solutions are feasible, cost effective, more durable, have buy-
in and are more sustainable.
    As we move forward water banking, a mechanism we've talked 
about here. It's one that facilitates the temporary movement of 
water from agriculture to cities and to the environment through 
voluntary agreements shows great promise as a way to, not only 
meet the needs of people, but also our rivers.
    The workgroup will be undertaking several tasks in the 
coming months. Very simply stated we will be seeking an 
agreement on which rivers are the most important from an 
ecological, for maintaining key ecological and recreational 
attributes and exploring ways to protect these rivers.
    This workgroup will also be seeking to understand how 
hydropower will be affected as that's part of one of the flow 
aspects and looking for solutions that might affect those 
resources.
    We will be preparing a report by the end of 2013 that 
summarizes this information and proposes phase two activities. 
It's important to remember and others have said this here today 
that the study is a means to an end. Our mutual goal is finding 
solutions. That's where we head next.
    In conclusion, the future will not look like the past as 
demands will continue to increase and supplies are expected to 
decrease. We are at a crossroads in the Colorado River's 
history as we--and we must all pull together to develop and 
implement sustainable solutions.
    Support from this committee and Congress will be critical 
to our success. The conservation community strongly supports 
continued funding of WaterSMART, landscape conservation 
cooperative programs as well as Title 16 funding.
    These programs provide vital assistance to facilitate urban 
and agricultural water conservation programs as well as 
environmental solutions. It's imperative to the success of our 
workgroup that the other two workgroups also produce real 
savings in their efforts. These efforts must be integrated for 
us to succeed.
    In addition it's important for this body to continue its 
oversight with regard to the next steps in search of 
financially prudent, realistic and timely solutions to the 
imbalances in the Basin and the need to protect these important 
ecological and recreational values.
    Thank you for the opportunity to provide testimony. I'll be 
happy to answer questions when the time is right.
    [The prepared statement of Ms. Hawes follows:]

   Prepared Statement of Taylor E. C. Hawes, Colorado River Program 
                    Director, The Nature Conservancy
    Thank you, Chairman Schatz, Ranking Member Lee and Subcommittee 
members, for the opportunity to testify on the Bureau of Reclamation's 
Colorado River Basin Water Supply and Demand Study. I am honored to 
speak to you today about the Colorado River and how we can plan for its 
future to ensure it can meet the many demands it faces, including 
providing water for cities, agriculture, industry, environmental and 
recreational needs. I am the Colorado River Program Director for the 
Nature Conservancy. The Conservancy's Colorado River Program spans all 
seven Basin states and Mexico. The Conservancy seeks to find solutions 
for our rivers while also meeting the needs of people. I am one of the 
co-chairs of the Environmental and Recreational Flows Workgroup and 
will be co-chairing that committee with representatives from the State 
of Colorado and the Bureau of Reclamation.
    The Nature Conservancy is a non-profit conservation organization 
founded in 1951 whose mission is ``to conserve the lands and waters on 
which all life depends.'' The Nature Conservancy puts great emphasis on 
solutions and partnerships, and we rely heavily on science in deciding 
our direction, focus and priorities. Our staff lives and works in 
hundreds of communities across the U.S. and around the world. They are 
supported by almost a million members and by state Boards of Trustees 
made up of local leaders in conservation, business, agriculture and 
ranching, academia and philanthropy.
    This testimony addresses three topics:

  <bullet> The importance of the Colorado River system's environmental 
        and recreational values and why it is necessary and possible to 
        find solutions for the Basin that meet the needs of people and 
        nature.
  <bullet> A few of the long-term needs and opportunities coming out of 
        the study.
  <bullet> The scope of work for the Environmental and Recreational 
        Flows workgroup over the next six months or so.

    Before I delve into the details, I want to acknowledge the 
leadership of the Bureau of Reclamation in the Colorado River Basin. As 
we all know, water in the West is contentious, but in the case of the 
Colorado River Basin, Reclamation has successfully brought states and 
other water interests together to work towards solutions.
    The Nature Conservancy, along with many partner conservation 
organizations, has worked closely with the Study team, the seven Basin 
states and Reclamation to inform the Basin Study, serving on technical 
teams and providing comments on drafts. The Study found that the 
combination of increasing demand and dwindling supply, threatens our 
communities, industry, agriculture, environment and recreational 
economy unless we take steps now to change our current course. Without 
healthy rivers, the region's economic vitality and its rich natural 
heritage are at risk. Drought sets the stage for conflict between water 
users. But the Basin Study seeks a path where municipalities and the 
agricultural and environmental communities can find practical solutions 
to the water supply and demand challenge. We look forward to working 
with Reclamation, the seven States and other partners as we prepare for 
a future in the Colorado River Basin that sustains agriculture, allows 
cities to grow and protects our iconic rivers.
  the colorado river basin's significant ecological and recreational 
                                 values
    The Colorado River boasts more than thirty fish species found 
nowhere else in the world. However, fifty percent of all native fish 
species in the Basin have either gone extinct or are considered 
vulnerable. The River no longer reaches the sea and some of its smaller 
headwater tributaries run dry on a seasonal basis. Dramatic changes in 
the river's flow regime have facilitated the dominance of invasive 
plant species, such as tamarisk and Russian olive, which creates poor 
riverside habitat and uses more water than native vegetation due to its 
spread up on to the benches above the river. At the same time, the 
river system still provides habitat for the much prized Colorado River 
Cutthroat Trout, and the Basin's beautiful rivers, with their dramatic 
cottonwood galleries, draw birds and visitors from far and wide.
    The Basin features a $26 billion recreational economy, much of 
which revolves around rivers. There are 10 National Park units, 
including the Grand Canyon as the Basin's centerpiece, as well as other 
parks and river reaches drawing hundreds of thousands of visitors 
annually. There are major rafting enterprises in Wyoming, Colorado, 
Utah, and New Mexico. Anglers come from around the world to fish both 
headwaters streams and gold medal trout fisheries in larger 
tributaries. World-class ski resorts in the region, which rely on 
snowmaking, support thousands of jobs. Finally, there are many who 
cannot think of a better vacation than a week on Lake Powell. More than 
five million adults visit the region for recreational excursions, 
supporting approximately 234,000 jobs in Arizona, Colorado, Nevada, New 
Mexico, Utah and Wyoming and generating more than $10 billion annually 
in wages and earnings. Unfortunately, the Study showed that under all 
portfolios (solution sets), flow related values and resources would 
likely be negatively impacted in the future.
    The conservation organizations participated in the Study to ensure 
that it considered healthy river flows at the same time that it 
evaluated the future needs of agriculture and cities so that 
stakeholders could simultaneously develop a long term plan to meet the 
varied needs in and outside of the Basin. The conservation 
organizations' vision was coordinated development and management of the 
River and its tributaries, in order to optimize economic and social 
welfare without compromising the health of the river itself. The next 
steps will involve tackling these issues at the Basin level. Recent 
examples in the Basin--two of which I highlight below--have proven that 
this kind of approach is possible, but its implementation requires 
political will and leadership.
    While the Basin Study is considering basin-wide solutions, our 
communities must also be creative in finding local solutions. Smaller 
scale projects in the Basin demonstrate that the needs of people and 
nature do not have to be mutually exclusive. For example, consider the 
San Pedro River. It starts in Mexico and flows north into Arizona near 
the City of Sierra Vista. The region includes two significant national 
assets: a major U.S. intelligence and communications testing 
installation at the Army's Fort Huachuca and the BLM's San Pedro 
Riparian National Conservation Area. It provides critical riparian 
habitat to millions of migratory birds, many vulnerable animal species 
and an endangered aquatic plant. The combination of prolonged drought, 
increasing human water demands, and other factors have reduced the 
river's flows in many locations, which has adversely affected wildlife 
and fish as well as the long-term reliability of water supplies for 
area residents.
    Finding a solution for the San Pedro started with good science and 
a better understanding of the river. Every June, the Conservancy works 
with more than 100 community members in the U.S. and Mexico to map over 
270 miles of the river and its tributaries to define the extent of 
surface water, specifically, where the river continues to flow during 
the very hottest and driest time of the year. We then developed a 
computer simulation model with our local, State and federal partners to 
better understand underground groundwater flows in the aquifer that 
help sustain the river. Using this information, we were able to 
identify the best locations for groundwater recharge projects that 
enhance stream flows in the San Pedro by improving the aquifer where it 
is needed the most. In partnership with the Department of Defense, the 
Conservancy has acquired key lands from willing sellers and is now 
designing aquifer recharge projects in conjunction with our partners, 
including Cochise County, local developers, private foundations and 
Natural Resource Conservation Districts. By combining private and 
public dollars to concurrently meet both the water needs of people and 
nature, we developed innovative new technologies and infrastructure 
solutions to address what were seemingly unsolvable water shortage 
issues. That is the future we see for the arid West and its rivers: 
collaboration between private and public interests, development of 
smart science, technical tools, and infrastructure; and a commitment to 
simultaneously address the water needs of all water sectors through 
informed decision-making. Water issues do not have to be focused on 
conflict.
                      opportunities going forward
    The SECURE Water Act directed Reclamation to perform basin studies 
that considered risks to a number of resource values. For the first 
time ever, SECURE directed consideration of water-dependent recreation, 
fish and wildlife habitat and ``flow and water-dependent ecological 
resiliency'' on a par with Reclamation's ability to continue water 
deliveries to traditional agricultural, urban and hydropower 
beneficiaries. Sec. 9503(b)(3). The Colorado River Basin Study was the 
first major effort of Reclamation and the States to look at flow and 
water-dependent ecological resources across the Basin. As a result,

          The Study recognized the importance of considering river 
        flows to support flow and water dependent ecological systems, 
        power generation, and recreation, through its adoption of 
        metrics used to approximate the performance of these resources, 
        the inclusion of an Enhanced Environment water demand scenario, 
        and the inclusion of an Upper Basin water bank of which the 
        objective specifically includes improving the performance of 
        ecological and recreational resources. [Chapter 10]

    While this level of consideration of flows was ground breaking, the 
Study was, in large part, limited by the water supply model used to 
perform the study. Reclamation's basin-wide model, known as Colorado 
River Simulation System (CRSS), was designed to manage water supply and 
reservoir operations. It was not designed to track environmental and 
recreational flow needs or develop solutions to protect or enhance 
those values. In other words, the model cannot tell us whether flow 
needs are being met at key locations, because it was not designed to 
assess flows. Consequently, many key flow needs and solutions were left 
out of the Study.
    Another shortfall was that the Study was focused on identifying 
solutions to meet consumptive water supply needs. It was not aimed at 
developing solutions to meet ecological or recreational flow needs. 
Therefore, with a few exceptions, the Study's performance measures were 
not set up to guide the selection of water management actions to meet 
flow needs. Moreover, many flow needs and solutions were left out of 
the Basin Study because CRSS was unable to assess them adequately. 
Without direct linkages between environmental flow needs and water 
management actions to meet those needs, the Basin Study could not 
develop flow-related solutions as it did for consumptive water needs. 
Such disconnects made it difficult to prioritize solutions that meet 
multiple water needs as described in the San Pedro example.
    In the next phases of the Study, parties will be working to craft 
solutions to meet environmental and recreational flow needs in Basin 
communities, along with meeting consumptive water needs. The Basin 
Study will serve as the platform to discuss such long-term solutions 
that support not only communities, but the amenities everyone 
associates with the West, including its rivers. The Basin Study, as 
others have said, is also a ``call to action'' because it shows that 
the water supply and demand imbalance for traditional water users, 
including irrigators and cities, is significant. What is exciting about 
the Basin Study is that it establishes a dialogue focused on finding 
feasible, financially prudent solutions for cities, agriculture, 
industry, recreation and the environment. We ask Congress to follow 
through on the promise of the Basin Study by fully supporting the 
agencies, programs and stakeholders that are working on finding 
solutions to the challenge of managing such a critical river system to 
the West.
    Looking to the past, we can see that anything is possible with 
political will. For example, the Upper Colorado and San Juan Rivers 
Endangered Fish Recovery programs have shown that it is possible to 
meet the needs of endangered fish while also allowing continued 
consumptive water use. Specifically, the Upper Colorado River Recovery 
Program has found solutions that work, such as expanding Elkhead 
Reservoir, a small reservoir in northwest Colorado. The expanded 
capacity can be shared among a power plant, rural community, 
agricultural needs, and flows for the endangered fish. The project 
sailed through permitting, because it was a true model of collaboration 
with multiple benefits.
    Another example is the recent agreement between the United States 
and Mexico that restores water to the Colorado River Delta while 
increasing water supply reliability for communities in both countries. 
In the past, the international boundary stood in the way of traditional 
approaches to restoring healthy river flows. When the Colorado River no 
longer reached the sea and habitat was lost in the delta, many decried 
Colorado River management as a failure. But water managers from both 
countries were able to overcome the challenge of the border by creating 
benefits for water users on both sides of the border. Flows for the 
environment will be created through cooperation between the United 
States and Mexico, as well as through private sector contributions. 
Water will help restore healthy habitat in the delta, water 
conservation will shore up supplies and both countries will benefit 
during wet periods and share the pain of cutbacks during drought. While 
these negotiations were arduous, and the agreement is a pilot planned 
to expire in five years, the benefits are expected to motivate both 
countries to negotiate for a successor agreement. Stakeholder processes 
are not quick, but they often result in the best and most durable 
solutions that satisfy multiple interest groups.
    Additionally, river stewardship tools are necessary for the future 
as the region becomes more arid. As discussed above, the current model 
(CRSS) that we use to manage the Colorado River does not allow us 
``see'' innovative solutions that meet multiple purposes. Through a 
Landscape Conservation Cooperative grant, the Conservancy is working 
with a broad cross-section of water users, federal agencies, tribes, 
local communities and other environmental organizations to explore ways 
to improve the existing model and create new management tools that will 
better allow us to evaluate solutions for both water users and rivers.
     environmental and recreational flows work group scope of work
    The Environmental and Recreational Flows workgroup, with 
representatives from a broad cross-section of environmental, 
recreational, urban, and state interests, will undertake several tasks 
in the coming months. While the scope of work will be finalized next 
week at our first in-person meeting, we will be seeking agreement on 
which rivers are most important for maintaining key ecological and 
recreational attributes, what is the role of flows in maintaining those 
rivers, what are the best tools to protect those rivers and related 
attributes, and whether additional data is needed to help us develop 
solutions. As mentioned above, we need 21st Century management tools 
that allow us to ``see'' opportunities for river management that 
protect the river's health while meeting the needs of people. 
Therefore, we will consider and hopefully integrate The Nature 
Conservancy's assessment of the model into the recommendations of this 
group for the subsequent phase of work. This workgroup will also seek 
to understand how hydropower might be affected in the future and 
possible solutions for protecting those resources.
    Second, we will identify locations on the priority rivers 
identified through this process where opportunities exist to provide 
environmental and recreational flows. If opportunities exist that have 
broad support, we will focus on those opportunities first. Finally, we 
will prepare a report by the end of 2013 that summarizes this 
information and proposes Phase 2 activities to be conducted in 2014.
                               conclusion
    The Basin Study has given us a glimpse into several possible future 
paths. The future will not look like the past as demands will continue 
to increase and supplies are expected to decrease. We need to be honest 
with our communities. We all have a role in creating a sustainable 
future for ourselves and this River system. To ensure a legacy of 
vibrant communities, state of the art urban and agricultural 
conservation, and healthy rivers, we must foster a water stewardship 
ethic that extends to our rivers. We are at a critical juncture in the 
Colorado River's history--we must all pull together to develop and 
implement sustainable solutions.
    Finally, let Australia be a cautionary tale for why water imbalance 
projections should be a call to action. It was not prepared for the 
extreme dry conditions it has experienced. Australia was just beginning 
to plan for a 6% reduction in supplies when they experienced a 38% 
reduction. It is adjusting to a new normal that has forced dramatic 
changes in how it manages water for all uses. We can learn from this 
experience and create a better, less contentious future for the 
Colorado River and for everyone and everything that depends on this 
iconic river.
    Support from this committee and Congress will be critical to our 
success. The conservation community strongly supports continued funding 
of WaterSMART and Landscape Conservation Cooperative programs. Both of 
these programs provide critical assistance to facilitate urban and 
agricultural water conservation projects and environmental solutions. 
Water conservation in all sectors will be crucial for meeting water 
needs in the future, both for our urban and rural communities, and for 
the health of the basin's rivers.
    It is imperative to the success of the Environmental and 
Recreational Flows Workgroup that both the Agricultural and Urban 
Conservation workgroups produce real water savings. All these efforts 
must be integrated for us to succeed. In addition, it is important for 
this body to continue its oversight with regard to the next steps in 
the search for financially prudent, realistic and timely solutions to 
the imbalances in the Basin and the need to protect its important 
ecological and recreation values. The SECURE Water Act established a 
process where Basin Studies are the first step, followed by recommended 
solutions and feasibility studies for their implementation. The 
Colorado River Basin Study was ground-breaking as well as a call to 
action. The Nature Conservancy looks forward to working with our 
partners and the Congress to identify and implement solutions.
    Thank you for the opportunity to provide testimony and to outline 
next steps on the Colorado River Basin Study. I would be happy to 
answer your questions.

    Senator Udall. Thank you, Ms. Hawes.
    We've been joined by Kathleen Ferris. She's the Executive 
Director of the Arizona Municipal Water Users Association.
    Ms. Ferris, we look forward to your testimony. Thank you 
for being here.

   STATEMENT OF KATHLEEN FERRIS, EXECUTIVE DIRECTOR, ARIZONA 
               MUNICIPAL WATER USERS ASSOCIATION

    Ms. Ferris. Senator Udall--OK you see how new I am at this.
    Senator Udall. You're doing great.
    Ms. Ferris. Thank you. My apologies for taking a needed 
break.
    Senator Udall. That was more than appropriate. No apologies 
necessary.
    Ms. Ferris. OK. Thank you.
    As you heard, as you said, I'm Kathleen Ferris, Executive 
Director of the Arizona Municipal Water Users Association. I'm 
one of the Chairs of the Municipal and Industrial Workgroup. So 
today I'm going to talk to you about the workgroup and about 
the role of municipal conservation and reuse in solving water 
imbalances based on the Arizona experience.
    Since 1980 Arizona has pursued a comprehensive approach to 
water management. We've implemented many programs to reduce 
consumption and increase efficiency. We've treated and reused 
millions of acre feet of waste water for many beneficial uses.
    We've stored underground over 8 million acre feet of water 
for use in times of drought. We prohibit new residential 
subdivisions that cannot demonstrate a 100-year assured water 
supply.
    The AMWUA members including the city of Phoenix have been 
leaders in progressive water management. Our success can be 
measured by the fact that while the population of the AMWUA 
cities has grown by 157 percent since 1980 to more than 3.2 
million, water use has increased by only 87 percent.
    State wide our numbers also tell a similar story. Arizona's 
population has increased a whopping 470 percent since 1957. But 
total water use today is virtually the same, virtually the 
same, as it was nearly a half century ago. We've done all this 
without sacrificing our quality of life or our economic 
prosperity.
    So Arizona's experience demonstrates that conservation and 
reuse are absolutely essential. But I need to offer a word of 
caution here about the role that they can play in solving all 
of the Colorado River imbalances.
    To estimate future demand for Colorado River Reclamation 
developed 6 scenarios. Then for each scenario a projected 
amount of conservation was included. It ranged from 500 
thousand acre feet to over a million acre feet per year.
    The Basin study then assumed that progressively ambitious, 
best management practices or BMPs could reduce Colorado River 
demands by another one million acre feet annually by 2060. So 
that would be so great. But the study acknowledges that many of 
the BMPs have already been implemented throughout the study 
area. It also goes on to make clear and I quote that, ``Its 
conservation assumptions do not necessarily reflect realistic 
or achievable local conservation goals.
    So here is where the M and I workgroup comes in. Our role 
is to ground truth the study.
    We will quantify conservation and reuse savings to date 
within the study area.
    We will document successful conservation and reuse programs 
already in place.
    We will explore the potential for expanding those programs 
to other parts of the study area.
    Finally, after gathering these facts the workgroup will 
analyze the potential for conservation and reuse to reduce 
Colorado River water demands.
    So it's tempting. I know it's very tempting to look to 
conservation and reuse as the silver bullet to Colorado River 
imbalances. Make no mistake they're absolutely necessary to 
stretch our water supplies.
    But Arizonans have learned that we will also need to 
augment our water supplies and employ other management 
strategies to meet our growing demands.
    My 36 years as a water professional lead me to believe that 
a similar comprehensive approach is going to be necessary for 
solving the Colorado River imbalances. I think we have to be 
unafraid to seek the truth about what will and will not work so 
that the solutions we forge will have real and lasting results. 
We owe that to the Colorado River and to our citizens.
    Thank you very much for your interest in this issue.
    [The prepared statement of Ms. Ferris follows:]

  Prepared Statement of Kathleen Ferris, Executive Director, Arizona 
                   Municipal Water Users Association
    Chairman Schatz and members of the Subcommittee, I am Kathleen 
Ferris, Executive Director of the Arizona Municipal Water Users 
Association (AMWUA). Thank you for the opportunity to testify before 
the Subcommittee on the Colorado River Basin Water Supply and Demand 
Study (Basin Study).
    AMWUA is a non-profit association of municipal water providers in 
the Phoenix metropolitan area. Our members are the Cities of Avondale, 
Chandler, Glendale, Goodyear, Mesa, Peoria, Phoenix, Scottsdale and 
Tempe, and the Town of Gilbert. Collectively, the AMWUA members provide 
water to over 3.2 million people, more than fifty percent of Arizona's 
population. Since 1969, AMWUA has advocated for responsible water 
stewardship that supports economic prosperity and safeguards Arizona's 
water supplies for future generations.
    I am also one of the Chairs of the Municipal and Industrial 
Conservation and Reuse Workgroup (M&I Workgroup). This Workgroup, 
comprised of conservation professionals from the Basin states, 
Reclamation, and representatives of NGOs, was formed as part of the 
next steps of the Basin Study.
    For the past 36 years, I have devoted my professional career to 
developing and implementing sound water management policies in Arizona. 
I was one of the drafters of Arizona's Groundwater Management Act, 
served as the Director of the Arizona Department of Water Resources, 
and was legal counsel to AMWUA for 24 years before assuming the 
position of Executive Director. With that background, I would like to 
share my views on conservation and reuse as water management tools and 
their role in solving future imbalances of Colorado River water. I will 
also discuss the duties of the M&I Workgroup.
     conservation and reuse in the study area--the arizona example
    For more than thirty years, conservation and reuse of water have 
been a way of life in central Arizona. In 1980, Arizona enacted the 
Groundwater Management Act\1\ to ``provide a framework for the 
comprehensive management and regulation of the withdrawal, 
transportation, use, conservation and conveyance of rights to use 
groundwater.''\2\ Prior to 1980, Arizonans had been mining groundwater 
supplies without regulation to keep up with continually expanding uses. 
Groundwater mining led to land subsidence, water quality degradation, 
and costly lawsuits among water users. Finally, after two and a half 
years of work by a special commission and intense negotiations chaired 
by Governor Bruce Babbitt, Arizona passed this comprehensive law that 
is unique in the United States in its far-reaching approach to water 
management. Hailed in 1986 by the Ford Foundation and the Harvard 
School of Government as one of the ten most innovative programs in 
state and local government, Arizona's Groundwater Management Act 
continues to be one of the nation's most visionary laws for the use and 
protection of water resources.
---------------------------------------------------------------------------
    \1\ A.R.S. Title 45, Chapter 2
    \2\ A.R.S. Sec.  45-401.B
---------------------------------------------------------------------------
    The Groundwater Management Act applies to Arizona's most heavily 
populated areas. These are known as Active Management Areas or AMAs,\3\ 
and encompass approximately 83 percent of the state's population and 57 
percent of its water use. Within AMAs, the Act quantifies rights to use 
groundwater,\4\ prohibits new agricultural irrigation,\5\ permits new 
wells to be drilled only in conformance with well-impact standards,\6\ 
and prohibits the development of new residential subdivisions without a 
proven 100-year assured water supply.\7\
---------------------------------------------------------------------------
    \3\ A.R.S. Title 45, Chapter 2, Article 2
    \4\ A.R.S. Title 45, Chapter 2, Article 5
    \5\ A.R.S. Sec.  45-452
    \6\ A.R.S. Sec.  45-598
    \7\ A.R.S. Sec.  45-576
---------------------------------------------------------------------------
    The Act also requires the Arizona Department of Water Resources to 
develop progressive 10-year management plans for each AMA, designed to 
achieve a management goal for that AMA.\8\ The management goal for the 
Phoenix, Tucson and Prescott AMAs is safe-yield.\9\ Safe-yield is a 
long-term balance between the amount of groundwater withdrawn in the 
AMA and the amount of natural and artificial recharge in the AMA.\10\ 
The management plans must contain conservation requirements for all 
water users in the AMAs.\11\ Because these plans provide the blueprint 
for conservation in most of Arizona, it is important to understand how 
they are developed and the strategies that have been employed to 
increase water efficiency in the AMAs.
---------------------------------------------------------------------------
    \8\ A.R.S. Sec.  45-563
    \9\ A.R.S. Sec.  45-562
    \10\ A.R.S. Sec.  45-561
    \11\ A.R.S. Sec. Sec.  45-564 through 45.568.02
---------------------------------------------------------------------------
    The management plans are developed using technical advisory 
committees and multiple levels of public input. In each successive ten-
year period, the preparation of the plans provides the opportunity to 
analyze the effectiveness of water management efforts. Adjustments in 
strategies and conservation requirements are made, and additional 
reasonable reductions in water use are specified. In each management 
period, the Department of Water Resources has included incentives for 
the efficient use of renewable supplies, provided technical and 
financial assistance, and revised programs based on new technologies 
and practices.
    Since the First Management Plan was adopted in 1984, the approach 
to municipal conservation has been refined, evolving in sophistication 
and flexibility in each subsequent management period, in response to 
the growing understanding of the complexities of water management 
issues. In the First Management Plan, one program was applied to all 
providers. It quickly became apparent, however, that the unique 
characteristics and growth patterns within a provider's service area 
greatly influence that provider's ability to reduce per capita use.
    Today, there are two primary conservation programs for large 
municipal providers (those serving 250 acre-feet of water or more 
annually): the base Total Gallons Per Capita per Day (Total GPCD) 
Program and the Non-Per Capita Conservation Program (NPCCP). In 
addition to these programs, each provider must limit water system 
losses to less than 10 percent and meter all service connections, and 
is subject to mandatory reporting requirements.
    Under the Total GPCD Program, a large municipal provider must limit 
the annual per capita water use within its service area to a specified 
total GPCD requirement calculated individually for that provider. Total 
GPCD includes residential, industrial, commercial, and other uses 
supplied water by the municipal provider. The actual amount of water 
withdrawn, diverted, or received by the municipal provider in the 
calendar year determines compliance. Some deliveries of treated 
wastewater by the municipal provider are excluded from the calculation 
to encourage the use of reclaimed water.
    The alternative Non-Per Capita Conservation Program requires 
implementation of specific residential and non-residential conservation 
measures for interior and exterior water use and a water conservation 
public education program. Conservation measures selected by the 
provider must be designed to result in water use efficiency equivalent 
to that assumed in the provider's total GPCD requirement. The NPCCP is 
a performance-based program with compliance determined by effective 
implementation of stipulated conservation measures and required water 
use reductions.
    Under municipal conservation programs, facilities and industries 
that receive municipal water, including landscaped public rights-of-
way, turf-related properties and other non-residential customers, also 
have specific conservation requirements. These requirements include 
limitations on allowable acreage with turf, limitations on water-
intensive landscaping for hotels, annual water allotments for turf, and 
low water use landscaping in rights-of-ways.
    The AMWUA members have responded to the challenges of conserving 
water. Each member has a dedicated water conservation office and expert 
staff to assist its community. In addition to limiting water system 
losses to less than 10 percent, repairing and replacing service meters, 
and setting rate structures that encourage conservation, the members 
collectively implement 305 best management practices, including:

  <bullet> Water-waste and irrigation ordinances
  <bullet> Residential audits
  <bullet> High water use notification and assistance
  <bullet> Rebates for converting from turf to water-efficient 
        landscaping
  <bullet> Training for landscape professionals
  <bullet> Water use plan requirements for commercial, industrial, and 
        institutional facilities
  <bullet> Retrofit programs for low-income residents
  <bullet> Plumbing codes
  <bullet> Restrictions on water features
  <bullet> Extensive outreach and education

    These individual efforts have paid great dividends, but AMWUA has 
also seen the benefit of collaborative regional conservation programs 
and was the forerunner in those efforts, launching the Regional Water 
Conservation Program in 1982. Through this program we share 
conservation information, messaging, training and education. We count 
our citizens as partners by supplying knowledge that encourages 
individuals to make real changes that foster stewardship of our 
resources. Because we pool resources and identify common needs, our 
efforts have greater visibility, reach, consistency and impact.
    Recognizing that between 50 and 70 percent of residential water use 
in central Arizona occurs outdoors, the Regional Water Conservation 
Program has focused extensively on developing educational brochures to 
inspire and assist homeowners to design, install and maintain low-
water-use landscapes. We have distributed more than 4 million of these 
brochures and developed award-winning, interactive websites, helping to 
popularize the shift to water-efficient landscapes across our region.
    Research showed that our customers didn't want to be told to 
conserve--they wanted to learn how to conserve--so our members also 
developed the multi-media campaign Water--Use It Wisely. We have 
devoted more than thirteen years to this campaign, increasing public 
consciousness and empowering individuals to conserve, and over 400 
public and private entities across our country have followed Arizona's 
lead. Today, Water--Use It Wisely is the largest water conservation 
awareness campaign in North America.
    Since passage of the Groundwater Management Act, the AMWUA cities 
have also become leaders in the reuse of wastewater, reclaiming 100 
percent of the wastewater produced by their citizens and putting it to 
beneficial uses such as energy production, turf irrigation, 
agriculture, environmental restoration, and recharge.\12\ The uses of 
this wastewater are many and varied, but one striking example shows the 
long-lasting and innovative nature of our reuse efforts.
---------------------------------------------------------------------------
    \12\ In Arizona, reclaimed wastewater is not groundwater or surface 
water and the entity that treats the wastewater is free to contract for 
its disposition. Arizona Public Service Co. v. Long, 773 P2d 988 (1989)
---------------------------------------------------------------------------
    In 1973, AMWUA negotiated an agreement with Arizona Public Service 
Company to provide reclaimed wastewater to the Palo Verde Nuclear 
Generating Station (Palo Verde) for cooling purposes.\13\ Located 
approximately 50 miles west of Phoenix, Palo Verde is the largest 
nuclear generating station in the western hemisphere, producing 4.0 gwh 
of energy, and supplying power to the grid for the entire southwestern 
United States. It is the only nuclear plant not located on a large body 
of fresh water for cooling purposes, and the only nuclear plant in the 
world to use recycled wastewater for cooling. The 91st Avenue 
Wastewater Treatment Plant, operated by the City of Phoenix for 
Phoenix, Glendale, Mesa, Scottsdale and Tempe, provides up to 80,000 
acre-feet of reclaimed wastewater annually to Palo Verde through a 
dedicated pipeline. The plant itself uses water efficiently, recycling 
it 25 times for cooling purposes. Unlike other nuclear plants, Palo 
Verde maintains ``zero discharge,'' with no liquid waste discharged to 
rivers, streams or oceans.
---------------------------------------------------------------------------
    \13\ The Agreement was renegotiated in 2010.
---------------------------------------------------------------------------
    The AMWUA members also work with commercial and industrial 
facilities to create opportunities to recycle process water and advance 
efficiency and sustainability. Through an innovative partnership, the 
City of Chandler and Intel built and operate a facility that uses state 
of the art technology to treat industrial process water from Intel's 
semiconductor manufacturing plants to bring it up to drinking water 
standards. The water is then recharged back into the ground, providing 
a renewable water supply for the City. Since the beginning of 
operations, the Chandler Reverse Osmosis Facility has pumped over five 
billion gallons of recycled water back into the ground, enough water to 
supply 45,000 households. Intel also uses recycled water in its cooling 
towers and reclaimed wastewater from a nearby Chandler reclamation 
facility to irrigate landscaping. This partnership has allowed 
industrial growth to occur in the City, creating thousands of high-
paying jobs, increasing City tax revenues, and boosting the area's 
economy, while maintaining a healthy water supply.
    Water management innovations in Arizona did not end with passage of 
the Groundwater Management Act. Since 1980, Arizona has enacted 
progressive laws prohibiting the use of drinking water in man-made 
development lakes,\14\ requiring water conservation plumbing,\15\ and 
encouraging the underground storage of excess water supplies for use in 
times of drought.\16\
---------------------------------------------------------------------------
    \14\ A.R.S. Title 45, Chapter 1, Article 3
    \15\ A.R.S. Title 45, Chapter 1, Article 12
    \16\ A.R.S. Title 45, Chapter 3.1
---------------------------------------------------------------------------
    The impacts of these laws on water use in Arizona have been 
substantial. Demand for water is flattening, despite the dramatic 
growth of the region. While the population of the AMWUA cities 
increased by 157 percent between 1980 and 2010, water use increased by 
only 87 percent. Individual municipal records are equally impressive. 
The City of Phoenix is the sixth largest city in the country with more 
than 1.4 million residents. Between 1980 and 2010, the City's 
population increased by 83 percent, yet the City's total per capita 
demand increased by only 35 percent and its total water production 
increased by only 18 percent.
    Conservation and reuse efforts outside of the AMAs tell a similar 
story. Cities in other parts of Arizona have also implemented programs 
and measures to promote water efficiency, including limits on landscape 
watering and expansion of turf, tiered rate structures, rebates for low 
flow appliances, and prohibitions on the use potable water for golf 
course irrigation. The numbers are dramatic. Statewide, Arizona's 
population has increased by 470 percent since 1957, but total water use 
is virtually the same today as it was more than a half century ago.
    Water is not just about supporting the population, it drives the 
economy. In Arizona, we have found that we can have water efficiency 
and a healthy economy. The attached info-graphic shows that our 
domestic income continued to increase even as water use became more and 
more efficient.*
---------------------------------------------------------------------------
    * Graphic has been retained in subcommittee files.
---------------------------------------------------------------------------
    In Arizona, codes, ordinances, pricing, and incentives have led new 
development to build in efficiency on the front end. Efficient fixtures 
continue to improve interior water use. Desert-adapted landscaping has 
gained in popularity. Smart irrigation technology is becoming more 
common. Clearly, Arizonans embrace conservation and reuse to stretch 
all of our water supplies to ensure sustainable growth and economic 
prosperity. We are eager to share our successes with the other Basin 
states.
               conservation and reuse in the basin study
    Conservation and reuse are essential to our Colorado River basin 
economies, but while further implementation of evolving technologies 
and proven practices can continue to help maximize the use of our 
existing water supplies, it is doubtful that the projected Colorado 
River imbalances can be satisfied through conservation and reuse alone.
    To estimate the future demand for Colorado River water, Reclamation 
developed six water demand scenarios. These scenarios include current 
projected demand, demand based on slow growth or rapid growth, and 
demand based on enhanced environmental uses. The amount of M&I 
conservation included in each demand scenario varies, from 478,000 
acre-feet for the current projected demand scenario to 1,114,000 acre-
feet for the enhanced environment scenario.\17\ Reclamation then 
examined the potential for additional conservation (over and above the 
amounts estimated in the demand scenarios) by considering three levels 
of increased conservation ``based on assumed levels of reductions and 
adoption rates'' of progressively ambitious best management practices 
(BMPs).\18\ Using this approach, the Study estimates that additional 
conservation could reduce Colorado River demands by as much as another 
1 million acre-feet by 2060.\19\ This robust savings figure should be 
evaluated in light of the following considerations noted in the Basin 
Study:
---------------------------------------------------------------------------
    \17\ Colorado River Basin Water Supply and Demand Study, Appendix 
F9-10, Table F9-4
    \18\ Id., Appendix F9-6
    \19\ Id., Appendix F9-11, Table F9-5

  <bullet> The assumed levels of reductions and adoption rates for best 
        management practices were derived from Colorado and California 
        approaches and applied to the total Study Area demand to result 
        in a Basin-wide estimate of potential savings. ``The 
        assumptions were derived for purposes of the Study and do not 
        necessarily reflect realistic or achievable local conservation 
        goals.''\20\
---------------------------------------------------------------------------
    \20\ Id., Appendix F9-6
---------------------------------------------------------------------------
  <bullet> Many of the BMPs considered in the levels of increased 
        conservation ``have already been enacted throughout the Study 
        Area.''\21\
---------------------------------------------------------------------------
    \21\ Id., Appendix F9-3
---------------------------------------------------------------------------
  <bullet> ``The potential M&I conservation measures are assumed to 
        apply to the overall Study Area, but significant differences in 
        potential water savings exist between geographies based on the 
        current level of conservation adoption, commercial and 
        industrial base, and climate.''\22\
---------------------------------------------------------------------------
    \22\ Id., Appendix F9-8

    These considerations clearly indicate that the 1 million acre-foot 
figure should not be relied upon too heavily.
    Additionally, the Basin Study makes a distinction between 
conservation savings for ``in-Basin'' locations, and conservation 
savings for ``out-of-Basin'' locations, such as Southern California and 
Denver.\23\ The Study states:
---------------------------------------------------------------------------
    \23\ While most of Arizona is located within the Colorado River 
Basin, municipal uses of Colorado River supplied by the Central Arizona 
Project are more similar to uses in out-of-Basin areas, since central 
Arizona is located more than 300 miles from the River. Municipal and 
industrial uses of Central Arizona Project water were treated like out-
of-Basin uses for purposes of this Study.

          In many of the major urban areas receiving Colorado River 
        water, the overall water supply provided to communities 
        consists of a significant portion of other supplies (other 
        surface supplies, groundwater supplies, reuse, etc.) in 
        addition to Colorado River water. In most of these out-of-Basin 
        areas, the supplies are commingled in the water supply and 
        distribution systems before delivery to the consumer. Because 
        conservation measures are end-use water demand reductions, the 
        water savings result in a net demand reduction. In these areas, 
        the net M&I demand reductions may not result in the same amount 
        of demand reduction for Colorado River water. This is the 
        result of the distributed nature of conservation efforts and 
        the inability of conservation to target one type of supply in 
        regions that have diverse water supply portfolios. . . . Water 
        conservation will reduce the overall demand on these supplies 
        collectively, but is not likely to result in a one-for-one 
---------------------------------------------------------------------------
        reduction in Colorado River demand.

    As the next steps of the Study move forward, it will be important 
to gain a better understanding of how much Colorado River water can, or 
cannot, be saved by conservation in out-of-Basin urban areas.
    The Basin Study also estimates that greater municipal wastewater 
reuse could potentially reduce Colorado River demands by 930,000 acre-
feet by 2060.\24\ The Study points out that, ``Given the complexity of 
regional and local water management decisions, it was simply assumed 
that increased development of reuse reduces water demands 
proportionally to the magnitude of supply from Colorado River and non-
Colorado River sources.''\25\ This assumption and the role of reuse in 
reducing demands on the River warrant greater exploration.
---------------------------------------------------------------------------
    \24\ Id., Appendix F6-3
    \25\ Id., Appendix F6-2
---------------------------------------------------------------------------
    From my experience with water conservation and reuse in Arizona, I 
offer the following perspectives. While GPCD rates can be useful in 
tracking water use trends over time within a service area, such 
absolute metrics should not be used to judge relative water use 
efficiencies among different water providers. These metrics cannot take 
into account geographical differences, such as climate, and differences 
in development patterns, lot sizes, cultural and socio-economic 
conditions, and industrial and commercial uses within a provider's 
service area, all of which significantly impact water use. There is no 
industry standard for how per capita use is calculated. A further 
complicating factor is that providers meter, categorize, and track 
customer accounts and end uses in dramatically different ways. There is 
no apples-to-apples approach that is used by all providers. In short, a 
provider's progress is best measured in light of the history and future 
potential within its specific service area.
    Efficient water use must also consider the need for viable economic 
development. Efficiency must allow for uses of water that provide high-
paying jobs, increase a city's tax base, provide goods and services to 
the nation, and improve overall standards of living.
    Conservation and reuse are necessary, desirable, and effective 
water management tools, but they must be supplemented with other 
measures. In central Arizona, we have found that a comprehensive 
approach is necessary. Even as we conserve and reuse, we must also 
augment our supplies and employ other strategies, such as underground 
storage of water, to ensure that our water supplies are secure, 
reliable and sustainable. The same can be said for Colorado River 
water. We must conserve and reuse Colorado River supplies, but we must 
be mindful of the limitations of these tools. We must explore all of 
our options, including augmentation, to ensure a balanced and 
sustainable approach to this complex issue.
                      duties of the m&i workgroup
    The M&I Workgroup consists of representatives of all of the Basin 
states, Reclamation, and several Non-Government Organizations. Carolyn 
Schaffer, of the Metropolitan Water District in Southern California, 
and Marc Waage, of Denver Water, serve with me as chairs. We have 
developed a proposed scope of work for the first phase of the 
Workgroup's activities. We intend to quantify conservation and reuse 
savings to date within the Study Area by gathering and examining more 
detailed data from existing reports, studies, planning documents and 
other information sources. We will also document successful 
conservation and reuse programs that have been implemented in the Study 
Area and assess the potential to expand these programs to other parts 
of the Study Area. Ultimately, we will analyze the potential for 
additional conservation and reuse to help reduce Colorado River water 
demands.
    This is a big undertaking in a short period of time, but we are 
committed to completing our task. For Arizona, addressing potential 
Colorado River imbalances is of the utmost importance. For the AMWUA 
members, it is critical. The Central Arizona Project (CAP), along with 
Nevada and some Arizona municipal providers on the River, share the 
lowest priority to Colorado River water in the Lower Basin. In times of 
shortages, we take the first hit. My members hold contracts to almost 
300,000 acre-feet of CAP water, nearly half of the CAP M&I supply. As 
municipal water providers, we know the necessity of reducing 
vulnerabilities so that we may continue to provide reliable supplies to 
our citizens, businesses and industries. We recognize the need to 
balance competing interests and the value of a healthy River system. We 
understand the importance of dealing with Colorado River imbalances, 
just as we have long understood the urgency of managing all of our 
water resources efficiently.
    Arizona and AMWUA appreciate Reclamation's leadership on this 
crucial issue and look forward to working with Reclamation and the 
other Basin states to find comprehensive and lasting solutions.
    Thank you for your interest in this important issue.

    Senator Udall. Ms. Ferris, thank you for that very 
insightful commentary. I look forward to directing a couple 
questions your way when Dr. Waskom concludes his remarks.
    The third member of our panel, a fellow Coloradan, is Dr. 
Reagan Waskom. He's the Director of the Colorado Water 
Institute, Colorado State University at Fort Collins.
    Doctor, welcome. We look forward to your testimony.

STATEMENT OF REAGAN WASKOM, DIRECTOR, COLORADO WATER INSTITUTE, 
                   COLORADO STATE UNIVERSITY

    Mr. Waskom. Thank you, Mr. Chairman.
    For the record my name is Reagan Waskom. I serve as the 
Director of the Colorado Water Institute at Colorado State 
University. I'm providing my comments today in my role as the 
co-chair of the Agricultural Conservation Transfers Workgroup 
of the Basin study.
    These comments are my own and they may or may not reflect 
the comments of my current or my fellow workgroup members.
    So my testimony today will focus on the importance of the 
Colorado River for sustaining agriculture in the Southwest.
    I'll talk a little bit about the direction of our 
workgroup.
    Then the challenges inherent in agricultural water 
conservation, particularly for transfers to other uses.
    So as was already mentioned, the Basin study confirms that 
without further actions we face growing shortages. One of the 
options that's been explored in the study and has been 
mentioned today already is the idea of agricultural 
conservation and transfers. Certainly this is not a new idea. 
We've been doing this in the Western U.S. for some time now. 
Hundreds of thousands of acres of previously irrigated lands 
have already been dried up in the West, to me, growing 
municipal, industrial and environmental needs.
    This trend of transferring agricultural water has real and 
far reaching implications on our future agricultural 
productivity and the viability of rural communities.
    Agriculture in the Colorado River Basin is driven by 
irrigation. Roughly two million acres irrigated in the Upper 
Basin and roughly two million in the Lower representing 15 
percent of all U.S. crop receipts and about 13 percent of all 
livestock in the United States. Much of our winter vegetables 
as well, I might mention.
    So the Basin study estimates that we may be able to capture 
a million acre feet of water through conservation by the year 
2060 to fill the gap. This would be done by implementing a 
number of measures specifically advance the irrigation 
scheduling, to have opposite irrigation, on farm irrigation 
system improvements, controlled environment agriculture 
conveyance system efficiencies and fallowing of irrigated 
lands.
    So in order to encourage the adoption of these measures two 
possible implementation strategies have been considered.
    The first calls for conservation through incentive based 
programs. So this would be voluntary conservation, increasing 
water use efficiency and thereby reducing agricultural demand.
    The other approach is voluntary agricultural conservation 
that will result in conserved water available for transfer to 
other uses to meet supply demands, if you will.
    So as you've heard these basin study workgroups are being 
set up to dig deeper into the details. I'll be co-chairing the 
agricultural workgroup with Tina Shields, of the Imperial 
Irrigation District and Ken Nowak of the Bureau of Reclamation. 
Our workgroup intends to develop a report that quantifies 
agricultural conservation and transfer of Colorado River water 
to date.
    So it's been done through this mechanism. We want to 
document impacts and tradeoffs that have occurred and then 
determine any future plans for further conservation and 
transfer activities.
    Then estimate what sort of savings can we really expect to 
get?
    What could be transferrable?
    Then from that baseline information we want to move 
forward.
    So I think it's important that we be aware that 
agricultural interests are concerned with the future scenarios 
that have been identified in the Basin study. I believe that 
irrigation districts in the Southwest, they appreciate the 
collaborative effort that's been done to date between 
Reclamation and the States that has led to the completion of 
this first step. I think a key overall benefit is that now all 
the parties can more or less be on the same technical platform. 
We're on the same page.
    However, I do know that many agricultural interests are 
concerned about virtually every scenario that's been assessed 
in the Basin study. They all show a loss of irrigated lands as 
well as those concerned about the quantity of agricultural 
water that realistically can be conserved.
    So once our workgroup has a firmer hold on the number that 
we think is realistic through conservation savings, I'm hoping 
the workgroups will spend its time really focusing on the 
incentives and solutions that we need to meet the gap. Some of 
that will certainly come from improved infrastructure. Some 
will come through involuntary transfer mechanisms such as have 
been mentioned already.
    I'm pleased that Reclamation and the 7 States are committed 
to continued refinement of the Basin study as part of a long 
term tool for robust planning and implementation. The western 
irrigated agriculture is really an important component of our 
food supply. We need to think about that. As a society we need 
to think about the tradeoffs that are associated with transfer 
and water that's currently being used to produce our food 
supply.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Waskom follows:]

     Prepared Statement of Reagan Waskom, Director, Colorado Water 
                  Institute, Colorado State University
    My name is Reagan Waskom and I serve as the director of the 
Colorado Water Institute at Colorado State University. The Colorado 
Water Institute is one of the 54 state water resources research 
institutes funded through the US Geological Survey and organized under 
the National Institutes for Water Resources (NIWR), the organization 
that collectively represents the state water resources research 
institutes. Our Institute has been working on agricultural water 
management and Colorado River issues, among many other pressing water 
problems, since 1965. Currently, we are deeply engaged in dealing with 
drought and its associated problems such as fire and crop failure in 
the state of Colorado. For the record, this year I'm serving as the 
president of the National Institute for Water Resources and as the 
president of the Colorado Water Congress, but I am providing comments 
today solely in my role as a Co-Chair of the Colorado River Water 
Supply and Demand Basin Study Agricultural Conservation and Transfers 
Workgroup. My testimony will focus on the importance of the Colorado 
River for sustaining agriculture in the Southwest, the direction of our 
workgroup and the many challenges inherent in conserving agricultural 
water for transfer to other uses.
         importance of the colorado river to the southwest usa
    The Colorado River is one of the most important resources in the 
Southwestern U.S. and it is a critical water resource for the State of 
Colorado. The Colorado River spans parts of the seven states of 
Arizona, California, Colorado, New Mexico, Nevada, Utah, and Wyoming 
(basin States), and it provides: 1) the municipal water supply for more 
than 30 million people; 2) the irrigation supply for nearly 4 million 
acres of land; and, 3) hydropower to generate more than 4,200 MW.
    Water supply and demand imbalances already exist in some geographic 
areas in the Basin and these imbalances are projected to increase in 
both magnitude and spatial extent in the future. The Colorado River 
system has storage capacity that is greater than 60 million acre-feet, 
which is approximately four times the average inflow (14.9 maf), and 
this storage has allowed most demands in the lower Colorado River Basin 
to be met, even over periods of sustained drought. In the upper 
Colorado River Basin shortages exist somewhere in the upper basin in 
most years, due to variability of snowpack and rainfall. However, 
studies indicate that droughts of greater severity have occurred in the 
far past and climate experts and scientists suggest that such droughts 
are likely to occur in the future.
         nature of colorado river basin agricultural water use
    Agriculture in the Colorado River Basin is driven by irrigation, 
with about two million acres of land irrigated in the Upper Basin 
(including tributaries and transbasin lands) and another two million in 
the Lower Basin, representing about 15 percent of all crop receipts and 
13 percent of all livestock in the U.S. A wide variety of crops are 
grown in the basin, including corn, sorghum, wheat, barley, cotton, 
peanuts, sugarbeets, soybeans, potatoes, lettuce, onions, chilies, 
alfalfa hay, grass hay, cauliflower, broccoli, carrots, honeydews, 
cantaloupes, watermelons, grapefruit, oranges, lemons, tangerines, 
grapes, tomatoes, apples, cherries, apricots, and peaches. Production 
of sheep, goat, dairy and beef cattle are large contributors to the 
basin's agricultural output.
    California has the greatest number of irrigated acres of the seven 
states, with its largest user the Imperial Valley, which irrigates 
almost 500,000 acres. In Colorado, there are approximately 600,000 
acres of agricultural lands in the Basin plus another 900,000 acres 
outside the basin that are partially irrigated with transbasin 
diversions. The San Juan River (the Colorado River's largest tributary) 
irrigates nearly 100,000 acres in New Mexico. Nevada does not directly 
use water from the Colorado River for agriculture; however, in Utah and 
Wyoming, the Colorado River and its tributaries provide irrigation 
water for over 500,000 acres.
    Previous research indicates that strong support exists among those 
who live in the western states for keeping land and water in 
agriculture and limiting water transfers that create adverse impacts on 
rural communities (Western Governors' Association and Western States 
Water Council, 2012). Local food and fiber production, protecting open 
space and wildlife habitat, maintaining agricultural jobs and 
businesses, and preserving western heritage are among the reasons for 
ensuring there are adequate land and water resources for agriculture 
production.
    The Colorado Water Institute is currently working with the Water 
Research Institutes from the six basin states to survey and interview 
farmers and ranchers who use Colorado River water to determine their 
preferences for meeting future water shortages. They indicated a strong 
preference for water conservation and efficiency (77 percent); working 
towards public policy that supports keeping land and water in 
agriculture was ranked second highest at 75 percent. Findings from in-
depth telephone interviews we conducted in late 2012 with agricultural 
water users and managers in all seven states suggest that agricultural 
irrigation efficiency and conservation are major concerns for farmers 
and ranchers. Yet significant technical, institutional, legal, 
economic, and social barriers to conservation are seen to exist across 
the Basin. Some water managers spoke of the technical complexities of 
efficiency and conservation, wherein the type of crop cultivated and 
irrigation technology employed shape how much water can be produced by 
conservation. For many farmers, conserving agricultural water is 
perceived as potentially harmful to their interests and to their 
future. Many fear, correctly or not, that under their state's water 
law, conservation may reduce their water rights and even subject them 
to legal abandonment.
                     background on the basin study
    Recently, the Colorado River Basin States (``Basin States'') and 
the Bureau of Reclamation completed the Colorado River Basin Study 
(``the Basin Study''), to assess future water supply and demand 
imbalances over the next 50 years and develop and evaluate 
opportunities for resolving imbalances. The study has been under 
development for nearly three years by the U.S. Bureau of Reclamation 
(Reclamation) and the Basin States, in collaboration with stakeholders 
throughout the Basin. Reclamation officials have emphasized that this 
is a planning study; it will not result in any decisions, but will 
provide the technical foundation for future activities. In addition, 
the Study explored various options that could be used to reduce the 
anticipated supply/demand imbalances. A scenario planning approach was 
used for this study to examine the full range of possible water supply/
water demand projections. The Study, a compilation of seven technical 
reports and two overview documents, is available in its entirety at 
http://www.usbr.gov/lc/region/programs/crbstudy/finalreport/index.html.
    The Basin Study's four different supply scenarios and six different 
demand scenarios present a broad range of possible imbalances. However, 
when comparing the median of the six demand scenarios combined with the 
median of four different water supply scenarios, a Basin-wide imbalance 
of approximately 3.2 million acre-feet per year by 2060 is plausible. 
Moreover, the greatest increases in demand are projected to occur in 
the Lower Basin. The Basin Study also illustrates that because of the 
magnitude and distribution of the imbalances, no single solution will 
be adequate to meet all future water demand and supply imbalances.
    The Study confirms that without future actions, the Basin faces a 
range of potential future imbalances between supply and demand. A wide 
range of future imbalances is plausible and each of those imbalances 
results in the decline in the performance of Basin resources including 
water deliveries, hydropower, water quality, ecological, and 
recreational resources.
    The Study also demonstrates the implementation of a broad range of 
options that can reduce Basin resource vulnerability and improve the 
Colorado River system's resiliency to low and variable hydrologic 
conditions. The Study identifies a series of next steps that should be 
taken to begin to discuss what actions should be pursued to ensure the 
sustainability of the system. One of the options that the Bureau of 
Reclamation and the Basin States explored within the Study was pursuing 
additional agricultural conservation and water transfers. This is not 
surprising or a new concept in the western United States. Many 
thousands of acres of agricultural lands have already been dried up 
within Colorado and throughout the West to meet growing municipal and 
industrial demands. This trend of transferring agricultural consumptive 
uses to growing municipal and industrial uses has real and far-reaching 
implications and effects. In Colorado alone, the trend has prompted 
policy makers to fund studies that explore and potentially provide 
alternatives to agricultural transfers. Tools like interruptible supply 
agreements, temporary fallowing arrangements, deficit irrigation 
techniques, water banks, improved infrastructure, and other tools are 
being developed and used throughout Colorado and the other western 
states.
                               next steps
    While the Colorado River Basin Study provides new tools and answers 
a number of critical questions about the future of the Colorado River, 
it has raised new and different questions. The Bureau of Reclamation 
and the Basin States recognized that with the completion of the 
Colorado River Basin Study, their work was not done, but rather it was 
just beginning.
    The Bureau of Reclamation and the Basin States agree that there are 
three key areas where additional work is immediately necessary: 1) 
municipal conservation; 2) agricultural conservation and transfers; 
and, 3) recreational and environmental flows. Thus, the Bureau of 
Reclamation and the Basin States formed three workgroups to tackle 
specific scopes of work associated with each of these subject matters.
    The Basin Study estimated that one million acre-feet of water can 
be conserved from agriculture by the year 2060 to fill the estimated 
gap that will exist between water supply and demand. Agricultural water 
conservation has been proposed to reduce the overall water demand in 
areas currently relying upon water supply from the Colorado River 
system. The concepts received were first organized into six 
agricultural water conservation measures reflecting different types of 
activities that could generate water savings in the agricultural 
sector. The six agricultural water conservation measures consist of:

  <bullet> Advanced irrigation scheduling
  <bullet> Deficit irrigation
  <bullet> On-farm irrigation system improvements
  <bullet> Controlled environment agriculture
  <bullet> Conveyance system efficiency improvements
  <bullet> Fallowing of irrigated lands

    In order to encourage adoption of the targeted water conservation 
measures, two possible implementation approaches were considered: (1) 
Basin-wide agricultural water conservation through a federal or state 
incentive-based program to encourage agricultural water use efficiency 
without specific legal transfer of water or water rights, and (2) 
Basin-wide agricultural water conservation with water transfers between 
a willing transferor and willing transferee that promotes water 
conservation and/or short-term or permanent fallowing of irrigated 
lands to transfer conserved water to the transferee for a similar or 
different use.
    The six agricultural water conservation measures have been 
conceptualized into two implementation approaches: 1) incentive-based 
programs to reduce agricultural demands and 2) water transfers to 
augment supplies. Because the conservation measures could produce 
different amounts of savings depending on the location in the Basin, 
implementation approach, and combination of conservation measures, the 
total quantities were estimated as an aggregate for each implementation 
approach rather than a summation of individual conservation measures. 
Up to 1 million acre feet of potential savings by 2060 was considered 
for both approaches combined with potential of roughly 500,000 acre 
feet under each approach category. By comparison, the summation of 
potential water savings for each conservation measure totals 2.44 
million acre feet per year when accounting for non-consumptive use 
savings outside the Basin and ignoring return flow impacts, and is 
reduced to 833,000 acre feet per year when only consumptive use savings 
are considered under each approach category.
            agriculture conservation and transfers workgroup
    The ``post-Basin Study'' workgroups are being set up to dig deeper 
into the details. A ``coordinating committee'' will oversee and 
coordinate the activities of these three work groups. The result will 
be a draft report that is scheduled to be released later this year.
    I will be co-chairing the Agriculture Conservation and Transfers 
Workgroup, along with the Bureau of Reclamation's Ken Nowak and Tina 
Shields, of the Imperial Irrigation District.
    The Agricultural Conservation and Water Transfers Workgroup is 
intending to collect information and prepare a report that: quantifies 
agricultural conservation and transfers of Colorado River water (both 
in and outside of the Basin) that have occurred to date, documents 
programs that have been successful to date, documents impacts and 
tradeoffs, lists any existing future plans for these types of 
activities, and estimates what potential savings could come from these 
existing plans. From this baseline information, this workgroup will 
also propose Phase 2 activities to be conducted in 2014 to the 
Coordination Team.
    Members of the Workgroup include:

    Co-Chairs
          Ken Nowak, Reclamation
          Tina Shields, Imperial Irrigation District
          Reagan Waskom, Colorado State University
    Members
          Doug Bonamici, Colorado River Indian Tribes
          Astor Boozer, Natural Resources Conservation Service
          Grant Buma, Colorado River Indian Tribes
          Aaron Citron, Environmental Defense Fund
          Chuck Cullom, Central Arizona Project
          Aaron Derwingson, The Nature Conservancy
          Anisa Divine, Imperial Irrigation District
          Eslton Grubaugh, Welton-Mohawk Irrigation District
          Jeff Johnson, Southern Nevada Water Authority
          Mark Johnson, Coachella Valley Water District
          Janine Jones, California Department of Water Resources
          Dave Kanzer, Colorado River District
          Dan Keppen, Family Farm Alliance
          Randy Kirkpatrick, San Juan Water Commission
          Eric Klotz, Utah Division of Water Resources
          John Longworth, New Mexico Office of the State Engineer
          Jan Matusak, Metropolitan Water District of Southern 
        California
          Lee Miller, Southeastern Colorado Water Conservancy District
          Don Ostler, Upper Colorado River Commission
          Pat O'Toole, Family Farm Alliance
          Halla Razak, San Diego County Water Authority
          Russ Schnitzer, Trout Unlimited
          John Shields, Wyoming State Engineer's Office
          Ed Smith, Palo Verde Irrigation District
          TBD, Western Governors' Association/Western States Water 
        Council
          Tanya Trujillo, Colorado River Board of California
          Warren Turkett, Colorado River Commission of Nevada
          Grant Ward, Maricopa-Stanfield Irrigation and Drainage 
        District
          Erin Wilson, Colorado Water Users
          Brad Wind, Northern Colorado Water Conservancy District
          Ed Yava, Colorado River Indian Tribes
                concerns of basin agricultural interests
    Agricultural interests throughout the Basin, from headwater areas 
in my state to the fruit and vegetable producers in the Imperial Valley 
and Yuma, are concerned with the future scenaros identified in the 
Basin Supply. I believe that Basin irrigation districts appreciate 
Reclamation and the Basin states for their collaborative effort that 
led to the completion of this important study. A key overall benefit of 
this study is that, from now on, all Colorado Basin parties can work 
from the same technical foundation. However, I also know that many 
agricultural interests are concerned that virtually every scenario 
assessed by the Basin Study shows a loss of Colorado River Basin 
irrigated acreage by the year 2060.
    The Basin Study assumes that irrigated acreage in the Colorado 
River Basin will decrease by 300,000 to 900,000 acres during the time 
period 2015 to 2060. Policy makers and Colorado River stakeholders must 
understand the critical implications of taking existing irrigated 
agriculture out of production. We are already behind the curve when it 
comes to meeting the future food needs of the world. Every single acre 
of land that is taken out of production reduces our capacity to meet 
that demand.
    Irrigated agriculture is one of the largest economic engines in the 
Western U.S., according to the 2012 Family Farm Alliance report, ``The 
Economic Importance of Western Irrigated Agriculture''. For a region 
that spans the 17 Western states, the total household income impacts 
derived from the ``Irrigated Agriculture Industry'', made up of direct 
irrigated crop production, agricultural services, and the food 
processing and packaging sectors, is estimated to be about $128 billion 
annually.
    There are concerns about how the quantity of agricultural water 
that can be conserved was developed in the Basin Study. Once we have a 
firmer hold on that number, I'm hoping we can spend our time focusing 
on incentives and solutions to actually fill the gap. Some of that will 
certainly come from improvements and expansions in infrastructure and 
some will come from temporary, voluntary transfer methods like the 
water bank concept included in the Study.
    We need to ensure that in-basin agriculture has the tools to remain 
resilient and profitable in the face of reduced supplies and increased 
pressure from cities to buy up agricultural land and water. Those tools 
can be directed to provide healthy flows benefits without permanently 
taking land out of production. Diversion and infrastructure 
improvements that can improve flows without drying up land are a good 
example. Healthy irrigated agriculture in the Basin provides value for 
water in place and gives environmental interests a partner to work with 
on conservation projects.
                past history can predict future actions
    Several of the entities who are represented on the Ag Workgroup 
participated in the Colorado River Ag/Urban/Enviro Water Sharing forum 
a few years ago. Water used for agriculture in the Colorado River Basin 
and the western United States is increasingly seen as a potential 
supply for growing urban and environmental needs. In 2008, the Western 
Governors' Association, working through their water arm, the Western 
States Water Council (WSWC), issued Water Needs and Strategies for a 
Sustainable Future: Next Steps. One of the next steps identified in the 
report was that``...states, working with interested stakeholders, 
should identify innovative ways to allow water transfers from 
agriculture to urban use while avoiding or mitigating damages to 
agricultural economies and environmental values.'' In direct and 
independent response to the WGA's call to action, a diverse Water 
Sharing Work Group of highly knowledgeable and influential water 
leaders representing the sectors of agriculture, urban interests, and 
the environment, set aside parochial positions to collaboratively take 
on the governors' challenge.
    One of the first issues the group resolved focused on the very 
nature of water transfers. Some in the group did not want to 
participate in any process that would somehow encourage additional 
water to be transferred out of agriculture. An essential first step in 
building the collaborative process was to come to the decision that the 
group would focus on ways to improve sharing of water between multiple 
sectors, and would not seek to find more ways to unilaterally transfer 
water out of agriculture.
    This group also recognized that there was a need for additional 
dialogue on the role of storage. Faced with mounting demands to provide 
water for urban growth and other beneficial uses, including 
agriculture, some members of the group identify themselves as pro-
storage. Others remain leery of the potential adverse impacts and costs 
associated with some storage projects. However, the group generally 
accepted the concept that there may be benefits to properly sized and 
located storage in certain circumstances, especially when such projects 
are part of a larger, multiple-benefit strategy. The group also 
generally agreed that when projects have the support of multiple 
entities, including agriculture, environmental, and urban players, the 
regulatory process for approval of such projects should be better 
integrated, more conducive to moving forward, and less embroiled in 
redundant action by multiple agencies.
    I helped facilitate the Ag/Urban/Enviro effort, and based on that 
experience, I think I have a good sense of the issues that we will 
tackle in the Workgroup I will be co-chairing. Colorado Basin 
agricultural interest will advocate that States and local governments 
consider the impacts of continued growth that relies on water transfers 
from agriculture and rural areas and to identify feasible alternatives 
to those transfers. Also, I'm certain the topic of aging infrastructure 
will come up. Aging Federal water infrastructure in the West must be 
addressed, as failure to reinvest in critical facilities will negate 
economic gains of past generations and create a failed legacy for 
future generations. It is imperative that we find creative ways to 
provide for the operation, maintenance, and modernization of existing 
water supply infrastructure. And, Colorado River Basin farmers and 
ranchers have long advocated for new water and power supplies, which 
they see as necessary to satisfy recreational and environmental needs, 
allow for population growth, and protect the economic vitality of the 
West. They would like the federal government to adopt a policy of 
supporting new efforts to enhance water supplies and management 
flexibility, while encouraging state and local interests to take the 
lead in the formulation of those efforts.
    Irrigated crop production has a long history of innovation and 
adapting to changing conditions. New technologies and more efficient 
use of water are constantly being developed and voluntarily implemented 
throughout the irrigation belt of the West. The recent drought has 
certainly accelerated new technology and these advances in irrigated 
agriculture are most often first introduced to producers through the 
USDA Farm Bill programs. EQIP and the other programs target proven 
conservation practices and provide technical and financial assistance 
to farmers and ranchers as they continue to voluntarily reduce water 
use and improve irrigation efficiencies. Farmers need conservation 
programs such as EQIP and the CREP to assist, not subsidize, them as 
they face extremely difficult water conservation challenges caused by 
both drought and growth.
                               conclusion
    I am pleased that Reclamation and the Basin States are committed to 
the continued refinement of scenario planning as part of a robust long-
term planning framework for the Basin. Policy makers and elected 
officials must clearly understand the importance of Western irrigated 
agriculture and the implications associated with transferring the water 
currently producing food in the Colorado River Basin and elsewhere.
    At the appropriate time, federal authorizations or appropriations 
may be recommended or suggested as a result of the deliberations by the 
Workgroups and the States. We look forward to working with the Congress 
as we address these future challenges.
    Thank you for this opportunity to present testimony to you.

    Senator Udall. Dr. Waskom, thank you.
    Let me recognize myself for 5 minutes to direct some 
questions to the panel. We've been joined by my colleague and 
friend, Senator Flake from Arizona. When I've completed my 5 
minutes, I'll recognize him for questions he may have.
    Dr. Waskom, in your testimony you suggested it may be 
possible and encourage more conservation on Ag lands. Can you 
give us some examples of how the industry can work with less 
water, but still maintain the productivity required to feed our 
country? Can you explain in a second section how the Farm Bill 
programs like EQIP and CSP are helping conservation efforts in 
Ag?
    Mr. Waskom. Thank you, Mr. Chairman.
    That's a very important question. So we know that we can 
conserve water in agriculture. You state that well. The 
question is can we do that and still maintain productivity, 
right? That is the difficult question as well as can we do 
that, maintain productivity and transfer water to other uses. 
That's where the complexity and the tradeoffs really fall in.
    So yes, there's mechanisms. We can do that by fallowing 
marginal lands, by upgrading our infrastructure, by improving 
diversions, canal structures on farm irrigation. There's a 
number of tools in the bag of tricks.
    But what we have to keep in mind is that irrigation is a 
risk minimization strategy, right? We use that water to produce 
food with. When we get tighter and tighter on the amount of 
water that we have to use, the greater the risk that producers 
face.
    Relative to farm programs I think EQIP, the Ag Water 
Enhancement Program, the Conservation Stewardship Program. All 
of those have been very important in incentivizing producers, 
helping them with assistance to get some of these practices on 
the ground, so through both technical assistance as well as 
financial assistance.
    Senator Udall. Let me turn to Ms. Hawes.
    You highlighted the Basin's, I think $26 billion is the 
number you used, recreational economy. That's generated by 5 
million adult visitors, 2,034 thousand jobs are supported.
    Can you provide some insight on the ecological and 
recreational areas that are most at risk in the River Basin? 
I'm sure you have some sense of what the potential economic 
impacts might be given various thresholds of effects.
    Ms. Hawes. Certainly.
    A lot of the impacts are very local in nature. So there are 
endangered species, threatened species throughout the Basin on 
smaller tributaries like the Delores, the San Pedro. They're 
certainly impacts all throughout.
    There's booming recreational economies throughout the 
Basin. In your home State lots of places like Aspen, Vail that 
depend on a healthy river system for their economy and for 
their tourism.
    So there are some places in the Basin that we want to focus 
on first, what we consider Integrator Rivers. If you can 
protect those rivers they have a bigger bang for their buck, so 
to speak. Some of those might be places like up the Green 
River, the San Juan River, the Upper Colorado, the Yampa.
    Some of those Upper Basin tributaries really impact the 
whole system and provide recreational opportunities all the way 
down. We owe that water down to Lake Powell anyway. So we're 
just trying to figure out ways to see how we might enhance 
those resources as they go down to Lake Powell.
    In terms of some of the impacts I think there's quite a 
few.
    First there's the impact to businesses that rely on the 
river whether that's rafting companies, angling, you know, 
fishing guides, wineries. In Grand Junction there's lots of 
different businesses that rely on the river. There's also 
communities along the river that rely on helping a healthy 
river for their tourism, as I mentioned.
    There's also a recent study out. That just came out 
yesterday about real estate values and how they're linked to 
having a healthy river. So I think we'll see things like as 
rivers, I think the study said and I have not had a chance to 
look at it yet, that the headline was, ``As Flows Drop How Does 
That Affect our Real Estate Values?'' The idea is that it's a 
negative one. People like to live along a healthy river.
    Also there's an avoidance cost I think when it comes to 
endangered and threatened species. It costs a lot of money to 
recover a species. It's much easier to find proactive ways to 
protect a species before they're threatened.
    So there are some species that are on the edge. Our goal 
would be to make sure that those species don't fall off the 
edge. That has benefits for all of us because if you have an 
Endangered Species Act compliance program that reduces the 
flexibility of water users.
    So we want to make sure we're not creating that situation. 
But that means having a healthy river system.
    Then last I would mention hydropower. That's a flow benefit 
in many parts of the Basin. That's a big driver. In fact I met 
the head of the Regional WAPA, Western Area Power, person on 
the plane yesterday who was coming out here to talk to folks 
about flows and how they're concerned about Lake Powell and 
Lake Mead.
    So I think there's a lot of different things that we don't 
necessarily think about when we think about healthy flows. But 
they're all connected in having a healthy river system.
    Senator Udall. Let me recognize Senator Flake. I know he 
has a fellow Arizonan here. Ms. Ferris I also think my family 
had some involvement in the good work you all have done in 
Arizona.
    Ms. Ferris. Yes, indeed, Senator Udall. I was thinking 
about my last visit here was 30 years ago when I was coming 
here to save the CAP by passing a ground water code. I had the 
great privilege of meeting your Dad at that time. It was 
terrific.
    Senator Udall. He had a long history with the CAP. I know 
Senator Flake's family does as well.
    Ms. Ferris. Yes.
    Senator Udall. I think I said earlier, Senator Flake, that 
it was said in the West that the Lees and Udalls are everywhere 
and we're related. But the Flakes are everywhere as well.
    [Laughter.]
    Senator Udall. It's great to have----
    Senator Flake. I was watching in my office and I was quite 
offended I was left out there.
    [Laughter.]
    Senator Udall. Senator Flake.
    Senator Flake. I appreciate that.
    Senator Udall. What was yours?
    Senator Flake. Thank you.
    Ms. Ferris, you have obviously a long history and have done 
so much good work in the State Ground Water Act. What? Thirty-
three years ago now?
    Ms. Ferris. Yes.
    Senator Flake. It has stood the test of time and then some. 
I can tell you people who fly into Sky Harbor and look around 
and see the amount of development that has happened. They all 
ask the same thing. How are you able to do it in a desert like 
this?
    It was because of a lot of foresight and a lot of actions 
taken early on and sticking to the plan. I commend you for the 
good work early on and for all the good work since.
    Ms. Ferris. Thank you.
    Senator Flake. You mentioned in your testimony and I'm 
sorry, I listened to part of it and had to run over here. That 
you don't believe that conservation will be able to make up for 
the deficiencies in the future. It's going to take 
augmentation. Do you want to elaborate on that and in what way, 
what kind of augmentation are you talking about?
    Ms. Ferris. Mr. Chairman, Senator Flake, yes, I do believe 
that we need a comprehensive approach. As I said in my 
testimony conservation and reuse are essential. But we have to 
expand our thinking and look at what other possibilities are 
out there.
    I know that in Arizona we look locally first and then we 
try to look regionally at what we can accomplish regionally. I 
think that's what we're going to have to do in this situation 
as well. I'm not sure we can find a silver bullet to the whole 
problem. We're going to find regional and local approaches.
    But one of the things that's been discussed is 
desalinization. There is an option to look at desalinization 
along Southern California and in the Gulf of Mexico and use 
that water to meet Southern California's demands in a trade for 
using some other Colorado River elsewhere.
    So and that got pretty high remarks, I think, in the study 
in terms of economic viability. There's a lot of permitting 
required. I know that.
    But we also have the Yuma desalter in Yuma that has been 
mothballed for a long time. We know there was a trial program. 
We've got to explore them. We've got to explore all of them.
    Senator Flake. With regard to where direction ought to come 
from, like I said, I think all of us praise what has been in 
Arizona. A lot of forethought went into it.
    What role do you see for Congress to take place? It looks 
as if local expertise is where it's at here. But what to you 
see as a role for Congress moving ahead?
    Ms. Ferris. Mr. Chairman, Senator Flake, I think that we 
need to complete the next steps of this study and try to sort 
out if there is a role to played at the Federal level. I think 
first though it's really up to the States working with 
Reclamation to try to develop solutions that everyone can agree 
upon and that we can then, if we need Federal or congressional 
help then we come forward with the ask.
    But I'm not sure we're there yet. I know that it's going to 
take a lot of work at the Basin level, with the States, working 
together with Reclamation to really figure out those solutions.
    Senator Flake. Thank you. That's certainly what I prefer 
because I've seen the good work locally. If we're a last resort 
and obviously there are functions that Congress needs to 
perform here.
    But to the extent that can be done locally that's certainly 
the preference.
    Mr. Waskom, Ms. Hawes, do you want to talk about how these 
proposed solutions being talked about will be crafted in a way 
to protect some traditional agriculture. I know there's always 
concern in some of the agricultural communities that plans and 
moving ahead, in terms of water resources, will somehow leave 
them out.
    What can we do to make sure that doesn't happen?
    Ms. Hawes. You go first.
    Mr. Waskom. Thank you, Senator.
    My response to that would be part of what we're doing with 
the workgroups is really engaging a broad base of stakeholders 
from the top to the bottom of the Basin, agricultural 
stakeholders, folks that manage water on a day to day basis.
    I think really to answer your question we need to work 
closely with the irrigation districts in the Basin. They manage 
the water. They will know what the degrees of freedom are to 
move water around and where we can conserve and perhaps where 
we can augment it for the sake of agriculture as well.
    So that would be my response.
    Senator Flake. OK.
    Ms. Hawes.
    Ms. Hawes. Yes, thank you, Senator.
    In the State of Colorado we're looking at water banking in 
the State of Colorado as a mechanism to deal with compact 
compliance. But I think it has broader ramifications and the 
way that we're working with irrigators and cities and 
Reclamation and the tribes. We've hired an Agricultural 
Outreach Coordinator just to be talking to agriculture because 
without agriculture there is no solution.
    Senator Flake. Right.
    Ms. Hawes. It has to be voluntary. It has to be something 
that works for them. When we talk about the water bank in 
Colorado our first line is if you're not on board this can't go 
forward.
    So we're really spending a lot of time exploring what their 
local concerns are. What, you know, there's economic issues. 
There are environmental issues within their own property 
sometimes.
    It has to work for them economically. I think we're 
spending some time trying to understand the technical issues 
that they are facing through fallowing and deficit irrigation 
and crop rotation. All those things have to be explored and we 
have to make sure their concerns are addressed.
    Senator Flake. Thank you.
    Ms. Ferris, do you have anything to add to that or I know 
you're limited in time for your opening statement. Is there 
anything else that you'd like to cover?
    Ms. Ferris. Mr. Chairman, Senator Flake, you know it's 
always a balance. That's how it feels to me. After all these 
years I've spent on this issue you really have to have 
collaboration among all the affected parties or nothing works.
    Senator Flake. Right.
    Ms. Ferris. So I'm a really big believer in that. I'm a 
really big believer in bringing everybody to the table and 
trying to forge the necessary solutions.
    Senator Flake. It is a tough balance. Property use and 
protecting property owners and conservation and supply, 
everything, it's a tough balancing act and manage to do it 
pretty well in Arizona. Thanks for all of your hard work here.
    So, thank you.
    Ms. Ferris. Welcome.
    Senator Udall. Thank you, Senator Flake.
    I, too, want to acknowledge the visionary work you've done 
in Arizona. I think many other States have taken a look at what 
you've accomplished and said, ``what can we apply in our 
State?''
    I know you work closely with most of the time, Ms. Mulroy, 
up in Las Vegas.
    Ms. Ferris. Yes.
    Senator Udall. Senator Flake, I'm inclined to think if we 
turn Ms. Ferris and Ms. Mulroy loose they might figure this all 
out for all of us.
    [Laughter.]
    Ms. Ferris. Just put us in a room together we'll do fine.
    Senator Udall. But anyway, I wanted to follow up a little 
bit on what Senator Flake was discussing with you about some of 
the successes you've had.
    Your working group, I think, is examining reuse as one of 
the future supply options. How do you take that into account as 
you examine the impact of enhanced reuse on downstream water 
users, most notably agriculture?
    Ms. Ferris. Senator Udall, really good question. It's 
really why we have these workgroups, I think, because if you 
read the study, especially on the reuse part it's pretty thin. 
There are some assumptions made that we can achieve 930 
thousand acre feet of savings through reuse, but it's very 
global. It acknowledges that we have to dig deeper.
    So that's really what the workgroup will do.
    I think again, we have to look regionally and locally 
because laws vary, as you know, from State to State. So in 
Arizona, for example, cities that treat waste water, that waste 
water becomes theirs. They can contract for it.
    That's part of the reason we've been so successful in 
reusing waste water in Arizona. Because we've been able to sign 
contracts with power plants and use the water for riparian 
areas and use it for industrial purposes.
    The laws in other States are very different. So obviously 
you've got to protect property rights as we go along. So we're 
just going to have to dig deeper into what is the existing law 
and the existing structures in different areas and really 
determine what we can really get from reuse and how we can do 
it in a way that doesn't impact vested water rights.
    Senator Udall. I look forward to hearing more about that.
    We're beginning to do more of this in Colorado. You're 
probably familiar with the city of Aurora, the second largest 
city. They've just opened a significantly sized reuse plant. 
Prairie Waters, I believe, is the name of the plant. It's 
raised some of those legal questions you just surfaced as well.
    But it's where we have to go as one of the solutions.
    In the end, though, augmentation is going to be important 
as how you augment and the effects that Ms. Hawes touched on.
    I want to turn to you, Ms. Hawes, for the last question 
before we conclude the hearing.
    Can you share some examples of a situation where multiple 
needs have been balanced between municipal, power, 
recreational, environmental and Ag users? If you could, include 
any of the key factors that resulted in those successes?
    I'm assuming you have a few or I wouldn't ask that 
question.
    Ms. Hawes. Thank you, chairman.
    As I described in my testimony we have some great examples. 
I think that's what gives me such hope. I'm definitely an 
optimist, as well, but if we didn't have so many great examples 
I think it would be harder to make the case.
    There's an example in Northwest Colorado where through the 
Upper Basin Recovery program which as we heard earlier is such 
a model for success.
    We enlarged a small reservoir so it was an existing 
reservoir. It didn't have to go through huge permitting hoops. 
But they raised the level of the reservoir to get another, to 
achieve an increased yield of about 15,000 acre feet of water.
    They then divided that in thirds.
    One third for the fish, for the endangered fish.
    One third for a local power plant.
    One third for local communities and agricultural interests 
available by contract.
    So I think that's one example, kind of a local one, but 
where again the key factor was political will. Everybody 
recognized that it was necessary. We needed better base flows 
in the region. All the parties came together. They did the 
financing was easy and the permitting was a breeze by today's 
standards.
    So once you have all those parties in agreement it makes it 
a lot easier to, kind of, push the project forward and meet all 
those multiple purposes.
    Another recent example is the bi-national agreement, Minute 
319. My point I'd like to make is if we can do that with 
Mexico, we can do that with recreational interests and 
environmental interest around the Basin. So in that example 
there was multiple benefits being met.
    It was tourism in Mexico. It was environmental flows and 
restoration for migratory bird habitat in Mexico. There was 
shortage sharing between the two countries as well as surplus 
sharing if we're ever so lucky to have that day again.
    There was also investment from the cities in the U.S., in 
Mexico's infrastructure and then they got real water in 
exchange in Lower Basin cities. So I think that's another great 
example.
    In my testimony I also describe an example in the San Pedro 
River in Arizona where ground water levels were dropping. It 
was affecting the river, but it was also affecting the 
community. So through good science and a lot of time spinning 
out, figuring out exactly what was the problem.
    They were able to identify key recharge locations that 
could be used. It can use effluence and storm water to recharge 
in these key locations, recharge the ground water which not 
only benefits the communities, but it also benefits the river. 
We've been able to track that progress along the way.
    So I think there are great examples out there. I could go 
on, but I think that we can see all around the Basin that there 
are good examples of us finding ways to meet all these multiple 
purposes. The key factor, in my opinion, is political will.
    Senator Udall. Political will.
    That's very helpful. You all have provided some 
fascinating, crucial testimony. It may not be as fascinating to 
people who live east of the 100th meridian, but it's very 
fascinating to us who live beyond the 100th meridian, which, of 
course, was the title of a well-known book that talked about 
the original belief on the part of the settlers. The Native 
people were a little wiser than the settlers were. But the rain 
follows the plow.
    We're now looking for a new construct in the 21st century 
that combines your optimism with the realism that this study 
lays in front of us. I'm confident we can, through technology 
and ultimately through political will, get to where we need to 
be. The very way of life we all love in the Southwest depends 
on it.
    So thank you again for your important testimony. We will 
keep the record open for two more weeks to receive any 
additional comments. Some of the committee members may want to 
submit additional questions in writing, and I know you all will 
be happy to submit answers for the record.
    I also want to thank the first panel which was an important 
part of this hearing as well.
    With that, the subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Mike Connor to Questions From Senator Udall
    Question 1. As climate change could have a major impact on the 
amount of water available in the Colorado River Basin, how can states, 
tribes, and local entities prepare for and adapt to such conditions?
    Answer. While climate models do not definitively agree upon the net 
impact climate change may have on Colorado River flow, annual (natural) 
historical data of the past 20 years averages nine percent below the 
long-term mean (1906-2013). Further, considering the past 14 years, 
annual average flow has decreased by twice that amount (down to 82 
percent of long-term mean). Recent measured flow reductions, coupled 
with a considerable number of climate models projecting further 
reductions in flow, suggest that it is prudent and essential to plan 
for future decreases in water supply.
    As we continue to encounter significant drought conditions, the 
communities that rely on the river to sustain them are being forced to 
make tough choices. It is likely that climate change and its emerging 
challenges will have major consequences on the Colorado River system. 
There is no silver bullet to solve these challenges. Fortunately, the 
level of cooperation among key stakeholders has never been higher and 
as a result, there is reason for optimism, even in the midst of the 
daunting challenges that exist in this Basin. The Department will 
continue to be a partner in assisting the Colorado River Basin to 
prepare for, and successfully address, the significant issues 
identified in the Bureau of Reclamation's Colorado River Basin Supply 
and Demand Study (Study). The Study, along with the wide array of 
adaptation and mitigation strategies proposed by stakeholders and the 
public, is an important step towards facilitating much needed 
collaboration amongst States, tribes, local entities and stakeholders 
in order to identify and move forward with practical solutions.
    Question 2. Can you describe the role of the National Park Service 
with respect to the Basin Study? What, if any, will their role be in 
quantifying recreational and environmental flows in National Parks?
    Answer. The National Park Service (NPS) played a role in the Study 
through its involvement in the collaborative development of the Study's 
system reliability metrics for ecological and recreational resources. 
These metrics were the measure of how well the Colorado River system 
may perform in the future under different water supply and demand 
scenarios, with and without the implementation of options to help 
resolve future imbalances.
    The NPS will continue to be a key partner in the Study's next steps 
process. This continuing effort will require innovative thinking, 
integration of many viewpoints and a commitment to work in a positive 
and collaborative spirit.
    The first part of this process builds on critical investigations 
identified in the Study as next steps and consists of the formation of 
a Coordination Team and three multi-stakeholder workgroups representing 
Federal, State, Tribal, agricultural, municipal, hydropower, 
environmental, and recreational interests. These workgroups will 
investigate: 1) Municipal and Industrial Conservation and Water Reuse, 
2) Agricultural Conservation and Water Transfers, and 3) Environmental 
and Recreational Flows.
    NPS representatives are members of the Coordination Team as well as 
the Environmental and Recreational Flows workgroup. The Environmental 
and Recreational Flows Workgroup has recently begun the process of 
preparing its work plan outlining near-term activities. The NPS Natural 
Resource Stewardship and Science Directorate includes technical experts 
in water resource management and climate change who will continue to 
support efforts to examine water supply, utilization, and ecological 
needs within the basin.
    Question 3. As you examined the Basin Study's findings and the 
Bureau's storage infrastructure, how can existing infrastructure be 
better utilized? Please quantify the cost of these improvements, as 
well as the potential effect on regional supply or demand in the Basin.
    Answer. Several ideas were received from the public related to the 
modification of current reservoir operations and construction of new 
storage. These options were not addressed quantitatively in the Study 
due to their complex legal and technical nature and their respective 
costs.
    Reclamation recognizes that modified reservoir operations and 
infrastructure have been and will continue to be important tools used 
to adapt to and mitigate the impacts of future imbalances. These tools 
have been used in the past, which continue to provide benefits through 
the 2007 Interim Guidelines for Shortage, Surplus, and Coordinated 
Operations of Lake Powell and Lake Mead. Brock Reservoir, completed in 
2010, was collaboratively constructed by Reclamation and stakeholders 
in the Lower Basin States to respond more effectively to changing 
weather and river conditions, and conserve water.
    Question 4. Are there ways the Bureau can help promote more 
effective and cost-efficient water use in coordination with its project 
beneficiaries?
    Answer. Reclamation has made substantial progress in addressing 
Colorado River water management over the past several years, including 
the 2007 Interim Guidelines for Shortage, Surplus, and Coordinated 
Operations of Lake Mead and Lake Powell, the 2010 signing of Minute 318 
and the 2012 signing of Minute 319 to the 1944 treaty with Mexico, the 
High Flow Experimental Protocol and Non-Native Fish Control programs 
adopted in 2010 at Glen Canyon Dam, and the WaterSMART (Sustain and 
Manage America's Resources for Tomorrow) initiative focused on prudent 
water management and new technologies to address upcoming gaps in 
supply and demand.
    Through WaterSMART, Interior agencies work with state and local 
water managers to plan for climate change, drought and other threats to 
water supplies and consider their potentially interrelated effects, 
taking action to secure water resources for communities, economies, and 
the ecosystems they support. In July 2013, Reclamation announced $8.2 
million in WaterSMART funding for projects to assist the Colorado River 
Basin by augmenting water supplies, conserving and reusing existing 
water supplies and planning for the future of the Basin. Interior 
awarded $2.8 million in Water and Energy Efficiency Grants for seven 
projects, $1.8 million for one Basin Study and one plan of study and 
$3.6 million for water reclamation and reuse projects in Albuquerque, 
NM and Long Beach, CA.
    Question 5. Do you anticipate that further studies will show that 
the location of water demands will not always correlate well with the 
location of potential supplies, resulting in a need for additional 
transport infrastructure?
    Answer. The system reliability analysis conducted as part of the 
Study indicates that Basin resources (water deliveries, hydropower 
production, and ecological and recreational resources) in locations 
throughout the Basin are vulnerable on some level to future supply and 
demand imbalances. However, the nature, timing, and magnitude of the 
future vulnerability are complex and dependent on a number of factors 
including the resource need and its location.
    Although the Colorado River system is one of the most complex 
networks of water conveyance in the world, many other situations exist 
where the location of supply does not correlate with the location of 
demand. In some cases, existing stream and river channels or 
infrastructure can be used to achieve the necessary conveyance of 
water. Many of the augmentation-type options to resolve future supply/
demand imbalances considered in the Study require additional transport 
infrastructure. The Study's portfolio analysis demonstrated that many 
resource vulnerabilities can be decreased considerably with a wide-
range of solutions in place. The Study does not result in a decision as 
to how future imbalances should or will be addressed, and Reclamation 
has not taken a position on the merits of any of these actions or 
whether it may ultimately support pursuing any individual actions.
    Question 6. The Basin Study identified a greater-than-zero chance 
of a Colorado River Compact ``call.'' Would Reclamation be prepared to 
participate in such an administrative effort within the confines of the 
Colorado River Compact? How would you see Reclamation's role in such an 
event? Does Reclamation believe the Basin States are appropriately 
prepared?
    Answer. The Colorado River Compact is the foundation of the Law of 
the Colorado River as well as a key element of applicable federal law 
that establishes the framework for Reclamation's Colorado River 
operations. The Compact establishes rights and obligations between the 
States of the Upper Division and the States of the Lower Division. It 
has long been recognized that in certain circumstances a ``Compact 
call'' could be invoked by one or more of the affected states. Working 
closely with the Department of the Interior, the seven Colorado River 
Basin States--as a group--have been aggressively engaged and successful 
in dealing with emerging challenges on the Colorado River in a 
cooperative and consensus-based fashion, particularly over the past 15 
years. This effort has resulted in adoption of numerous proactive 
measures designed to reduce the likelihood of disruptive events, 
including circumstances such as a Compact call. Reclamation will 
continue to work to ensure that accurate and objective information is 
available for decision makers and stakeholders, and Reclamation will 
continue to work to facilitate cooperative solutions that can meet the 
challenges ahead, including those identified by the Study.
         Responses of Mike Connor to Questions From Senator Lee
    Question 1. The study (page ES-20) noted that not all stakeholders 
were in agreement with the results. Please elaborate on this statement. 
What results were stakeholders not in agreement with? Which 
recommendations were the most controversial among stakeholders?
    Answer. As noted on page ES-20, not all stakeholders in the Study 
were in agreement with the option characterization results. The Study 
explored a broad range of options to help address future water supply 
and demand imbalances. Between November 2011 and February 2012, more 
than 150 ideas were received from stakeholders and interested parties 
to be included in the Study. A group of representative options, 
designed to represent the submitted ideas, were then ``characterized'' 
against a set of 17 criteria (e.g. cost, timing, technical feasibility, 
energy needs, etc.). These criteria were used to describe the options, 
provide a relative comparison of their attributes, and support the 
development of portfolios or groupings of options.
    Although the characterization process strove for objectivity and 
consistency, there were limitations including geographic challenges due 
to the Basin's large size and regional variety, the appraisal level of 
the analysis, potential subjectivity during the characterization 
process, and significant uncertainty due to limited data. It was 
recognized by all stakeholders that future efforts will result in a 
more in-depth assessment of the criteria, opportunities for additional 
research and development, and the improvement of available data.
    Question 2. The Colorado River Supply and Demand Study indicated 
(page ES-21) that in early 2013 Reclamation would consult and work with 
tribes regarding tribal water rights issues reflected in the report. 
What consultation with tribes has occurred and what is planned for the 
next few years?
    Answer. On May 28, 2013, in San Diego, Assistant Secretary for 
Water and Science Anne Castle and Commissioner Mike Connor joined 
dozens of stakeholders for a public event outlining a path of next 
steps for the Basin based on the findings of the Study. Darryl Vigil, 
Chairman of the Ten Tribes Partnership, provided an essential 
contribution to the event by presenting the tribal perspective on Basin 
needs. The next steps have included the formation of a Coordination 
Team and workgroups that will focus on the critical investigations 
identified in the Study. There are two Ten Tribes Partnership 
representatives on the Coordination Team as well as tribal 
representatives on the workgroups.
    In addition, Reclamation is committed to its ongoing support of 
Tribal Nations. For example, jointly with the Ten Tribes Partnership, 
Reclamation will conduct a study related to tribal water use. 
Reclamation is currently discussing the objectives and scope of this 
study with the Partnership. Additionally, Reclamation is engaged in 
discussions with the Intertribal Council of Arizona to better 
understand their issues raised during the Study related to tribal water 
and is committed to continuing to seek resolution on these issues.
    Question 3. What is Reclamation or Department of the Interior doing 
to bring in other federal agencies and programs during the 
identification of next steps for the Colorado River basin? Are U.S. 
Department of Agriculture programs (e.g., EQIP) that affect how water 
is used, drought resiliency, and agricultural water demands integrated 
into the next step efforts in the basin? Similarly, are U.S. EPA 
programs related to municipal water investments and water efficiency 
being evaluated for their potential contribution?
    Answer. A process has begun which moves beyond the Study to address 
projected water supply and demand imbalances in the Basin. This 
continuing effort will require innovative thinking, integration of many 
viewpoints and a commitment to work in a positive and collaborative 
spirit.
    The first part of this process builds on the critical next 
investigations identified in the Study and consists of the formation of 
three multi-stakeholder workgroups representing Federal, State, Tribal, 
agricultural, municipal, hydropower, environmental, and recreational 
interests. These workgroups will investigate: 1) Municipal and 
Industrial Conservation and Water Reuse, 2) Agricultural Conservation 
and Water Transfers, and 3) Environmental and Recreational Flows.
    Federal members on these teams represent a broad spectrum of 
federal agencies: Department of the Interior (Reclamation, National 
Park Service, U.S. Geological Survey, U.S. Fish and Wildlife Service), 
and Department of Agriculture (Natural Resources Conservation Service, 
U.S. Forest Service) agencies.
    Near-term activities include documenting the success of municipal 
and agricultural conservation programs, estimating the amount of 
additional water saving each program may achieve by 2060, and compiling 
a listing of best practices. Savings occurring from USDA and/or EPA 
programs will be addressed through this task.
    Question 4. No cross-cut budget for federal activities in the 
Colorado River basin affecting water demands and supply is publically 
available. Cross-cut budgets for a wide variety of federal agencies are 
regularly produced for the Florida Everglades restoration, California 
Bay Delta restoration, and the Great Lakes. Would there be value for 
producing a similar budget for the Colorado River water supply and 
demand in order to better understand the current federal role?
    Answer. Reclamation already closely coordinates with a number of 
federal agencies on Colorado River operations, planning, and 
ecosystems. These include the National Weather Service, Natural 
Resources Conservation Service, U.S. Army Corps of Engineers, and 
several agencies within the Department of the Interior including U.S. 
Fish and Wildlife Service, U.S. Geological Survey, and the National 
Park Service.
    Question 5. Among individual ``representative'' options included in 
each of the portfolios, how does current spending in the basin compare 
with the estimated range of costs for these actions in the recommended 
portfolios? (i.e., What would be the required increase in investment in 
individual areas?) For example, how much is currently spent per year on 
desalination compared to the recommended investment in portfolios A and 
B? How much is spent on weather modification, which is recommended in 
all portfolios?
    Answer. The Study considered four portfolios, each different in 
options, potential yield and associated costs. For a given portfolio, 
the actual investment was variable, depending on the demand and supply 
scenarios. This variability, coupled with uncertainty regarding current 
spending on option-type programs makes determining the ``suggested 
additional investment'' challenging. Ultimately, Basin-wide investment 
``need'' is likely to exceed current funding levels (both federal and 
non-federal) for most options considered in the Study. The exact amount 
will depend on a variety of factors, including but not limited to 
region, option type(s) and desired yield.
    As part of the Study's next steps, work groups are actively engaged 
in activities that examine existing agricultural and municipal 
conservation programs. Conservation was among the most frequently 
proposed options considered in the Study. Significant conservation 
efforts are already underway, but additional efforts could reduce 
supply-demand imbalances. Products from these workgroups will quantify 
previous efforts (in both water savings and dollars) and illuminate the 
additional effort, financial and otherwise, to achieve the additional 
levels quantified in the Study.
    The other major category of options can be broadly described as 
augmentation: developing other water supplies to ease the burden placed 
on the Colorado River. Currently few projects exist that fall into this 
category. The Yuma Desalting Plant (Yuma, AZ) was completed in the 
early 1990s and has a capacity to conserve approximately 100,000 acre-
feet/year. In Carlsbad, CA, a 56,000 acre-feet/year desalination 
facility is scheduled to be completed in 2016. For comparison, 
desalination options modeled in the Study offered a potential yield of 
about 1.5 million acre-feet/year by mid-century. Thus, in the case of 
desalination, the maximum rate of development would constitute an 
approximate 10-fold increase relative to the past ?35 years. Given 
increasing costs per acre-foot associated with option implementation 
and the potential for imbalances to increase over time, it is prudent 
to assume that additional Basin-state investment beyond current levels 
will be required.
    Question 6. How confident is Reclamation in its estimates of the 
potential costs for the portfolios? Please elaborate further on the 
basis for these estimates and the major assumptions used. The costs 
appear to range from $4 billion to $7 billion annually in 2060 (in 2012 
dollars).
    Answer. As part of the option characterization process, all 
submitted options were characterized using 17 evaluation criteria and 
the relative cost of an option was one of the characterization items. 
The cost criterion included capital and annual costs expressed in terms 
of unit costs in dollars per acre-foot. The option costs were estimated 
based on limited and high-level analyses. Therefore, knowledge of items 
such as costs, permit requirements, and long term feasibility are 
highly uncertain. For example, cost estimates for infrastructure-type 
projects are based on similar past projects with adjustments for 
parameters such as scale and location. These adjustments are 
approximate, especially for projects where the scale of the project is 
larger than any previously completed similar project. Past studies by 
the Association for the Advancement of Cost Engineering show that 
concept-level estimates can typically have an expected error range of 
between 30 to 50 percent. Cost estimates for non-structural type 
projects are often even more uncertain because historical documentation 
of costs for similar past projects are often not fully applicable or 
fully documented, or such projects are based on changes in human 
behavior. Despite the uncertainties in estimating the magnitude of 
costs, a significant effort was made to provide cost estimates that are 
useful when considering relative costs.
    Question 7. Of the specific options and strategies outlined within 
the portfolios, which options are the most and least viable? Was there 
any effort to quantify which options were the most and least cost 
effective, in terms of cost per acre-foot?
    Answer. As part of the option characterization process, each option 
was characterized using a set of 17 criteria, including both 
quantitative criteria such as timing of implementation, annualized cost 
per acre-foot, yield, and energy use, and qualitative criteria such as 
technical feasibility and implementation risk. The cost criterion 
included capital and annual costs expressed in terms of unit costs in 
dollars per acre-foot, however the option costs were estimated based on 
limited and high-level analyses. Therefore, knowledge of items such as 
costs, permit requirements, and long term feasibility are highly 
uncertain.
    The Study shows that no single option or project will be adequate 
to meet the varied needs of the Basin under the range of future 
scenarios considered. Indeed, the four portfolios (groups of options) 
evaluated in the Study indicate that a diverse combination of options 
has the potential to reduce resource vulnerability. Future planning 
will require careful consideration of the timing, location, and 
magnitude of anticipated future Basin resource needs. The purpose of 
exploring the options and portfolios is not to identify a ``best'' 
portfolio or strategy, but to acknowledge that there are various ways 
to address the water supply and demand imbalance and to recognize that 
each approach has implications to be considered in future planning 
processes and decisionmaking.
    Question 8. What is the current status of federal salinity 
management issues in the basin, and how are salinity concerns being 
integrated into the decisions about next steps for water supply and 
demand?
    Answer. Reclamation partners with the seven Colorado River Basin 
States (Basin States) and other federal agencies to meet the target 
objective of reducing the annual salinity load in the Colorado River by 
1.8 million tons by the year 2030 under Title II of the Salinity 
Control Act (PL 93-320) (Act). Currently, federal agencies and their 
salinity control programs prevent about 1.3 million tons of salt from 
the Upper Colorado Basin from entering the Colorado River system each 
year. Reclamation's salinity control programs control about 570,000 
tons of that annual total.
    The Act also authorized funds deposited into the Upper Colorado 
River Basin Fund and the Lower Colorado River Basin Development Fund 
(Basin Funds) from a surcharge on power produced at Reclamation 
facilities to be advanced to cost share 30 percent of the cost of the 
Title II salinity control programs authorized by the Act. In recent 
years Reclamation has received about $8 million in appropriations for 
its Basinwide Salinity Control Program to fund with the cost share from 
the Basin Funds the installation of the salinity control measures with 
an average unit cost of about $55/ton.
    Under Title 1 of the Act, Reclamation constructed salinity control 
facilities to meet United States' obligations under Minute 242 of the 
1944 Treaty with Mexico. These facilities and programs currently enable 
Reclamation to maintain acceptable salinity levels in the water 
supplies delivered to Mexico, including the collection and analysis of 
data and reporting of salinity compliance. The Study's next steps 
process do not address salinity concerns explicitly, however, the 
extent to which salinity concentrations are impacted by agricultural 
conservation and water transfers will be documented.
    Question 9. How does Reclamation envision the future federal role 
in the Colorado River Basin? Is the federal role expected to change?
    Answer. The Secretary of the Interior, through Reclamation, serves 
as the water master for the Colorado River in the Lower Basin and is 
the responsible federal official for the many water and power projects 
throughout the Basin, delivering water and power to the recreational, 
agricultural, environmental, and municipal communities that depend on 
the river. As such, Reclamation and Interior are well positioned to 
provide leadership to work towards the goal of sustainable water 
supplies in the Basin. The collaborative approach adopted by the Study 
was paramount to its success. As in the past, Reclamation and Interior 
can provide a leadership role in furthering these partnerships so as to 
be well poised when new challenges and opportunities arise.
    Question 10. In your opinion, what is the best model for basin-wide 
decision making and coordinated implementation of programs such as the 
``portfolio'' options? Is there a comparable example of a decision 
making entity that takes into account all levels of interest and 
implements a coordinated strategy?
    Answer. Reclamation does not believe there is a single ``best'' 
model for basin-wide decision making and coordinated implementation of 
programs, and recognizes the broad range of interests that would have 
to be considered in any such analysis. During preparation of the Study 
Reclamation received input comprising over 150 options from Study 
participants, interested stakeholders, and the general public. Some of 
the options focused on Basin governance and mechanisms to facilitate 
option implementation (Governance and Implementation). Reclamation 
noted that the governance/decision making concepts that related to 
water management and allocation (including Tribal water issues) have 
significant legal and policy considerations that will require future 
consideration and discussions and were beyond the scope of the Study.
      Responses of Mike Connor to Questions From Senator Barrasso
    Question 1. Sections 201 and 202 of the Colorado River Basin 
Project Act direct the Secretary of the Interior to address the future 
water needs of the Western United States.
    Section 202 declares that the--

          ``satisfaction of the requirements of the Mexican Water 
        Treaty from the Colorado River constitutes a national 
        obligation which shall be the first obligation of any water 
        augmentation project planned pursuant to section 201 of this 
        Act and authorized by the Congress.''

    Does Section 202 of the 1968 Act have relevance or a bearing on 
what will be accomplished during the next phase of the Colorado River 
Water Supply and Demand Study?
    Answer. The Colorado River Basin Project Act is an important 
element of applicable federal law and part of the overall Law of the 
River. Reclamation does not anticipate that Sec. 202 will directly 
affect or be determinative with respect to the multi-stakeholder fact-
gathering efforts envisioned in the Study's next steps process. Current 
effort builds on findings for critical next investigations described in 
the Study and consists of the formation of three multi-stakeholder 
workgroups to investigate and provide additional factual detail 
regarding: 1) Municipal and Industrial (M&I) Conservation and Water 
Reuse, 2) Agricultural Conservation and Water Transfers, and 3) 
Environmental and Recreational Flows. Additionally, in an effort 
parallel to these activities, Reclamation-led activities will include a 
joint investigation with the Ten Tribes Partnership, related to tribal 
water use in the Colorado River Basin.
    Question 2. It seems highly unlikely that augmented water supplies 
in the Colorado River Basin will be dedicated to going to Mexico. How 
should we address Section 202 of the 1968 Act?
    Answer. The question of how Congress should address Section 202 of 
the 1968 Act goes beyond the scope and analysis of the Study. During 
preparation of the Study, Reclamation received input comprising over 
150 options from Study participants, interested stakeholders, and the 
general public, including options related to small and large scale 
augmentation concepts. A number of the options focused on Basin 
governance and mechanisms to facilitate option implementation 
(Governance and Implementation). Reclamation noted that a number of the 
governance/decision making concepts that related to water management 
and allocation (which would include issues involving augmentation under 
applicable law, including the 1968 Act) have significant legal and 
policy considerations that will require future consideration and 
discussions and were beyond the scope of the Study. In any future 
consideration of augmentation programs, the United States' obligations 
to Mexico under the 1944 Treaty will have to be fully considered and 
integrated.
                                 ______
                                 
       Response of Kathleen Ferris to Question From Senator Udall
    Question 1. In your testimony, you highlighted that the potential 
water saving figures included in the study do not capture the 
complexities of how municipalities manage their water, especially in 
regards to ``out-of-Basin'' cities like Denver and Los Angeles. 
Therefore, it becomes much more difficult to evaluate potential water 
quantity impacts on the Colorado River Basin as municipal water savings 
are likely not directly proportionate to their different sources of 
water. What information would it be useful for municipalities to 
provide in order to have a greater understanding of the impact their 
water management decisions have on the Basin?
    Answer. A municipal water provider considers many different factors 
if it has multiple sources of water to meet demands within its service 
area. Some of these factors include the volume of water in storage in 
surface water reservoirs, hydrologic forecasts of water supply 
availability, environmental issues that may impact the availability of 
supplies, water right restrictions and contractual requirements, cost 
of delivery of raw water to treatment facilities, cost of treatment to 
potable standards, quality of the raw and potable water, and cost to 
pump groundwater (if part of a supply portfolio). Consequently, there 
is variability in how providers choose to use their supplies from year 
to year.
    Municipal providers should be able to provide historic data 
identifying how much Colorado River water they have used. In many cases 
municipal providers have forward looking water resources plans that can 
inform us as to how their future use of Colorado River water might 
shift over time.
    The Municipal and Industrial Conservation and Reuse Workgroup will 
collect and analyze the necessary data, but it will take some time to 
accomplish this task.
         Responses of Kathleen Ferris to Questions From Senator
    Question 1. While Arizona's population increased from 5.1 million 
in 2000 to 6.3 million in 2010, water use remained relatively constant 
at 7.6 million acre-feet. Water use in 2010 was only 7% greater in 2010 
than in 1957. What are the lessons from the Arizona experience for 
dealing with the demand-supply imbalance identified by the Colorado 
River Water Supply and Demand Study?
    Answer. Arizona's experience demonstrates that a comprehensive 
water management program will yield the best results. All water 
sources--surface water, Colorado River water, groundwater and reclaimed 
water--must be addressed conjunctively. Arizona's approach employs 
regulatory and non-regulatory measures that often result in financial 
or other incentives for efficient use of water. This approach allows 
flexibility for water users to choose management options that work best 
for them, including balancing costs and rates.
    Arizona's municipal conservation program, for example, has a 
regulatory requirement to reduce per capita consumption, but how 
reductions are achieved is left to each water provider. This has 
enabled each provider to create water savings programs that meet the 
unique circumstances of its service area and to allow its customers to 
choose from a menu of water conservation options rather than dictate 
specific measures. The resulting partnership between water providers 
and their customers that has been effective in reducing Arizona's water 
use over time.
    An example of the value of more direct regulation is the Assured 
Water Supply program that requires new residential development to be 
served largely with renewable water supplies. Since the water resources 
and infrastructure to achieve compliance with this program are more 
expensive than using non-renewable supplies, such as groundwater, water 
providers are incentivized to use less water simply to control their 
costs. Arizona law also encourages the reuse of reclaimed water because 
the entity that treats the water is allowed to reuse that supply or 
contract with another for its reuse.
    Question 2. Arizona's municipalities have combined strategies for 
providing water for decades through innovations in groundwater storage 
and water banking. What will the demand-supply imbalance in the 
Colorado River basin mean for the ability and cost of reliably 
delivering water to water users in Maricopa County? What actions and 
investments are your members undertaking or preparing for meeting 
future water needs? How are these investments being financed? What role 
can groundwater management play in improving water supply reliability?
    Answer. The Central Arizona Project (CAP) shares the lowest 
priority for Colorado River water (along with Nevada) in times of 
shortages. If the projected shortages of Colorado River become a 
reality, Maricopa County water users, like many other water users in 
the Basin, will likely be required to curtail water use more often and 
will see increased costs.
    Because we have always known that CAP water has a junior priority, 
Arizona and municipal water providers have invested in measures to 
prepare for shortages. The legislature established the Arizona Water 
Banking Authority in 1996 to store excess CAP water (water not used by 
other Colorado River entitlement holders) underground for use by 
municipal water providers in times of shortages of CAP water. To date, 
the Banking Authority has stored over 3 million acre-feet of excess CAP 
water underground.
    AMWUA's members have undertaken and continue comprehensive efforts 
to enhance supplies and manage demand in order to meet future needs. 
These efforts have included:

  <bullet> Ongoing long-range planning, including extensive research to 
        understand future water demand trends, service area growth 
        patterns, supply availability, impacts of drought and climate 
        change, and potential regulatory impacts.
  <bullet> Full reuse of reclaimed water for beneficial uses such as 
        energy production, turf irrigation, agricultural irrigation, 
        environmental restoration and enhancement, and recharge, 
        offsetting potable supplies.
  <bullet> Storing excess surface water supplies underground for use in 
        times of shortages. To date, this storage amounts to over 1.6 
        million acre-feet.
  <bullet> Protection of groundwater supplies to ensure availability in 
        times of surface water shortage.
  <bullet> Development of necessary infrastructure to store, recover, 
        treat, and distribute supplies.
  <bullet> Continued investment in programs to increase water use 
        efficiency and conservation, including aggressive system leak 
        detection and repair; increasingly sophisticated metering and 
        tracking; customer outreach, education, and assistance; rebates 
        and incentives; ordinances and codes; and conservation-based 
        rates.
  <bullet> Examining options for augmentation, including opportunities 
        for water and water rights transfers on a willing buyer--
        willing seller basis; development and acquisition of additional 
        supplies from outside the county; treatment of brackish 
        groundwater; and the potential for direct potable reuse of 
        reclaimed water.
  <bullet> Drought planning, including strategies for curtailing demand 
        during shortage.

    Often, these actions and investments are best implemented on a 
regional level, with local water providers partnering with each other 
and, in some cases, state and federal governments, providing more cost-
effective, efficient, flexible, and successful solutions. Ongoing 
regional dialogue and discussion will continue to be critical to 
identifying and developing opportunities and initiatives to enhance 
water management and meet future water demand.
    These investments are primarily financed through bonding and water 
rates. Other funding mechanisms include:

  <bullet> Impact fees on new development.
  <bullet> Ad valorem property taxes assessed in Arizona's three most 
        populous counties for the purpose of constructing recharge 
        projects and paying for excess CAP water to be stored 
        underground by the Banking Authority to offset future 
        shortages.
  <bullet> Water Infrastructure and Finance Authority (WIFA). WIFA is 
        an agency of the state of Arizona and is authorized to finance 
        the construction, rehabilitation and/or improvement of drinking 
        water, wastewater, wastewater reclamation, and other water 
        quality facilities and projects. Generally, WIFA offers 
        borrowers below market interest rates on loans. As a ``bond 
        bank,'' WIFA is able to issue water quality bonds on behalf of 
        communities for basic water infrastructure. WIFA also manages a 
        Planning and Design Assistance Grant Program. This program 
        offers planning and design grants to eligible wastewater and 
        drinking water systems. The purpose of the grant program is to 
        help prepare water and wastewater facilities for future 
        infrastructure project construction.
  <bullet> The Arizona Department of Water Resources Water Management 
        Assistance Program provides financial and technical resources 
        and assists in the development and implementation of 
        conservation programs, augmentation programs, and programs to 
        monitor hydrologic conditions and assess water availability in 
        the Active Management Areas (AMAs) of the state. The program is 
        funded through a portion of the groundwater withdrawal fees 
        paid annually by those who withdraw groundwater in the AMAs.
  <bullet> Competitive funding opportunities, such as the Bureau of 
        Reclamation WaterSmart Program.

    AMWUA members have often pooled funding to accomplish regional 
objectives. Examples include:

  <bullet> Expansion of Roosevelt Dam.--Roosevelt Dam was modified in 
        the 1990's to increase storage capacity on the Salt River to 
        capture additional flows in wetter years. A coalition of six 
        AMWUA members, along with the Bureau of Reclamation, Federal 
        Highway Administration, Salt River Project, Central Arizona 
        Water Conservation District, Arizona Department of 
        Transportation, and Maricopa County Flood District, funded the 
        $424 million dollar expansion that increased the dam's capacity 
        to nearly 1.7 million acre feet (of which nearly 305,000 acre-
        feet is new conservation space allocated to the six AMWUA 
        members).
  <bullet> Construction and operation of underground storage 
        projects.--Underground storage is a cost effective alternative 
        to surface water impoundments to store excess renewable water 
        supplies for future withdrawal and use. In most cases, a water 
        provider's existing well system can be used to withdraw water 
        which has been stored underground when it is necessary to 
        recover the stored water.
  <bullet> CAP/Salt River Project (SRP) Interconnection Facility.--The 
        CAP/SRP Interconnection Facility (CSIF) allows for the 
        conjunctive management of water supplies from the Salt and 
        Verde Rivers and the Colorado River--the watersheds that 
        provide the majority of Arizona's renewable surface water 
        resources. Completed in 1990, in partnership with six of the 
        AMWUA members and at a cost of $10 million, the CSIF provides a 
        link between the CAP and SRP water delivery systems, increasing 
        the Valley cities' ability to take their Colorado River 
        allocations and put them to direct use or store them 
        underground at local recharge projects. The CSIF has also 
        facilitated water exchange agreements between SRP and CAP that 
        has allowed SRP to supplement its surface water supplies during 
        low-runoff years on the Salt-Verde system.

    Groundwater management has played an enormous role in improving 
water supply reliability since the State's adoption of the Groundwater 
Management Act in 1980. In an effort to reduce reliance on groundwater, 
the AMWUA members have developed diversified water supply portfolios 
consisting of multiple surface water sources, as well as extensive 
reuse of reclaimed water. Today, AMWUA's members rely on groundwater 
for only seven percent of their water supplies. As a result, 
groundwater is largely preserved for use when there is a shortage of 
surface water supplies in the future.
                                 ______
                                 
     Responses of Taylor E. C. Hawes to Questions From Senator Lee
    Question 1. What do the study's projections of water supply and 
demand suggest for the future for threatened and endangered species in 
the basin? How might these changes impact ongoing water project 
operations and related conservations programs? Are there certain 
endangered species or conservation programs that you expect to be more 
imperiled by these trends than others?
    Answer. There is no question that the Basin Study's projections 
suggest increased competition for limited water resources in the 
Colorado River Basin, if no action is taken. Increased use of the flows 
of the Colorado River Basin could pose risks to currently listed 
species and those at risk of listing. The Conservancy currently sits on 
the management committees of the Upper Colorado River Endangered Fish 
Recovery Program, the San Juan River Basin Recovery Implementation 
Program and the Lower Colorado Multi-Species Conservation Program. We 
are not involved in the Grand Canyon Dam Adaptive Management Program. 
Consequently, my responses will focus on the former three programs and 
in particular the Upper Basin Recovery Program, where we have been 
involved since its inception.
    The successes of the Upper Colorado Recovery Program and San Juan 
Recovery Program and related state specific efforts show that we can 
meet all needs, including those of fish and wildlife, with careful and 
flexible water management, good science and a collaborative approach. 
Because water rights management is largely governed by state laws, it 
is vital to have early federal/state cooperation on the issues 
identified by the Basin Study.
    The Upper Colorado Recovery Program and the San Juan Recovery 
Program are critically important forums that have demonstrated 
cooperation, commitment and success in conserving threatened and 
endangered species while allowing water development and management 
activities to continue. They have been shown to be adaptable to 
changing conditions and we hope they will continue to receive strong 
federal, state and tribal support. I have attached the 2012 Briefing 
Book from the two programs documenting their progress and success. They 
are model programs demonstrating that protecting the environment and 
water supply do not have to be in conflict.
    At the state level, Utah established a model water rights leasing 
program designed to keep native fish off of the endangered species 
list. Under this law, passed in 2008 and amended earlier this year, 
private groups may lease water rights from landowners and agricultural 
producers for use instream to benefit native trout. This state program 
uses the free market to foster collaborations that can benefit both 
irrigators and the environment.
    Water users and conservation stakeholders must work together to 
explore additional management tools, such as an Upper Basin Water Bank, 
that could benefit cities and rivers and protect the region's 
agricultural economy. Reclamation's Basin Study follow-up process 
provides a viable path forward to address these challenges. Moreover, 
proactive action is the key to avoiding any new species listings.
    Question 2. In your opinion, are conservation programs in the basin 
adequately coordinated on a basin-wide scale?
    Answer. There are four major recovery programs in the Basin. The 
Bureau of Reclamation and U.S. Fish and Wildlife Service are involved 
in all four programs, so there is cross-over and coordination across 
those agencies. In addition, there are organizations like The Nature 
Conservancy, water providers, and tribes whose representatives 
participate in multiple recovery programs. This overlap in membership 
provides additional informal coordination. Several years ago, there was 
also a basin-wide researchers' conference that included all four 
recovery programs, and the Upper Colorado and San Juan Recovery 
Programs hold an annual researchers meeting. Gatherings like these 
facilitate sharing of information, techniques and lessons. It would be 
valuable to hold basin-wide science meetings periodically to ensure 
that we can learn from each other's successes and failures.
    In addition, it may be worthwhile for the federal agencies to 
ensure there is coordination among related programs of the Department 
of the Interior and the U.S. Department of Agriculture, including 
water, habitat and soil conservation and salinity management programs 
of the Fish and Wildlife Service, Bureau of Reclamation, Forest Service 
and Natural Resources Conservation Service. There may be ways to 
simultaneously reduce red tape for agricultural producers and achieve 
greater conservation benefits if these programs are more closely 
coordinated. Such coordination could help avoid duplication of effort 
and maximize the use of limited federal resources.
    Question 3. How would you characterize the implementation of 
adaptive management in the basin to date? Has it been successful? What 
are the challenges for adaptive management, and how what do they tell 
us about the prospects for the options outlined in the Supply & Demand 
study?
    Answer. The recovery programs mentioned above are all adaptive 
management programs. Monitoring and adaptation are critical elements of 
successful recovery. In particular, the Upper Basin and San Juan 
recovery programs have diverse participants who bring their science and 
technical expertise to bear to understand fish population and habitat 
trends and develop solutions for species recovery. In the two Upper 
Basin programs, we are seeing signs of recovery, especially in Colorado 
pikeminnow populations. There are no perfect strategies. Therefore, 
monitoring and then adapting offer our best chance at recovering the 
Basin's endangered and threatened fish species.
    There is one major challenge relative to adaptive management and 
results of the Supply and Demand Study. Water supplies are expected to 
decline over time and demand continues to increase. The combination of 
these factors means that we will likely have less flexibility in water 
management. This will require federal, state, tribal and municipal 
agencies and non-profit conservation groups to be even more creative 
and collaborative in finding ways to meet the needs of cities and 
wildlife while also maintaining a viable agricultural sector.
                                 ______
                                 
       Response of Tanya Trujillo to Question From Senator Udall
    Question 1. In your testimony, you mentioned that the Basin States 
have confirmed their ongoing commitment to take further action in 
conjunction with the Basin Study. Can you describe some of those 
proposals?
    Answer. In conjunction with the release of the Basin Study in 
December 2012, the Basin States prepared a document summarizing their 
ongoing commitments to address supply and demand issues within the 
Colorado River Basin. A copy of the Basin States' Commitments to Future 
Actions Following Release of the Basin Study is attached for the 
record. As was noted during the July 16 hearing, the Basin States and 
our water users have long recognized the potential for an imbalance 
between supply and demand in the basin if proactive measures were not 
taken to conserve and otherwise efficiently use water and/or to 
continue to develop additional supplies of water. The Basin Study was 
another tool to help the states and water users plan for the future. It 
provided another opportunity for the Basin States to work together and 
to confirm their ongoing commitments to encourage more conservation and 
develop additional supplies.
    The Basin States have noted that regional solutions such as water 
banking and joint funding of projects that conserve and more 
efficiently utilize water are effective mechanisms that should be 
continued and expanded. The states and certain water users have also 
jointly funded programs to increase supplies within the basin. 
Additional projects will continue to be developed in conjunction with 
the Basin Study's ``next steps'' process and other ongoing efforts.
       Responses of Tanya Trujillo to Questions From Senator Lee
    Question 1. Salton Sea restoration played a role in the 
negotiations of the 2003 Quantitative Settlement Agreement. What is the 
current status of Salton Sea restoration efforts?
    Answer. The Colorado River Board of California is not directly 
involved with the restoration of the Salton Sea. The Salton Sea 
Authority, a Joint Powers Agency within California (Saltonsea.ca.gov), 
has been established under California law and is actively working on 
Salton Sea restoration issues. The status of Salton Sea restoration is 
also the subject of the most recent ``River Report'' produced by the 
Water Education Foundation, (Summer 2013 ``Finding a Solution for the 
Salton Sea'', http://www.watereducation.org/doc.asp?id=876).
    Question 2. Legal challenges began soon after the adoption of the 
Quantitative Settlement Agreement. Are those challenges over with the 
June 2013 ruling that upheld the validity of the 12 contract 
agreements, or are there outstanding legal challenges? Are there any 
lessons to draw from the QSA experience for the future of efforts to 
manage future water supply and demand in the Colorado River basin?
    Answer. On July 31, 2013, the Superior Court of California issued 
its final Statement of Decision affirming the Quantification Settlement 
Agreement (QSA), in a state court proceeding consolidating several 
cases relating to the QSA (QSA Coordinated Civil Cases, No. JCCP 4353). 
As of the date of this response, the County of Imperial has indicated 
that it may appeal that decision but the deadline for filing appeals 
has not yet expired.
    A federal court lawsuit relating to the QSA is awaiting a decision 
by the Ninth Circuit Court of Appeals. The case was filed by the County 
of Imperial and Imperial County Air Pollution Control District. They 
have appealed a judgment granted in favor of the federal defendants by 
the district court. (People of the State of California ex rel Imperial 
County Air Pollution Control Dist. et al. v. United States Department 
of the Interior, et al., Ninth Circuit Case No. 12-55856.)
    The QSA and the quantification of water entitlements within 
California have allowed the California agencies to implement many of 
the very successful programs that continue to assist California in 
meeting its critical water supply needs. Negotiation, compromise, and 
cooperation from diverse interests can lead to comprehensive programs 
that can have widespread benefits throughout the Colorado River Basin.
                                 ______
                                 
       Response of T. Darryl Vigil to Question From Senator Udall
    Question 1. I understand that Reclamation is now conducting a 
tribal water study as part of their next steps. What is your 
recommendation for the best way to include tribes in the on-going 
planning process?
    Answer. The best way to include tribes in the on-going planning 
process is for the Bureau of Reclamation to establish a formal meeting 
process that includes the Basin States and the Tribes. When the Ten 
Tribes Partnership was initially formed in 1992, the Tribes were 
invited to attend and to participate in meetings with the Bureau of 
Reclamation and the Seven Basin States regarding water issues in the 
Colorado River Basin. While this practice was never formally adopted, 
over time, the practice of including the Tribes ceased. We recommend 
the initial process be reinstituted and that the Bureau establish a 
formal meeting process that includes the Basin States and the Ten 
Tribes. This will ensure that the Tribes will be included in all future 
water planning processes.
       Responses of T. Darryl Vigil to Questions From Senator Lee
    Question 1. The Colorado River Supply and Demand Study indicated 
(page ES-21) that in early 2013 Reclamation would consult and work with 
tribes regarding tribal water rights issues reflected in the report. 
What consultation with tribes has occurred? What are the Ten Tribe 
Partnership's priorities for federal action to address Colorado River 
water supply and demand?
    Answer. Representatives of the Bureau of Reclamation and the Ten 
Tribes' legal/technical committee have held meetings this year 
regarding tribal water rights issues but there have not been any formal 
``consultations'' between the Bureau and Ten Tribes. The meetings that 
have taken place centered on defining the scope of work that the 
Bureau's technical staff and the Ten Tribes' legal/technical committee 
will focus on during the tribal water study as part of the ``next 
steps'' to implement solutions to resolve imbalances in the Basin. 
Agreement has been reached by the Bureau's technical staff and the Ten 
Tribes' legal/technical committee on having future meetings regarding 
the tribal water study.
    The priorities of the Ten Tribes Partnership's for federal action 
to address Colorado River water supply and demand include the need for 
the Bureau to:

          1. Acknowledge and protect the early priority of tribal water 
        rights.
          2. Recognize and protect the unused allocation of the tribes' 
        quantified water rights.
          3. Recognize and protect the unquantified tribal water 
        rights.
          4. Recognize the special status of tribal reserved water 
        rights that is embodied in federal statutes and federal and 
        state case law.
          5. Provide a seat at the table for the Partnership for 
        participation in meetings between the Bureau and the Basin 
        States.
          6. Require that the Colorado River Simulation System model 
        quantify the extent of the reliance of water users on decreed 
        and undecreed rights of tribes not being fully exercised.
          7. Provide a mechanism for voluntary transfers of water such 
        as leasing.

    Question 2. What lessons about future tribal water challenges in 
the Colorado River basin can be drawn from the current drought 
conditions and experience with federal programs and basin water 
management?
    Answer. The drought and the Tribes' experience with federal 
programs and with basin water management highlight the following 
challenges:

          1. The Tribes cannot develop future tribal water use with 
        non-existent or failing infrastructure and limited funding.
          2. The Tribes' need enhanced opportunities to gain economic 
        benefit from their water resources.
          3. The Tribes need to participate in dialogue at the Basin 
        level by sitting at the table with the Bureau and the Basin 
        States.
          4. The Tribes must be treated more equitably relative to the 
        Basin States and Mexico.
          5. Congress must continue to support financial resources for 
        the on-going study such as the WATERSMART Program and the 
        Secure Water Act.
          6. The Tribes must be allowed to investigate conservation 
        practices, augmentation of supply, ground water storage, water 
        banking, desalinization, environmental, power generation, 
        agricultural, municipal, industrial, domestic, recreational and 
        cultural practices in order to address these challenges.
                                 ______
                                 
        Response of Reagan Waskom to Question From Senator Udall
    Question 1. When you examine agricultural transfers as a potential 
future supply to meet growing municipal and industrial demands, how do 
you see the diverse needs of these stakeholders being met, given the 
long term certainty desired by municipal and industrial users versus 
the reliable supply also needed by the agricultural community?
    Answer. Permanent voluntary transfer of agricultural water to 
municipal and industrial interests is the most common transfer 
mechanism and is generally deemed mutually beneficial for the buyer and 
individual seller. It is the third party interests that are most likely 
to not have all of their needs addressed in these transfers. Examples 
might be remaining shareholders lower in the ditch system that see more 
shrinkage losses on their water supply, or the local community that 
experiences a loss of jobs, or a local agricultural supply operation 
that loses an important customer from an already thin market base.
    Temporary transfers can work very well and actually benefit both 
agriculture and M&I interests and when local water markets function 
well, providing agriculture with a source of revenue and a spot market 
for those needing additional water during or following drought. There 
are a few examples of this in the Basin, such as the Arizona Water 
Bank. However, it should be noted that cities need a permanent source 
of water to meet demands and that temporary transfers are useful mainly 
for coping with drought or refilling reservoirs following drought. 
These temporary mechanisms are not well suited for base supply if other 
options are available.
    Bottom line is that there is not enough water to meet all of the 
needs in the Colorado River Basin, particularly when you factor in the 
need for enhanced environmental flows. Market based solutions are 
desirable, but public policy solutions that can lead to augmented water 
supplies are also important, particularly for sustaining our ability to 
produce food in the Colorado River Basin.
        Responses of Reagan Waskom to Questions From Senator Lee
    Question 1. The Colorado Water Institute is partially funded 
through the programs authorized under the Federal Water Resources 
Research Act; the Colorado Legislature also provides financial support. 
How have recent federal funding issues affected operations at the 
Colorado Water Institute? How have recent federal funding issues 
affected the federal data being collected (e.g., stream gages) in the 
state?
    Answer. The USGS chose to apply a greater percentage of the FY13 
sequestration cut to the Water Resources Research Institutes, cutting 
our base funding by approximately 40% and completely eliminating the 
competitive national grant program. In the case of the Colorado Water 
Institute, these FY13 federal budget cuts resulted in the elimination 
of funding for one research project and a reduction of funding for an 
additional project at my Institute. The net result is that several 
students did not receive funding for their graduate work, and there 
were important research questions that could not be addressed this 
year. Our Institute also had to eliminate part of our technology 
transfer activities as a result of these cuts. Funding from Colorado 
State University and the State of Colorado allowed our Institute to 
fare much better than many of the other smaller Institutes that do not 
enjoy the support that we do in Colorado. If FY14 budget cuts are 
similar or worse, significant harm or closure will result for many of 
the Institutes. I expect the Colorado Water Institute will be harmed 
but will survive.
    Stream gaging data and other critical water and natural resource 
data collection efforts will also be harmed by these cuts, hampering 
our ability to efficiently manage water resources during a difficult 
period of drought in the West. Retrograding our water infrastructure 
and information systems at the same time that water scarcity grows will 
eventually lead to crisis based decision-making, likely harming 
agriculture and other important sectors of our economy.
    Question 2. From the Institute's perspective, what are the priority 
research needs in the basin? What would be the appropriate federal role 
in this research?
    Answer. We need research based information on:

          1. Development of policy and economic incentives for 
        agricultural water use efficiency within the current legal 
        framework of Basin states.
          2. Development of advanced tools for measuring, monitoring 
        and modeling crop consumptive use and irrigation return flows 
        as we implement efficiency and conservation measures.
          3. Determination of food production impacts and appropriate 
        substitutions as water is voluntarily transferred out of 
        agriculture in the Basin.
          4. Management techniques to enhance use of marginal water and 
        reused water for agriculture in the basin.
          5. Development of policy and economic incentives for 
        establishment of robust water markets that can move water 
        across the Upper and Lower Basin states.
          6. Quantification of base flow and flushing flow needs for 
        specific reaches of the river that are likely to have future 
        disruptions based upon species listings. Development of 
        flexible arrangements to avoid further listings and provide 
        adequate habitat and refuge for species in these specific 
        reaches.
          7. Desalination technology

    The appropriate federal role in this research is providing federal 
funding through the existing programs such as WaterSmart and the Water 
Resources Research Act, leadership in establishing research priorities, 
coordination across federal agency research programs to avoid 
duplication and optimize data sharing, and providing incentives for 
state and local matching funds.
    Question 3. Given your research on municipal and agricultural water 
conservation and efficiency efforts, how can investments in 
conservation and efficiency most effectively address the imbalance in 
water demand and supply in the basin? What are the most effective means 
to prompt these types of investments?
    Answer. In the case of agricultural water conservation, the most 
effective investments are likely to be economic incentives based upon 
developing functioning markets targeted for specific irrigation 
districts where a market based solution can result in significant 
quantities of transferable water.
    Irrigated agriculture is going to need technical and financial 
assistance to implement conservation measures that benefit sectors 
other than agriculture, particularly when expensive upgrades in 
diversion structures and irrigation equipment are the best mechanisms 
to achieve greater efficiency. This assistance has historically been 
provided through various USDA and USBR programs. Federal cost sharing 
programs are historically the most effective mechanism to leverage 
local and state investments. In addition, federal attention to the 
aging infrastructure needs associated with federal water storage 
projects and irrigation canals is important to maintaining and 
increasing overall water use efficiency.
    Question 4. Your research has included research on water quantity 
and quality issues associated with coal bed methane in Montana and 
Wyoming. From this experience, what are some priority data or research 
needs associated with energy sector water use in the Colorado River 
basin?
    Answer. We must move forward aggressively to develop technology and 
incentives for cost effective recycling of produced water and hydraulic 
fracturing flowback. Additionally, technology to reduce water use for 
energy production and cooling is needed. Impaired and produced waters 
must be treated and put to beneficial use to the full extent 
practicable so that fresh water is not used in energy exploration and 
production processes where marginal water can be substituted. Efforts 
to collect data tracking the amount or percentage of produced water and 
frac-flowback water that are recycled by the energy industry would be 
helpful.
                                 ______
                                 
        Responses of Don A. Ostler to Questions From Senator Lee
    Question 1. Concerns about energy sector water use have increased 
in some areas of the Upper Basin in recent years. How would you 
characterize the significance of this water use compared to the other 
water supply and demand challenges in the basin? Are there unique 
features of energy sector water use that are of particular concern, and 
how effectively are the current institutional and legal arrangements 
both at the basin and state levels addressing this water use?
    Answer. The energy sector of water use in the Upper Colorado River 
Basin has the potential to become very large and significant, however 
the amount of development and the pace of development are extremely 
uncertain. There are widely varying estimates of future energy sector 
water demands. Conversely, it is also possible that certain portions of 
the energy sector (deep oil and gas wells which produce water) could 
introduce new water sources from deep aquifers into the basin if 
properly treated for quality purposes. Added to these uncertainties is 
the fact that water demands for various activities in the energy sector 
are also rapidly changing with new technology. In my opinion, the legal 
and institutional requirements are in place in the states to properly 
regulate water use within the energy sector now and into the future. 
Energy projects must acquire legally valid water rights from the States 
to use water for their projects. If water is not fully allocated in the 
area, they must follow the same process as any other entity to develop 
a new water source. If water is fully allocated, they must acquire or 
purchase valid existing water rights in order to proceed. Market values 
and existing laws govern such developments. I personally do not believe 
that water use regulation is the proper vehicle to determine the type 
of land use that is allowed in a given region. That should be done 
through proper planning and zoning. There are no basin-wide water 
requirements that are imposed on any given sector. Water is allocated 
basin-wide to each state and the states regulate individual water uses.
    Question 2. Are there any Upper Basin near-term priorities for 
federal action to address Colorado River water supply and demand?
    Answer. The Upper Basin continues to need financial assistance and 
technical support from the Bureau of Reclamation through the Water 
Smart program to assist us in development of a basin wide plan to 
address supply and demand imbalance in the entire Colorado River Basin. 
The Department of the Interior needs to continue to push and assist the 
Lower Basin States to address their current lack of sustainability in 
water use. The current imbalance of supply and demand in the Lower 
Basin, even absent drought, will have negative effects on water use in 
the upper basin as well due to coordinated reservoir operations. The 
lower basin currently uses more water than a normal compact allotment 
provides on an annual basis.
    Question 3. Which federal programs in any federal agency most 
influence how water is used in the basin by either influencing the 
demand for water or how water is supplied?
    Answer. The NEPA program and Endangered Species Act have 
significant impact on the ability to supply water to meet growing 
demands. The Salinity Control Program within the Bureau of Reclamation 
has a positive influence on how water is supplied to insure the quality 
is suitable for downstream uses.
    Question 4. What data collected by the federal agencies would be 
most helpful in improving basin water management decisions?
    Answer. The federal government has recently decreased funding for 
USGS stream gages and snow measurement stations (SNOTEL). This data is 
needed to help make sound supply management decisions. Additional 
climatological stations are also needed to better assess water use from 
agriculture.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Correction ``For the Record'' of the Prepared Statement of Kathleen 
 Ferris, Executive Director, Arizona Municipal Water Users Association
    A small but significant error exists in the information we provided 
regarding their water use trends on page 8 of Kathy Ferris' July 16 
testimony on the Colorado River Basin Supply & Demand Study.
    It currently reads:

          ``Between 1980 and 2010, the City's population increased by 
        83 percent, yet the City's total per capita demand increased by 
        only 35 percent and its total water production increased by 
        only 18 percent.''

    It should state:

          ``the City's total per capita demand decreased by 35 
        percent''.
                                 ______
                                 
     Statement of the Governor's Representatives on Colorado River 
   Operations: States of Arizona, California, Colorado, Nevada, New 
                       Mexico, Utah, and Wyoming
the seven basin states' commitments to future actions following release 
                           of the basin study
Background
    The Colorado River Basin Water Supply and Demand Study (Basin 
Study) is the most recent example of the Seven Colorado River Basin 
States (Basin States) and the Bureau of Reclamation (Reclamation) 
working together to address Colorado River water supply and demand 
issues. The possibility of future water supply and demand imbalances 
has been identified since the 1960's. For example over 30 years ago, 
the study, The Westside Study Report on Critical Water Problems Facing 
the Eleven Western States (Reclamation 1975), concluded that in spite 
of conservation, the Basin faces future water shortages unless its 
natural flows are augmented by more than 2.5 million acre-feet/year, or 
water-dependent Basin development is limited. With this knowledge, the 
Basin States and Reclamation have taken several actions to begin to 
address the potential for imbalance between future supplies and 
demands.
    The Basin Study is the most comprehensive effort to date to 
quantify and address future supply and demand imbalances in the 
Colorado River Basin. The Basin Study evaluates system reliability and 
also outlines potential options and strategies to meet or reduce 
imbalances that are consistent with the existing legal framework 
governing the use and operation of the Colorado River. A range of 
future water demands are quantified in six different demand scenarios 
that include varied assumptions about future economic conditions, 
population growth, and water needs for agricultural, municipal and 
industrial, energy, minerals, and fish, wildlife, and recreation 
purposes.
    The Basin Study considers four different water supply scenarios and 
is the first Basin-wide study conducted by the Basin States and 
Reclamation that considers the potential influence of climate change on 
future water supply. As described in Technical Report B--Water Supply 
Assessment, the climate change scenario, called the Downscaled Global 
Climate Model (GCM) Projected scenario, was developed using 112 
downscaled GCM projections and shows a median projected decrease in 
mean flows of about 9 percent on average over the 2011-2060 period as 
compared to the 1906-2007 period. For comparison sake, the 25th and 
75th percentiles show a decrease of 1 percent and 16 percent, 
respectively. Although this variation indicates the need for additional 
research to better project climate changes on the Colorado River Basin, 
the results strongly suggest that the Colorado River system is 
vulnerable to possible changes in water supplies resulting from a drier 
climate.
    The Basin Study's four different supply scenarios and six different 
demand scenarios present a broad range of possible imbalances. However, 
when comparing the median of the six demand scenarios combined with the 
median of four different water supply scenarios, a Basin-wide imbalance 
of approximately 3.2 million acre-feet/year by 2060 is plausible. 
Moreover, the greatest increases in demand are projected to occur in 
the Lower Basin. The Basin Study also illustrates that because of the 
magnitude and distribution of the imbalances, no single solution will 
be adequate to meet all future water demand and supply imbalances.
    The Basin Study confirms that the Basin faces a range of potential 
deficits between future water supply and demand and that these possible 
deficits will require diligent planning and implementation of water 
supply and demand management programs to help avoid severe shortages 
and provide necessary supplies for future demands throughout the 
Colorado River Basin. The flow of the Colorado River is highly variable 
and given this fact, diligent planning and implementation of water 
supply programs will need to include portfolios that combine options 
and strategies that both address supply and demand imbalances and also 
take advantage of higher flow years. Local, state, regional, and Basin 
wide projects will all be needed to meet demands over the 50 year 
planning horizon to ensure that the Basin can develop to its full 
potential.
    The Basin Study identifies a range of measures to address the 
supply and demand imbalance. Several options proposed during the public 
comment phase of the Basin Study raise serious legal and policy issues. 
Without the foundation of existing law, some options and strategies 
would require significant changes impacting a wide variety of local, 
state, and federal entities and resulting in increased uncertainty and 
risk. The Basin States will discuss all options submitted, however, 
they are committed to taking future actions that fit within the ``Law 
of the River''.
                  the seven basin states' commitments
Additional Conservation and Reuse
    The Basin Study recognizes that many municipal agencies in each 
state have implemented water conservation and reuse to meet the water 
needs of their growing populations and have incorporated comprehensive 
conservation programs into their planning to meet future demands. These 
conservation reductions are included in the forecast of future demands 
in the Basin Study. Municipal conservation can only be implemented step 
by step, providing a balance between water rates, demand elasticity, 
and demand hardening during droughts. Municipalities will continue to 
evaluate additional conservation and reuse, over and above what is 
already reflected in the Basin Study demand scenarios, and implement 
necessary programs on a case by case basis considering local 
conditions.
    In many states, significant agricultural conservation programs are 
already in place. Additional agricultural conservation, above that 
already included in the calculation of demands, will require 
significant additional investment. Agricultural water transfers are 
being implemented within the Law of the River, represented for example 
by forbearance of agricultural water use, and new transfers are under 
evaluation in many states. Many of the states are also exploring 
alternatives to permanent agricultural transfers, and these types of 
alternatives are being further analyzed and implemented. Only projects 
that actually reduce consumptive use will reduce the imbalances between 
future supply and demands. This Basin Study identifies additional 
conservation and transfer opportunities that will be considered by 
entities as appropriate through local and/or state measures. While 
these local and state programs will offer a partial solution in some 
areas of the Basin, they may be, in many cases, problematic because 
much of the water diverted for use within the Basin returns to the 
river or a tributary for use by others downstream.
Regional Solutions
    Water banking has been ongoing in the lower Basin for many years. A 
number of water banking options were submitted for consideration by the 
Basin States and Reclamation. A representative water banking option was 
included within the Basin Study to conceptually explore water banking. 
This option demonstrated that there are a number of legal, policy, and 
institutional barriers to implementing an Upper Basin water bank, 
however, the benefits associated with this option clearly demonstrate 
the need for additional exploration and analysis of this and similar 
concepts.
    There are many watershed and regional solutions already being 
implemented and explored by the states and water agencies. For example, 
the states and water agencies have jointly been funding weather 
modification pilot programs for over five years as well as land and 
vegetation management options. All of these regional solutions are 
outlined in the Basin Study. The Basin States and relevant water 
agencies are committed to evaluating and implementing programs and 
options that have the greatest potential to yield additional supply. 
Although generally observed to be effective, the potential to generate 
additional water can vary significantly from year to year, and it is 
often very difficult to quantify the additional amounts of water 
generated at particular locations within the river system. Accordingly, 
regional implementation of these options would likely need to be used 
to augment the river on a Basin wide basis.
Desalination and Importation Solutions
    The large demand and supply imbalances projected at the latter part 
of the planning horizon can realistically be met only with 
implementation of a variety of options and strategies. Of the options 
analyzed, only large scale desalination and importation projects 
provide the reliability and quantity of water necessary to meet many of 
the plausible projected supply/demand imbalances. Future population 
growth in the Basin, the uncertainty of the reliability of the Colorado 
River supply and long lead times for implementation of projects, 
dictate that the Basin States and the Federal Government must start 
evaluating options for developing such project(s) immediately. For 
example, permitting and construction of large scale desalination 
projects may take 20 years or more before the projects become 
operational. The Basin States, in cooperation with appropriate Federal 
agencies will form a partnership to immediately begin developing a 
process to consider feasible options for developing large scale 
desalination and/or importation project(s), with the goal of having 
such project(s) in operation before the end of the planning horizon (by 
2060).
Other Commitments
    Modification to the operations of Lakes Powell and Mead was 
implemented in 2007 through the ``2007 Guidelines'' and will be 
effective through 2026 with re-consultation to occur no later than 2020 
or if Lake Mead reaches an elevation of 1,025 feet. The Basin Study 
does not contemplate any changes to the 2007 Guidelines. Within the 
context of the 2007 Guidelines, Basin States' representatives will 
begin discussions of additional measures or approaches to be taken at a 
Lake Mead elevation of 1,025 feet.
    The Basin Study has again demonstrated to Reclamation and the Basin 
States the great interest in the future of the Colorado River by a wide 
variety of stakeholders--tribes, recreational entities, power 
providers, environmental organizations and conservation groups. As work 
continues following the completion of the Basin Study and based on its 
recommendations, the Basin States and Reclamation will continue to work 
with key stakeholders to explore solutions.
    The Basin Study provides tools for water resource planning for the 
Colorado River Basin. The Basin States will work with Reclamation to 
evaluate progress regarding consideration of options listed in the 
Basin Study, evaluate the ability to use the tools developed for the 
Basin Study, and update water demands and supply scenarios on a five-
year time frame. In addition, the Basin States will work with 
Reclamation to support improvements in the modeling and analytical 
tools used in the Basin Study and the information developed to support 
those tools, including those improvements specifically described in 
Appendix C5 of Technical Report C--Water Demand Assessment.
    The Basin States will work with local, state, and federal 
representatives, and a wide array of diverse and interested 
stakeholders, to obtain funding to aid in the assessment and 
implementation of the above listed initiatives.
                 arizona department of water resources
    The Colorado River is a critical resource for the long-term health 
and economic welfare of the State of Arizona and its citizens. The 
Arizona Department of Water Resources (ADWR) is charged with promoting, 
protecting, and managing Arizona's annual apportionment of 2.8 million 
acre-feet of Colorado River water. ADWR represents all mainstem water 
users including the Central Arizona Project (CAP). Arizona's 
apportionment is used for municipal, industrial, agricultural, Tribal, 
and wildlife refuges purposes. Annually, the mainstem Colorado River 
users utilize approximately 1.2 million acre-feet of Arizona's 
apportionment. The CAP diverts the remaining 1.6 million acre-feet of 
Colorado River water for its customers in Central Arizona (Maricopa, 
Pinal, and Pima counties).
    Arizona, in particular CAP and many mainstem users, is unique among 
the Basin States due to its vulnerability to the impacts of shortages 
from its junior priority status consistent with the Law of the River. 
In total, 6.2 million Arizonans, most of whom live within the CAP 
service area, and nearly 800,000 acres of irrigated agricultural land 
rely on Arizona's Colorado River allocation. Therefore, Arizona, 
especially CAP and other mainstem entitlement holders, are vitally 
interested in enhancing the current and future reliability of Colorado 
River system through augmentation and other means to meet current and 
future Arizona water needs.
            APPROVED:
                                    Sandra Fabritz-Whitney,
                                                          Director.
                   colorado river board of california
    The Colorado River Board of California has authority under 
California law to investigate, coordinate, collate, and preserve 
information, facts, and data bearing upon the Colorado River System and 
to confer with representatives of other States in the Colorado River 
Basin, representatives of the United States, and other concerning the 
development of water within the Colorado river Basin and the use of the 
water of the Colorado River System.
            APPROVED:
                                               Bart Fisher,
                                                          Chairman.
                   colorado water conservation board
    The Colorado Water Conservation Board (CWCB) was established in 
1937 to guide the development and protection of water resources for the 
benefit of present and future Coloradans. Through policy 
implementation, financial support for water projects, and participation 
in statewide as well as nationwide programming, the CWCB strives to 
most effectively utilize this valuable resource. This fifteen member 
Board and professional staff work with the federal government, 
neighboring states, and water users within Colorado to strike a balance 
between necessary development and environmental protection. The CWCB 
serves as Colorado's primary guide for water policy in all of the 
state's river basins, as well as administration of major compacts, 
decrees, and treaties.
            APPROVED:
                                           Jennifer Gimbel,
                                                          Director.
                  colorado river commission of nevada
                    southern nevada water authority
    The State of Nevada participants in the Colorado River Basin Study 
include the Colorado River Commission of Nevada (CRCN) and the Southern 
Nevada Water Authority (SNWA). The CRCN is a State authorized agency 
responsible for securing and protecting Nevada's rights and interests 
in the Colorado River and in electric power generated by the river. The 
SNWA is a political subdivision of the State of Nevada and is 
responsible for addressing Southern Nevada's water needs on a regional 
basis. The SNWA represents seven member agencies including the Big Bend 
Water District, the City of Boulder City, the City of Henderson, the 
City of Las Vegas, the City of North Las Vegas, Clark County Water 
Reclamation District, and the Las Vegas Valley Water District. The CRCN 
and the SNWA work cooperatively to effectively manage Colorado River 
water resources for the State of Nevada and water users in Southern 
Nevada.
            APPROVED:
                                             Jayne Harkins,
           Executive Director, Colorado River Commission of Nevada,
                                           Patricia Mulroy,
                  General Manager, Southern Nevada Water Authority.
                new mexico interstate stream commission
    The New Mexico Interstate Stream Commission (NMISC) is authorized 
by statute to do any and all things necessary to protect, conserve and 
develop the waters of the state, including representing the state of 
New Mexico's interests in the allocations made to New Mexico under the 
Colorado River and Upper Colorado River Basin compacts. In addition, 
the NMISC looks after the interests of all Colorado River water users 
within the State of New Mexico. The use of Colorado River water is 
vital to the economic health and public welfare of the state of New 
Mexico and its citizens and includes water used for municipal and 
industrial, irrigation, and tribal purposes while providing fish and 
wildlife, recreational and environmental benefits within the San Juan, 
Little Colorado, Gila and Rio Grande basins.
            APPROVED:
                                             Estevan Lopez,
                                                          Director.
                    utah division of water resources
    The Utah Board of Water Resources (Board) and the Division of Water 
Resources (Division) were established to develop and protect the water 
resources of the State of Utah for the benefit of present and future 
citizens of Utah. Through policy implementation, water resource 
planning, and financial assistance for water projects, the Division and 
the Board work to effectively utilize this precious resource. As the 
Governor's representative for interstate streams, The Division 
represents Utah to coordinate work with the federal government, 
neighboring states, and water users within Utah to achieve the goals of 
protecting our scenic natural environment while maintaining the vital 
use and development of water to promote the wellbeing and economic 
vitality of Utah on behalf of its citizens.
            APPROVED:
                                          Dennis J. Strong,
                     Director, Utah Interstate Stream Commissioner.
                            state of wyoming
    Water in Wyoming belongs to the State. The Wyoming State Engineer 
is a constitutionally-created office and is Wyoming's chief water 
official with general supervisory authority over the waters of the 
state, and of its appropriation, distribution and application to 
recognized beneficial uses. The State Engineer is entrusted with the 
duty to preserve Wyoming's water allocations to safeguard the State's 
current and future water supplies. The Wyoming legislature has 
conferred upon Wyoming officers the authority to cooperate with and 
assist like authorities and entities of other states in the performance 
of any lawful power, duty or authority. Wyoming and its State Engineer 
represent the rights and interests of all Wyoming appropriators with 
respect to other states.
            APPROVED:
                                        Patrick T. Tyrrell,
                                                    State Engineer.

                                    

      

</pre></body></html>
